<html>
<title> - BALANCING PROSPERITY AND SECURITY: CHALLENGES FOR U.S. AIR TRAVEL IN A 21ST CENTURY GLOBAL ECONOMY</title>
<body><pre>[Senate Hearing 112-835]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-835

 
BALANCING PROSPERITY AND SECURITY: CHALLENGES FOR U.S. AIR TRAVEL IN A 
                      21ST CENTURY GLOBAL ECONOMY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 21, 2012--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
85-477                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
FRANK R. LAUTENBERG, New Jersey      DANIEL COATS, Indiana
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
JON TESTER, Montana                  JERRY MORAN, Kansas

                           Professional Staff
                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
Statement of Senator Dan Coats...................................     4
Statement of Senator Frank R. Lautenberg.........................     6
Statement of Hon. John S. Pistole, Administrator, Transportation 
  Security Administration........................................     7
    Prepared Statement of........................................     8
Adopting a Risk-Based Security Strategy..........................     9
TSA PreCheck (Pre3<SUP>TM</SUP>) Program.........................     9
Statement of Thomas S. Winkowski, Acting Deputy Commissioner, 
  Customs and Border Protection..................................    11
    Prepared Statement of........................................    13
Business Transformation..........................................    14
Professionalism and Model Ports..................................    16
Advanced Targeting Initiatives...................................    18
Statement of Douglas A. Smith, Assistant Secretary, Private 
  Sector Office, Department of Homeland Security.................    20
    Prepared Statement of........................................    22
The Department's Efforts on Travel and Tourism...................    22
The Traveler Experience..........................................    23
Statement of David T. Donahue, Deputy Assistant Secretary for 
  Visa Services, Department of State.............................    24
    Prepared Statement of........................................    26
The Department of State's Role in Travel and Tourism Promotion...    26
Responding to Increasing Worldwide Demand for U.S. Visas.........    26
Meeting Demand, Especially in China and Brazil...................    27
The Role of Security Has Not Diminished..........................    28
Interviews.......................................................    28
Reciprocity......................................................    29
Visa Waiver Program..............................................    29
Newark Liberty Airport: Staffing.................................    30
Staffing and Wait Times at Newark Liberty International Airport..    31
Newark Liberty Airport Breaches..................................    32
I-94 Replacement: Cost-Benefit...................................    32
Aviation Security Passenger Fee Increase.........................    34
Airport Screening: Pilots and Flight Attendants..................    35
PreCheck (Pre3<SUP>TM</SUP>) Program.............................    36
Coordination With Airlines Airports and TSA or Customs...........    37
Airport Screening: Individuals With Special Needs................    38
Cargo Screening..................................................    40
Additional Committee Questions...................................    43
Questions Submitted to Hon. John S. Pistole......................    43
Questions Submitted by Senator Mary L. Landrieu..................    43
TSA's PreCheck (Pre3<SUP>TM</SUP>) Program.......................    43
Expedited Screening for Military Members.........................    45
Expedited Screening for Pilots and Flight Attendants.............    46
Checked Baggage Fees.............................................    46
TSA Behavior Detection--Assessor Program.........................    47
Advanced Imaging Technology......................................    49
Aviation Security Capital Fund...................................    50
Security Procedures for Airport Employees........................    51
Screening Partnership Program....................................    52
Known Crewmember Program.........................................    53
Questions Submitted by Senator Daniel Coats......................    53
Risk-Based Passenger Screening (TSA Pre3<SUP>TM</SUP> Program)...    53
Questions Submitted by Senator Richard C. Shelby.................    55
Canine Explosives Detection......................................    55
Questions Submitted to Thomas S. Winkowski.......................    55
Questions Submitted by Senator Mary L. Landrieu..................    55
CBP Wait Times and Staffing......................................    55
Targeting High-Risk Passengers...................................    57
Model Ports of Entry.............................................    58
CBP Customer Service.............................................    59
Visa Waiver Program..............................................    59
Global Entry.....................................................    60
Question Submitted by Senator Patrick J. Leahy...................    61
Cross-Border Passenger Rail Service..............................    61
Questions Submitted by Senator Daniel Coats......................    62
Cargo Screening..................................................    62
Global Entry Program.............................................    62
Targeting in the Passenger Environment...........................    63
I-94 Form Automation.............................................    63
Electronic System for Travel Authorization.......................    64
Questions Submitted to Douglas A. Smith..........................    64
Question Submitted by Senator Mary L. Landrieu...................    64
Questions Submitted by Senator Daniel Coats......................    65
Collaboration With Airport Authorities...........................    65
National Travel and Tourism Strategy.............................    66
Questions Submitted to David T. Donahue..........................    66
Questions Submitted by Senator Mary L. Landrieu..................    66
Visa Issuance....................................................    66
Implementation of Executive Order................................    68
Travel to the United States: From a Visa Waiver Program Country 
  Vs. a Non-Visa Waiver Program Country..........................    69

                       NONDEPARTMENTAL WITNESSES

Statement of Roger Dow, President and CEO, U.S. Travel 
  Association....................................................    73
    Prepared Statement of........................................    75
Implement Risk-Based and Efficient Passenger Screening...........    75
Promote and Expand International Travel..........................    76
Visa Issuance Process............................................    78
Visa Waiver Program..............................................    79
Immigration Processing Upon Arrival Into the United States.......    80
Statement of Charles M. Barclay, President, American Association 
  of Airport Executives..........................................    81
    Prepared Statement of........................................    82
        Attachment, G-10 Airports Coalition--Atlanta; Chicago; 
          Dallas/Fort Worth; Denver; Houston; Los Angeles; 
          Metropolitan Washington Airports Authority; Miami; New 
          York/New Jersey Port Authority; Philadelphia; Phoenix; 
          San Francisco; Seattle/Tacoma..........................    86
CBP Issues.......................................................    86
Visa (Department of State) Issues................................    87
Statement of Thomas L. Hendricks, Senior Vice President of 
  Safety, Security and Operations, Airlines for America..........    87
    Prepared Statement of........................................    89
Needed Actions...................................................    89
Statement of Steven Hacker, President and CEO, International 
  Association of Exhibitions and Events..........................    90
    Prepared Statement of........................................    91
Statement of Sara Nelson, International Vice President, 
  Association of Flight Attendants-CWA...........................    94
    Prepared Statement of........................................    96
TSA Workforce....................................................    96
Security Screening...............................................    97
Carry-On Baggage Limitations.....................................    98
Letter From the American Association of Airport Executives.......   100
Additional Committee Questions...................................   102
Questions Submitted to Roger S. Dow..............................   102
Questions Submitted by Senator Mary L. Landrieu..................   102
Questions Submitted to Charles M. Barclay........................   104
Questions Submitted by Senator Mary L. Landrieu..................   104
Questions Submitted to Thomas L. Hendricks.......................   105
Questions Submitted by Senator Mary L. Landrieu..................   105
Questions Submitted to Steven Hacker.............................   106
Questions Submitted by Senator Mary L. Landrieu..................   106
    Attachment, Exhibits A-E.....................................   108
Questions Submitted to Sara Nelson...............................   119
Questions Submitted by Senator Mary L. Landrieu..................   119
Known Crewmember Program.........................................   119
Checked Baggage Fees.............................................   119


BALANCING PROSPERITY AND SECURITY: CHALLENGES FOR U.S. AIR TRAVEL IN A 
                      21ST CENTURY GLOBAL ECONOMY

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Coats, and 
Murkowski.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning, and let me call the 
subcommittee of Homeland Security Appropriations Committee to 
order.
    I am looking forward particularly to our hearing this 
morning. This is a favorite topic of mine and to many people 
that I represent, and I am happy to provide the time to air out 
some of these important issues. I thank my ranking member.
    We were notified this morning that there will be a vote on 
the floor of the Senate at 10:45 a.m. We are going to try to 
keep this subcommittee moving forward, even as we vote. It just 
depends on the members and if they are going to be able to 
attend. Senator Coats has another meeting at 10:30 a.m. So we 
will just see how it goes, but we are going to try to be 
accommodating to everyone's schedule.
    Let me welcome all of you.
    The tourism and travel industry is a substantial component 
of the U.S. economy. In 2010, it represented 2.7 percent of the 
country's gross domestic product and 7.5 million jobs. 
International travel to the United States supports 1.2 million 
jobs alone. The average overseas visitor spends $4,500 while 
they are here. And I would venture to say much of that money is 
spent at relatively small businesses, whether it is restaurants 
or museums or gift shops, art stores, antique dealers, et 
cetera. So we want to increase that opportunity for our small 
businesses here.
    Travel is a key economic driver for many of our major 
cities. According to information from the Department of 
Commerce, New York City continues to reign as the number one 
destination for international travelers, commanding a 32-
percent share of overseas arrivals. Los Angeles experienced a 
33-percent increase during 2010, gaining over 800,000 visitors. 
Las Vegas saw a 31-percent increase in overseas visitation 
during 2010, welcoming 570,000 more visitors than the year 
before. And during the first half of 2011, 446,400 
international travelers visited New Orleans, a 6.9-percent 
increase over the first half of 2010 and the largest jump for 
us in many years. There are other parts of the country, of 
course, that benefit as well, but just pointing out those 
specific destinations.
    Today's hearing will focus on the Federal Government's 
initiatives, primarily the Department of Homeland Security 
(DHS), but also the Department of State (State Department) in 
both domestic and international arenas to make air travel as 
efficient but as convenient as possible but without sacrificing 
security. The subcommittee will examine the execution of a 
number of existing programs designed to expedite security 
screening for air travelers and to improve the arrival process 
for visitors to the United States.
    We will also look at steps the State Department is taking 
to expedite the issuance of tourist visas. We will also hear 
from representatives of the private sector who are impacted by 
these programs.
    On January 19, earlier this year, President Obama announced 
a series of initiatives to enhance travel and tourism to this 
country. He stated: ``Every year, tens of millions of tourists 
from all over the world come and visit America. The more folks 
who visit America, the more Americans we can get back to work. 
We need to help businesses all across the country grow and 
create jobs, compete, and win. That is how we are going to 
rebuild an economy where hard work pays off, where 
responsibility is rewarded, and where everyone can make it if 
they try.'' I could not agree more.
    Today the U.S. Travel Association is launching a national 
bus tour at Union Station to highlight many of the issues we 
will be discussing this morning.
    The travel dollar is an integral part of our economy, and 
we all should want to see it grow. At the same time, we must 
never forget that planes were, in fact, used as weapons of mass 
destruction on 9/11, and Congress created the Transportation 
Security Administration (TSA) in response to those horrific 
attacks and the continued threat to our Nation's aviation 
sector that has been widely publicized lately.
    However, 10 years after TSA was created, the screening 
process is viewed by many as overly burdensome. For too long, 
travelers with low-risk profiles have been screened no 
differently than those with high-risk profiles in a one-size-
fits-all system.
    I am pleased to have the Administrator of TSA here today to 
discuss his efforts to think anew and to move away from that 
outdated screening model. TSA has launched an expedited 
screening program for known travelers called PreCheck 
(Pre3<SUP>TM</SUP>). It relaxes screening requirements for 
children under 12 and this week began relaxing screening 
procedures for passengers over age 75 and for the military. The 
plan is to expand Pre3<SUP>TM</SUP> from 11 airports to 35 
airports this year. That is good news, but we have many more 
airports to reach. These efforts have received positive reviews 
and today we will explore how risk-based screening can be 
expanded to accommodate more travelers.
    TSA is also beginning to expedite access to airplanes for 
pilots through its crewmember program. I personally believe we 
must expand this program to include flight attendants. If any 
group should be considered trusted travelers, it most certainly 
is our flight crews.
    The bottom line is that security and convenience are not 
mutually exclusive. It is important that pleasure and comfort 
once again become words that are associated with air travel. 
Airlines have a big role to play in this, as do airports, but 
so does the Federal Government.
    As someone who has returned from international travel and 
has been required to stand in long lines without the use of a 
cell phone for a long time, waiting to clear Customs, I have 
often wondered what tourists coming to this country for a 
vacation to see the sights and spend their money must think of 
this great country of ours if this is their first impression. 
Customs and Border Protection (CBP) officers at our Nation's 
airports are the face of America to these tired travelers. It 
is important that we be both vigilant and welcoming.
    In 2011, more than 91 million travelers to the United 
States were processed by CBP through international airports. 
CBP has developed a number of Trusted Traveler programs 
designed to securely expedite the entry process for frequent 
travelers. Global Entry allows expedited clearance for 
preapproved, low-risk travelers who have paid $100 to 
participate in the program for 5 years and submitted to a more 
thorough background check. There are currently more than 
252,000 members enrolled in Global Entry.
    NEXUS is a binational cooperative effort with Canada, 
similar to Global Entry and valid for land, sea, and air. 
Currently there are more than 629,000 participants who pay $50 
for a 5-year enrollment.
    At the direction of Congress, CBP initiated the Model Ports 
of Entry program in 2007 to make the entry process more 
streamlined, understandable, and welcoming. It currently 
operates at 20 major airports, and there are other programs 
which will be discussed today.
    In an effort to promote these activities, we put in our 
bill last year additional funding--and I thank my co-chair--for 
300 CBP officers at new and expanded ports of entry and $10 
million above the request for TSA to support risk-based 
screenings such as Pre3<SUP>TM</SUP>. We will get an update, 
Senator, on that investment today.
    The State Department has the primary responsibility for 
issuing visas to people wishing to travel. The President's 
January 19 Executive order specifically calls for a 40-percent 
increase in non-immigrant visa processing capability over the 
coming year while ensuring that 80 percent of non-immigrant 
visa applications are interviewed within 3 weeks of their visa 
application. These benchmarks reflect mandates that I have 
worked to include in the fiscal year 2012 State and Foreign 
Operations budget as a member of that subcommittee. These are 
robust targets. We will want to know what steps the State 
Department is taking to meet these goals.
    On the second panel, we will have a variety of witnesses 
from the private sector who will discuss how these policies, 
already implemented by the Government, have improved the travel 
and entry process, and equally as important, they will share 
with the subcommittee their ideas on what more can be and 
should be done to further improve the ability to visit this 
country, increase travel, and grow the economy.
    I would like to now call on Senator Coats for his opening 
statement, and then I will turn to Vice Chair Frank Lautenberg 
when he arrives. And Senator, please and thank you. And I 
understand you have to leave in about 20 minutes. So thank you.


                     STATEMENT OF SENATOR DAN COATS


    Senator Coats. Madam Chairman, you have suggested we do a 
rolling coverage so we can keep the subcommittee going. I can 
work that out. So you go first. I will wait, and then vote when 
you come back. Then I have got another appropriations hearing 
that is important to me. But this is important and I want to be 
here as much as I can. So we will figure that out.
    Thank you very much, Madam Chairman, for bringing these 
people together on this subject. All of us have experienced 
travel issues, lines at airline counters and self-check kiosks, 
and delays at boarding gates, lines at security screening and 
so forth. But we have to remember that 9/11 was a game-changer 
and that a lot of important adjustments needed to be made in 
terms of our ensuring that travel and the tourists that do 
travel and Americans that travel are safe to every extent 
possible. And so these adjustments have been made--many 
adjustments and things have been added to our ability to make 
travel more secure and convenient.
    There is this ying and yang that goes back and forth. We 
all want to balance security with convenience. Everybody wants 
to be perfectly safe or as safe as possible and at the same 
time have everything be as convenient as possible. And the 
members of the first panel that is before us have to deal with 
these issues every day and finding that balance is a real 
challenge, and I think we have to recognize that and recognize 
the efforts that have been made to try to achieve those two 
goals.
    TSA and CBP have a number of initiatives underway, 
Pre3<SUP>TM</SUP> and Global Entry among them, which could 
positively impact their ability to concentrate their limited 
resources on risk-based screening. The State Department is 
working on an initiative to address visa issuance problems.
    There is a ying and yang between our first panel and our 
second panel. If CBP and TSA schedule too few staff on a shift, 
resulting in lines and delays for processing and screening, 
that is a problem. But airline policies and scheduling also 
play a role in processing and screening. Too few personnel 
staffing airline self-check kiosks can hold up travelers, as 
can the impact of an airline's baggage fees. If there are too 
many international flights scheduled for arrival, say, between 
3 p.m. and 5 p.m. at Dulles, this contributes to long lines for 
processing. And too many flights scheduled for early morning 
departure or late afternoon arrival or departure contribute to 
long lines for security screening.
    So I am hoping this morning that we will hear concrete, 
achievable suggestions for improvements. Let me just expand on 
that. Achievable suggestions for improving processing and 
screening while maintaining our security and recognizing budget 
constraints. This is a real challenge.
    We are facing a serious crisis in this country with our 
Nation's debt and the yearly deficit. It cannot be ignored, and 
there can no longer be such a thing as a sacred cow. We all 
have our sacred cows, but when you add them all up, nobody 
wants to subtract anything. I do not believe the answer to our 
problems is more taxpayer money sent to Washington. So we need 
to find innovative ways to be more efficient with the resources 
we do have.
    I note that several of the written testimonies include 
calls for more Federal staff at airports, mandating in statute 
a time limit for processing international arriving flights, 
mandating a time limit for processing visa applications, 
modernizing Federal information technology systems, providing 
Federal funding for checked baggage, screening equipment, et 
cetera. And while many of these suggestions that have been made 
may be good ideas, most likely most of them will require 
additional appropriations, which we do not have. They might 
require increases in fees levied on international airline 
passengers or visa applicants or even domestic passengers which 
have, as we know, little if any public support. And most 
importantly, some of these suggestions have a cost in lowered 
security.
    So do we want CBP watching the clock every time an 
international flight lands, or do we want them concentrating on 
assessing the information and the demeanor of each individual 
who has come off that plane?
    Do we want the State Department checking the calendar every 
day a visa application is in the office, or do we want them 
making sure that they have found every piece of information 
they can about a potential visitor or immigrant to this country 
before making a final decision?
    It is not okay to complain about security requirements for 
visas, airports, or entry into the United States and then 
demand that they be fundamentally changed when one mishap or 
one bad guy gets through the system. None of us want to see 
international travel drop in the wake of a successful terrorist 
attack the way it did in 2002 in the aftermath of 9/11.
    So in conclusion here, we all need to work together to 
figure out ways to work smarter but not necessarily more 
expensively or in a way that could compromise security. TSA, 
CBP, and the State Department need to contribute ideas just 
like the travel industry, airlines, event planners, and flight 
attendants need to contribute ideas for all of us to do this 
while ensuring that the United States remains a safe and 
preferred destination for international travelers.
    I look forward to continuing this discussion on these 
important issues.
    Madam Chairman, I know you and I, Senator Lautenberg, and 
others on this subcommittee pledge to work with all of you to 
try to achieve efficiency and effectiveness, at the same time 
providing security for those who travel from abroad and for 
Americans who take advantage of this magnificent country by 
getting on a plane, train, bus to go to places and continue 
this vibrant and dynamic tourist industry.
    I might just say I am happy to see my friend and fellow 
Indiana Law School graduate, John Pistole, here. We would 
prefer that nothing happens to interrupt our time between 
Friday evening 9 p.m. to 11 p.m. when Indiana plays Kentucky in 
the Sweet 16.
    Mr. Pistole. Go Hoosiers.
    Senator Coats. So to the extent you gentlemen can prevent 
anything serious from distracting during that timeframe, we 
would be most appreciative.
    Senator Landrieu. Senator Lautenberg.


                STATEMENT OF SENATOR FRANK R. LAUTENBERG


    Senator Lautenberg. Thanks, Madam Chairman.
    The President set the goal for America to be the top 
tourist destination in the world, and thanks to the Travel 
Promotion Act and other new policies, we are well on our way. 
Tourism is a big business even in my small, most densely 
populated State of New Jersey. People like to see the wonders 
of that energetic State, and it continues to be one of the 
largest and fastest growing businesses in our State. Nationwide 
the industry is supporting more than 7 million jobs, and in the 
next 10 years--think of it--travel and tourism will create 1 
million more jobs in the United States. And we have to be 
aggressive in searching those jobs out.
    But our tourism industry can only reach its full potential 
if travelers are confident that they are going to be safe and 
secure. And as 9/11 showed, a terrorist attack can have a 
devastating impact on our travel industry, in addition to the 
tragic human toll.
    More than a decade after 9/11, aviation security remains a 
serious concern, particularly in my home State of New Jersey 
where we have witnessed security lapses at our airport, Newark 
Liberty, one of the busiest airports in the country. And one 
cannot talk about the conditions without remarking about how 
well our security structure has served. We have had incidents. 
Incidents, thank goodness, that were interrupted along the way 
show that our people are there. And Mr. Pistole, you have got a 
good team out there. We are looking for perfection. Hard to get 
but essential as a goal.
    In one incident a carry-on bag containing a knife got past 
the TSA agents at the airport.
    On another occasion, the passengers were able to enter 
secure areas without being screened properly. That one did not 
have a weapon but it did have a love connection. There was one 
last kiss goodbye and the guy just went under the rope and that 
was it. They shut the airport down for 1\1/2\ hour.
    Incidents like these raise concerns about our ability to 
protect the public as they move through our aviation system.
    And I also remain concerned about the ability to scan 
baggage effectively as airline baggage fees cause passengers to 
carry on more and bigger bags. And the bottom line is this. We 
have got to make aviation security our primary mission, but 
where we can speed up the process and improve efficiency, we 
must make these investments.
    And I look forward to hearing these witnesses today, Madam 
Chairman, on how we can address the challenges. Thank you.
    Senator Landrieu. Thank you so much, Senator Lautenberg.
    Let us begin, if we could, with our first panel.
    I want to welcome Senator Murkowski who has joined us and 
we will go through a round of questioning after our panel.
    Why do we not start, Mr. Administrator, with you? John 
Pistole, of course, has testified many times before this 
subcommittee, as the TSA Administrator. Thomas Winkowski, 
Acting Deputy Commissioner, CBP; Douglas Smith, Assistant 
Secretary, DHS for the Private Sector; and David Donahue, 
Deputy Assistant Secretary for Visa Services. So we will go in 
the order that I have called you all. John, why do we not begin 
with you?

STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR, 
            TRANSPORTATION SECURITY ADMINISTRATION
    Mr. Pistole. Thank you, Madam Chairwoman and Vice Chairman 
Lautenberg, Ranking Member Coats, and Senator Murkowski. Good 
to see you today.
    Thank you for the opportunity to testify as to what TSA's 
ongoing efforts are to provide the most effective security in 
the most efficient way for the traveling public.
    As you are aware, TSA employs a risk-based, intelligence-
driven approach to reduce the vulnerability of the Nation's 
transportation systems to terrorism. Our goal is to maximize 
security and we are accomplishing this through an evolving, 
multi-layered approach.
    Really at its core, the concept of risk-based security 
(RBS), as we say, is an acknowledgment that we are not in the 
business of eliminating risk associated with traveling from 
point A to point B. Our objective is to mitigate that risk 
working with our partners and to reduce the potential for 
anyone to commit a deliberate act against our transportation 
systems. RBS enables our dedicated transportation security 
officers (TSOs) to focus their attention on those travelers we 
believe are more likely to pose a risk to our transportation 
network, including those on terrorist watch lists, of course, 
while providing expedited screening and perhaps a better travel 
experience to those less likely to pose such a risk.
    Through RBS initiatives, TSA is moving closer to its goal 
of providing the most effective security in the most efficient 
way possible. While a one-size-fits-all construct was necessary 
after 9/11, technology and intelligence are facilitating and 
enabling TSA's move toward an RBS model.
    Perhaps the most widely known RBS initiative is TSA 
Pre3<SUP>TM</SUP>. Since first implementing this effort last 
fall, we have expanded it to 11 airports, including Reagan 
National and Chicago O'Hare, which both began yesterday. More 
than 540,000 passengers have experienced expedited physical 
screening through TSA Pre3<SUP>TM</SUP>. Effective partnerships 
with participating airlines, airports, and CBP all contribute 
to this initiative's success. Airlines work with us to invite 
eligible passengers to participate, while CBP works with us to 
extend TSA Pre3<SUP>TM</SUP> benefits to many members of its 
Trusted Traveler programs including Global Entry. By the end of 
2012, we expect to be offering expedited security screening in 
35 of our busiest airports. We also look forward to working 
with individual airports on initiatives they may have to expand 
this also.
    This subcommittee's support of these efforts has been 
essential and is much appreciated. In fiscal year 2012, the 
subcommittee included $10 million to fund necessary upgrades to 
the Secure Flight system, a key enabler of TSA 
Pre3<SUP>TM</SUP>. Yesterday at Reagan National, we extended 
TSA Pre3<SUP>TM</SUP> benefits to Active Duty U.S. Armed Forces 
members with a common access card (CAC). This initiative also 
includes Active drilling members of the U.S. National Guard and 
reservists. These travelers are entrusted to protect and defend 
our Nation and its citizens with their lives. So this 
initiative comports with the new law signed by President Obama 
on January 3 of this year called the Risk-Based Security 
Screening for Members of the Armed Forces Act.
    Internationally CBP, of course, operates 14 aviation 
preclearance locations. Each of these locations has been or is 
scheduled to be evaluated by TSA to confirm that preclearance 
airports are performing checkpoint screening procedures of 
passengers and accessible property comparable to those of 
domestic airports. All pre-cleared flights arriving from the 14 
preclearance airports are permitted to deplane passengers 
directly into the sterile area of U.S. airports. At this point, 
checked bags on connecting domestic flights will continue to be 
screened by TSA upon arrival until the screening technology and 
protocols at preclearance airports conform to U.S. standards.
    In addition, under the Beyond the Border initiative, TSA 
and others are working with Transport Canada for mutual 
recognition of checked baggage screening systems. And that is 
an initiative that began last month working closely with them.
    We are also supporting the expansion of the Known 
Crewmember initiative, which you mentioned, Madam Chair, an 
identity-based system which checks uniformed pilots against a 
database called the Common Access Security System to confirm 
their identity. We have had 475,000 pilots go through that thus 
far and look forward to expanding that as that takes hold in 
the 10 airports and is expanded throughout the country.
    In addition, we are committed to using the behavior 
detection officers to determine whether a traveler needs 
additional screening.


                           PREPARED STATEMENT


    And finally, we are in the final processes of testing 
technology to automatically verify passenger identification 
documents and boarding passes, strengthening our ability to 
identify altered or fraudulent documents. And we will be 
deploying that throughout the rest of the year.
    Madam Chair, thank you for the opportunity to appear before 
you today to discuss RBS and the streamlining process for 
inbound international passengers.
    [The statement follows:]

               Prepared Statement of Hon. John S. Pistole

    Good morning Chairwoman Landrieu, Ranking Member Coats, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration's (TSA) on-going efforts to develop and implement a 
comprehensive risk-based approach to secure our Nation's transportation 
systems, and about Department of Homeland Security (DHS) travel 
programs to make domestic and international travel more convenient and 
efficient for passengers without sacrificing security.
    TSA employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation systems to terrorism. Our goal at all times is to 
maximize transportation security to stay ahead of evolving terrorist 
threats while protecting privacy and facilitating the flow of 
legitimate commerce. TSA's security measures create a multi-layered 
system of transportation security that mitigates risk. We continue to 
evolve our security approach by examining the procedures and 
technologies we use, how specific security procedures are carried out, 
and how screening is conducted.

                ADOPTING A RISK-BASED SECURITY STRATEGY

    Since becoming TSA Administrator, I have solicited the opinions of 
our key stakeholders and security professionals, our dedicated 
workforce and our counterparts abroad about how TSA can work better and 
smarter. Based on this feedback, I directed the agency last fall to 
begin developing a strategy for enhanced risk-based security (RBS) in 
all facets of transportation, including passenger screening, air cargo, 
and surface transportation.
    At its core, the concept of RBS demonstrates a progression of the 
work TSA has been doing throughout its first decade of service to the 
American people. It is an acknowledgment that we are not in the 
business of eliminating all risk associated with traveling from point A 
to point B. Risk is inherent in virtually everything we do. Our 
objective is to mitigate risk and to reduce, as much as possible 
without undermining travel and commerce, the potential for anyone to 
commit a deliberate attack against our transportation systems.
    RBS in the passenger screening context allows our dedicated 
transportation security officers (TSOs) to focus more attention on 
those travelers we believe are more likely to pose a risk to our 
transportation network--including those on terrorist watch lists--while 
providing expedited screening, and perhaps a better travel experience, 
to those we consider pose less risk.
    By utilizing our RBS initiatives, TSA is moving away from a one-
size-fits-all security model and closer to its goal of providing the 
most effective transportation security in the most efficient way 
possible. While a one-size-fits-all approach was necessary after 9/11 
and has been effective over the past decade, two key enablers--
technology and intelligence--are allowing TSA to move toward a RBS 
model.

                          TSA PRECHECK PROGRAM

    Perhaps the most widely known security enhancement we are putting 
in place is TSA PreCheck (Pre3<SUP>TM</SUP>). Since first implementing 
this idea last Fall, the program has been expanded to nine airports and 
more than 460,000 passengers around the country have experienced 
expedited security screening through TSA Pre3<SUP>TM</SUP>. The 
feedback we've been getting is consistently positive.
    The success of TSA Pre3<SUP>TM</SUP> has been made possible by the 
great partnerships with our participating airlines and airports and our 
sister component, U.S. Customs and Border Protection (CBP). The 
airlines work with us to invite eligible passengers to opt into the 
initiative, and working with CBP we are able to extend TSA 
Pre3<SUP>TM</SUP> benefits to any U.S. citizen who is a member of one 
of CBP's trusted traveler programs, such as Global Entry, SENTRI, or 
NEXUS. By the end of 2012, TSA expects to be offering passengers in 35 
of our Nation's busiest airports the expedited screening benefits 
associated with TSA Pre3<SUP>TM</SUP>.
    This subcommittee's support in these efforts has been essential, 
and it is deeply appreciated. By providing funding for essential 
technologies and program enhancements, TSA will be positioned to 
include new airports, air carriers and other populations as 
participants in TSA Pre3<SUP>TM</SUP>. In fiscal year 2012, Congress 
appropriated an additional $10 million to TSA for upgrades to the 
Secure Flight system, allowing it to incorporate new populations into 
the low-risk passenger pool. The fiscal year 2013 President's budget 
proposal requests $7 million in fiscal year 2013 which will continue to 
support this new capability.
    Under TSA Pre3<SUP>TM</SUP>, individuals volunteer information 
about themselves prior to flying in order to potentially expedite the 
travel experience. By learning more about travelers through information 
they voluntarily provide, and combining that information with our 
multi-layered system of aviation security, TSA can better focus our 
limited resources on higher risk and unknown passengers. This new 
screening system holds great potential to strengthen security while 
significantly enhancing the travel experience, whenever possible, for 
passengers.
    TSA pre-screens TSA Pre3<SUP>TM</SUP> passengers each time they fly 
through participating airports. If the indicator embedded in their 
boarding pass reflects eligibility for expedited screening, the 
passenger is able to use TSA's Pre3<SUP>TM</SUP> lane. Currently, 
eligible participants include certain frequent flyers from American 
Airlines and Delta Air Lines as well as existing members of CBP's 
trusted traveler programs who are U.S. citizens and are flying on 
participating airlines. We are actively working with other major air 
carriers, such as United, US Airways, Jet Blue, Hawaiian, and Alaska 
Airlines, to expand both the number of participating airlines and the 
number of airports where expedited screening through TSA 
Pre3<SUP>TM</SUP> is provided. In February, Secretary Napolitano and I 
announced the national roll out of TSA Pre3<SUP>TM</SUP> and our goal 
to have the program operating at the 35 busiest domestic airports by 
the end of 2012.
    Because we know more about these passengers, TSA Pre3<SUP>TM</SUP> 
travelers are able to divest fewer items, which may include leaving on 
their shoes, jacket, and light outerwear, and may enjoy other 
modifications to the standard screening process. As always, TSA will 
continue to incorporate random and unpredictable security measures 
throughout the security process. At no point are TSA Pre3<SUP>TM</SUP> 
travelers guaranteed expedited screening.
    Earlier this month, we expanded the TSA Pre3<SUP>TM</SUP> 
population to include Active Duty U.S. Armed Forces members with a 
Common Access Card, or CAC, traveling out of Ronald Reagan Washington 
National Airport. Servicemembers will undergo the standard TSA Secure 
Flight pre-screening, and if we are able to verify the servicemembers 
are in good standing with the Department of Defense, by scanning their 
CAC card at the airport, they will receive TSA Pre3<SUP>TM</SUP> 
screening benefits, such as no longer removing their shoes or light 
jacket, allowing them to keep their laptops in their cases, and their 
3-1-1 compliant bags in a carry-on.
    In addition to Active Duty members of the United States Army, Navy, 
Air Force, Marine Corps, and Coast Guard, this evaluation will also 
include Active drilling members of the U.S. National Guard and 
reservists. U.S. servicemembers are entrusted to protect and defend our 
Nation and its citizens with their lives. In treating them as trusted 
travelers, TSA is recognizing that these members pose little risk to 
aviation security. This evaluation is being conducted in compliance 
with the ``Risk-Based Security Screening for Members of the Armed 
Forces Act,'' signed into law by President Obama on January 3, 2012 
(Public Law No. 112-86).
Streamlining the Process for Inbound International Passengers
    TSA Pre3<SUP>TM</SUP>, as mentioned previously, is being extended 
to any U.S. citizen who is a member of one of CBP's trusted traveler 
programs.
    To further expedite the screening process, CBP currently operates 
15 international aviation preclearance locations. Each of these 
locations has been or is scheduled to be evaluated by TSA to confirm 
that preclearance airports are performing checkpoint screening 
procedures of passengers and accessible property comparable to those of 
domestic airports and are providing an equivalent level of protection. 
All precleared flights arriving from the 15 preclearance airports are 
permitted to deplane passengers directly into the sterile area of U.S. 
airports. However, connecting passengers' checked baggage intended for 
connecting domestic flights must still be screened by TSA upon arrival 
in the United States, until the screening technology and protocols at 
the preclearance airports conform to TSA domestic checked baggage 
requirements.
    To that end, under the Beyond the Border (BTB) initiative, in 
accordance with a joint declaration signed by President Obama and 
Canadian Prime Minister Stephen Harper on February 4, 2011, TSA and the 
National Security Staff (NSS) have been working with Transport Canada 
(TC) toward mutual recognition of the two countries' checked baggage 
screening systems. Under an action plan, released last December, 
Canada's eight preclearance airports (Calgary, Edmonton, Halifax, 
Montreal, Ottawa, Toronto, Vancouver, and Winnipeg) have initiated the 
process to upgrade their checked baggage screening equipment to TSA-
certified explosives detection system (EDS) equipment as the primary 
checked baggage screening equipment. According to the BTB Action Plan, 
this upgrade, partnered with comparable implementation of TSA-
equivalent policies and procedures, will make it unnecessary to 
rescreen checked bags from these Canadian airports when the passengers 
connect in the United States to other flights.
    This upgrading process began on February 11, 2012, and is scheduled 
to be completed at all Canadian preclearance airports by March 31, 
2015. TSA will conduct a site visit of each preclearance airport in 
Canada to ensure checked baggage screening procedures provide an 
equivalent level of protection.
Additional Security Initiatives
    The following additional recent initiatives to enhance security 
complement those discussed above.
    Known Crewmember.--To build on our risk-based approach to security, 
we are currently supporting efforts to test another identity-based 
system to enable TSOs to positively verify the identity and employment 
status of airplane pilots. The Known Crewmember program is the result 
of a joint operation between the airline industry (Airlines for 
America) and pilots (Air Line Pilots Association, International), which 
allows uniformed pilots from 22 airlines to show two forms of 
identification that are checked against a database called the ``Cockpit 
Access Security System,'' which confirms identity. After more than 2 
months into the pilot program, and with deployments nearly complete at 
the seven participating airports, over 59,000 uniformed pilots have 
been cleared through the process, with an average of nearly 1,900 
approvals per day. Like TSA Pre3<SUP>TM</SUP>, Known Crewmember is a 
clear example of TSA's commitment to focusing its attention and 
resources on those who present the greatest risk, thereby improving 
security and the travel experience for passengers across the country.
    Expanded Behavior Detection.--TSA took steps last fall to expand 
its behavior detection program that builds on the existing Screening of 
Passengers by Observation Techniques (SPOT) program, which has grown 
since 2003 to include over 160 airports. Under the Expanded Behavior 
Detection pilot program, TSOs employ specialized behavioral analysis 
techniques to determine if a traveler should be referred for additional 
screening at the checkpoint. The vast majority of passengers at the 
pilot airport checkpoints experience a ``casual greeting'' conversation 
with a behavior detection officer (BDO) as they pass through travel 
document verification. This additional interaction, used by security 
agencies worldwide, enables officers to better verify or dispel 
concerns about suspicious behavior and anomalies.
    Preliminary analysis from Boston, where the pilot is currently 
being conducted, shows an increase in the rate of detection of high-
risk passengers. However, additional data is required to understand if 
the trend seen in the Boston data is statistically significant and 
replicable at other airports. TSA is currently conducting analyses with 
the DHS Science and Technology Directorate to estimate the number of 
cases required for validation. In the meantime, we have expanded the 
pilot program to Detroit to collect additional data on incorporating 
enhanced real-time risk assessments into our other layers of security.
    New Document Assessment Technology.--In addition to testing new 
procedures for low-risk populations, TSA is also employing technology 
to automatically verify passenger identification documents and boarding 
passes, providing TSA with a greater ability to identify altered or 
fraudulent documents. This technology, known as Credential 
Authentication Technology--Boarding Pass Scanning Systems (CAT-BPSS), 
will eventually replace the current procedure used by security officers 
to detect fraudulent or altered documents. CAT-BPSS enhances security 
and increases efficiency by automatically comparing a passenger's ID 
and boarding pass to a set of security features to concurrently 
authenticate them and ensure that the information on both match. The 
system can screen a wide range of travel documents. TSA began testing 
the technology in July 2011 and will deploy and evaluate the technology 
at airports in the near future.

                               CONCLUSION

    As we review and evaluate the effectiveness of these aviation 
security enhancements, additional changes to the security screening 
process may be implemented in the future as TSA continues to work 
toward providing all travelers with the most effective security in the 
most efficient way possible. Of course, TSA will always retain the 
ability to incorporate random and unpredictable security measures 
throughout the airport, and no individual is ever guaranteed expedited 
screening.
    We appreciate the ongoing support and cooperation of the aviation 
industry and the traveling public as we strive to continue 
strengthening transportation security and improving, whenever possible, 
the overall travel experience for all Americans. The interconnectedness 
and interdependence of the global economy requires that every aspect in 
aviation security spectrum be as strong as possible. Whether it is for 
business or for pleasure, the freedom to travel from place to place is 
fundamental to our way of life, and to do so securely is a goal to 
which everyone at TSA is fully committed.
    Thank you for the opportunity to appear before you today to discuss 
RBS, the streamlining process for inbound international passengers, and 
TSA's additional security initiatives.

    Senator Landrieu. Thank you so much.
    Tom.

STATEMENT OF THOMAS S. WINKOWSKI, ACTING DEPUTY 
            COMMISSIONER, CUSTOMS AND BORDER PROTECTION
    Good morning, Chairman Landrieu, Vice Chair Lautenberg, 
Senator Coats, and distinguished members of the subcommittee.
    It is an honor to appear before you today on behalf of the 
men and women of CBP to discuss the important work we do to 
secure and facilitate the flow of passengers into the United 
States.
    CBP has worked to improve the entry process for visitors to 
the United States, reengineering the way we process travelers 
while also increasing security and expediting the flow of 
legitimate travel.
    Today I would like to highlight how we are transforming our 
business model, enhancing professionalism, and pursuing 
advanced targeting initiatives to provide a safer, more 
welcoming environment for visitors coming to the United States.
    In the area of transforming our business model, CBP is 
continuing to transform the way we do business at our ports of 
entry. For instance, our Trusted Traveler programs expedite 
processing for low-risk, preapproved travelers upon arrival. 
These programs include SENTRI, NEXUS, and Global Entry and have 
nearly 1.3 million travelers enrolled.
    Global Entry, our newest program, allows members to bypass 
the regular lines and instead use self-service automated kiosks 
at 30 airports. Approximately 4,500 travelers use the kiosks 
each day, which allows CBP to make more efficient use of 
resources to secure and facilitate the flow of passengers. 
Global Entry typifies the unprecedented partnership we have 
forged with the travel industry. Together we have promoted 
Global Entry through community outreach events, advertisements, 
press releases, media events, and partnerships with airports 
and airlines. And as Administrator Pistole indicated, we have 
also partnered with the TSA to pilot the Pre3<SUP>TM</SUP> 
screening concept, which Global Entry is an integral part of.
    In the area of automation, CBP is continually exploring 
automation opportunities that will bring efficiencies to 
passenger processing and make more efficient use of resources. 
The Electronic System for Travel Authorization (ESTA) enables 
DHS to conduct enhanced screening of visa waiver program 
travelers through a fully automated online system. This not 
only helps us determine the eligibility of travelers under the 
visa waiver program, it allows us to eliminate the paper I-94W. 
This has resulted in a 58-percent faster processing time and 
helped us meet these demands of increased passenger volumes. 
CBP is actively working to automate and eliminate the I-94 form 
for other visitors as soon as possible.
    In the area of professionalism, a CBP officer is the first 
face an international traveler sees on arrival, as you 
indicated, Chairman, and we work actively to promote customer 
service while maintaining our important law enforcement focus. 
At the 20 model airports, CBP has installed audio and video 
technology to display informational and welcoming videos for 
travelers. There are also uniformed CBP Passenger Service 
Managers on site who act as key advocates for promoting 
traveler satisfaction.
    Our work is paying off. A traveler satisfaction survey was 
conducted in late 2011, which shows that travelers recognize 
our improvements and are satisfied with our overall arrival 
process. Nearly 90 percent of the travelers agreed that CBP 
officers are welcoming, provide travelers with the right 
information, and provide entry processing within a short and 
reasonable time period. CBP is working directly with industry 
partners to develop and maintain an ongoing survey process.
    CBP closely monitors traveler wait times and strives to 
process arrivals quickly and as securely as possible. On a 
typical day, CBP processes more than 240,000 incoming 
international air passengers, and we expect air travel to 
continue its increasing trends. Our current statistics show 
that 88 percent of travelers wait less than 45 minutes for CBP 
processing and 73 percent of travelers wait less than 30 
minutes. Although we have achieved some efficiencies, CBP is 
committed to doing better.
    The search for efficiencies not only contributes to better 
customer service, it helps us work smarter in a tight budget 
environment. This is especially important because CBP relies on 
user fee collections to fund more than 35 percent of our front-
line CBP officers, and that is about 7,200 CBP officers. With 
the fluctuations in travel, that leaves us with a less 
predictable source of funding for more than one-third of our 
personnel.
    We are identifying staffing requirements through a workload 
staffing model and evaluating alternative funding strategies. 
Now, the workload staffing model employs a data-driven 
methodology for identifying staffing requirements at all ports 
of entry. It also captures future staffing needs for new and 
expanded facilities and technology deployment.
    In the area of advanced targeting initiatives----
    Senator Landrieu. Tom, try to wrap, if you could. Go ahead. 
Take 15 more seconds.
    Mr. Winkowski. In the area of advanced targeting 
initiatives, we have made great strides. As you have indicated, 
our travelers need to feel safe and we need to make sure that 
we provide the right oversight from the standpoint of keeping 
dangerous people off our airplanes.

                           PREPARED STATEMENT

    So in conclusion, I appreciate the opportunity to come here 
today and I look forward to your questions.
    [The statement follows:]

               Prepared Statement of Thomas S. Winkowski

    Chairman Landrieu, Ranking Member Coats, Vice Chairman Lautenberg, 
distinguished members of the subcommittee, it is an honor to appear 
before you today to discuss the work of U.S. Customs and Border 
Protection (CBP) to secure and facilitate the flow of passengers and 
trade into the United States. We have created several programs 
specifically for this purpose, and it is my pleasure to share some of 
them with you today.
    CBP is engaged in a series of business transformation initiatives 
to make our inspection processes more effective and efficient. These 
initiatives involve evaluating core processes, incorporating technology 
enhancements, assessing utilization of law enforcement staffing, and 
developing additional automation efforts. Above all, we remain 
committed to our multi-layered approach, to include:
  --Transforming Our Business Model.--CBP is working hard to 
        efficiently transform our processes and business models to 
        optimize our current resources.
  --Professionalism and Model Ports.--CBP is revamping our strategies 
        operationally to promote a more responsive workforce that makes 
        the arrivals process easier and more welcoming.
  --Advanced Targeting Initiatives.--CBP is proactively working with 
        our security partners to identify security risks and threats 
        abroad before they reach our borders. Prevention of these 
        threats is a crucial part of our strategy to ensure travel 
        remains safe and secure.

                        BUSINESS TRANSFORMATION

    CBP has collaborated with industry partners, airlines, and airport 
stakeholders to identify opportunities that will promote travel to the 
United States and improve the traveler experience. We continue to 
implement new programs that facilitate travelers' arrivals while making 
the most effective use of our resources. These programs are discussed 
in greater detail below.
Trusted Traveler Programs
    Trusted Traveler Programs have been essential to our risk-based 
approach to facilitate the flow of travelers into the United States. 
They provide expedited immigration, customs, and agriculture processing 
upon arrival in the United States for pre-approved, low-risk 
participants through the use of secure and exclusive dedicated lanes 
and automated kiosks. These programs are predicated on the thorough 
vetting of travelers who have voluntarily applied for membership, paid 
a fee, and provided personal data (including biographic information, 
photos, and fingerprints) to CBP.
    CBP officers ensure that comprehensive database checks have been 
conducted against terrorist watchlist records, criminal history 
records, active wants/warrants; previous customs, immigration, or 
agriculture violations; investigatory records; and other law 
enforcement records. Participants are vetted every 24 hours to ensure 
no new derogatory information has been identified, and are subject to 
law enforcement checks every time they use one of the program-dedicated 
lanes or kiosks to enter the United States.
    Applicants are denied participation if any disqualifying 
information is uncovered during the application process, or at any time 
during the traveler's membership period. Applicants may also be denied 
if they are suspected of being involved in any illicit activity or 
present a potential risk for terrorism, criminality, or smuggling.
    Currently, almost 1.3 million travelers are enrolled in CBP's four 
trusted traveler programs: Secure Electronic Network for Travelers 
Rapid Inspection (SENTRI), Free and Secure Trade (FAST), NEXUS, and 
Global Entry.
  --For travelers at our southern land border with Mexico, SENTRI 
        provides expedited processing for pre-approved, low-risk 
        travelers through dedicated commuter lanes. CBP has developed 
        and distributed a new, enhanced, trusted-traveler card with 
        increased security features to all SENTRI members. SENTRI cards 
        are Western Hemisphere Travel Initiative (WHTI)-compliant 
        documents for entry into the United States by land or sea, and 
        also provide expedited travel to the United States and Mexico.
  --FAST expedites the processing and release of approved commercial 
        truck drivers making fully qualified trips between the United 
        States and Canada or to the United States from Mexico. 
        Commercial trucks using FAST lane processing must be a Customs-
        Trade Partnership Against Terrorism (C-TPAT)-approved carrier; 
        carrying qualifying goods destined for a C-TPAT-approved 
        importer; be driven by an individual in possession of a valid 
        FAST-commercial driver card; and have a high-security seal. On 
        the southern border, manufacturers must also be C-TPAT-approved 
        in order for shipments to qualify for FAST release.
  --NEXUS provides expedited CBP processing for pre-approved, low-risk 
        travelers at pre-clearance airports, land border, and seaport 
        crossings between the United States and Canada. NEXUS cards are 
        WHTI-compliant documents for land and sea travel, as well as 
        air travel when traveling to and from airports using the NEXUS 
        program.
  --Global Entry allows expedited clearance for pre-approved, low-risk 
        air travelers upon arrival in the United States. Global Entry 
        is available to U.S. citizens and U.S. lawful permanent 
        residents, Canadian citizens and permanent residents, Dutch 
        citizens enrolled in the Privium program, Mexican citizens, and 
        citizens of the United Kingdom, Germany, and Qatar through 
        limited pilot programs. In addition, CBP has entered into joint 
        arrangements with South Korea and Panama to allow their 
        qualifying citizens and permanent residents to participate in 
        Global Entry.
    Global Entry is an example of unprecedented partnership with 
private industry, airlines, and airport authorities. Pre-approved, low-
risk air travelers may enter the United States by using automated 
kiosks located at one of the 20 selected airports. Global Entry allows 
vetted air passengers to clear CBP inspectional processing much faster 
than general passenger processing. Global Entry membership now includes 
those travelers enrolled in NEXUS and SENTRI, and the program has 
surpassed 940,600 eligible users with over 4,000 daily uses. Global 
Entry automated kiosks have been used over 2 million times--saving over 
42,400 inspectional hours that CBP has reallocated to focus on the 
regular traveler queues. With Global Entry, CBP is able to focus 
resources on travelers about whom DHS knows the least, therefore 
providing overall enhanced screening to the traveling public.
    Last month, CBP published the Global Entry Final Rule, which makes 
this highly successful program permanent. The rule expands Global Entry 
to allow children under the age of 14 to participate, allowing more 
families to enjoy the benefits of the program. In 2012, CBP will expand 
the number of airports participating in the program to 24 airports.
Collaborative Efforts
    Strong partnerships with the travel industry allow CBP to leverage 
different customer bases to identify frequent travelers and potential 
Global Entry members. We have promoted the Global Entry program using 
advertisements, press releases, media events, and partnerships with 
airlines and conducted community outreach to raise awareness of the 
program. Recognizing the benefits of the program, some travel providers 
now reimburse top-tier customers for Global Entry application fees and 
we are working with others to expand enrollment.
    CBP also continues to work with our stakeholders to improve the 
inspection process in ports of entry at airports. This effort includes 
implementing new programs like Express Connection and One-Stop. Both of 
these programs work cooperatively with the air carriers and airports to 
expedite travel--they reduce missed connections, increase passenger 
throughput, and enhance the arrival processing experience.
    Express Connection is designed to facilitate the processing of 
travelers with closely scheduled connecting flights to reduce missed 
connections, and is available at 11 of the Nation's busiest airports. 
Working closely with participating airlines, CBP dedicates personnel to 
identify and direct pre-selected travelers who can use designated 
Express Connection primary booths.
    Through our One-Stop program, airport operators and airlines 
provide a streamlined processing option for those travelers who have no 
checked luggage. Dedicated lanes provided by CBP for One-Stop 
identified travelers are located at Houston (IAH) and New York City 
(JFK) International Airports. CBP is pleased with the initial success 
of the Express Connection and One-Stop programs, and is considering 
further expansion of each.
    Our partners at TSA are applying intelligence-driven, risk-based 
screening methods to domestic travel to improve security and expedite 
travel for those passengers about whom we know the most. The TSA 
Pre3<SUP>TM</SUP> initiative broadens the scope of benefits available 
to CBP Trusted Travelers by enabling expedited screening at dedicated 
lanes within TSA Pre3<SUP>TM</SUP> airports. Going forward, CBP and TSA 
will continue to work together to strengthen security while 
significantly enhancing the travel experience for low-risk travelers.
Automation and Technology
    CBP is continually exploring additional automation opportunities 
that will provide greater efficiencies in the passenger processing 
environment while allowing for a more effective use of existing 
resources. Some changes that we have adopted range from new 
technologies to eliminating unnecessary paperwork, saving inspection 
hours for CBP officers.
    The Electronic System for Travel Authorization (ESTA) is a security 
enhancement to the Visa Waiver Program (VWP) that was developed 
pursuant to the Implementing Recommendations of the 9/11 Commission Act 
of 2007. ESTA is a fully automated travel authorization system used to 
collect information from travelers planning to travel by air or sea to 
the United States under the VWP. An approved ESTA application is 
mandatory for all VWP travelers prior to commencing travel by air or 
sea to the United States. The information submitted by applicants is 
screened against appropriate law enforcement databases, including the 
terrorist watch list, to determine the eligibility of travelers to 
travel to the United States under the VWP, and whether such travel 
poses a law enforcement or security risk.
    Through ESTA, CBP was able to automate the I-94W form, which was 
previously used by over 60 percent of travelers arriving by air to the 
United States, and eliminate the paper form. The result is 58 percent 
faster processing time for travelers under the VWP. This time savings 
has resulted in more efficient processing in most airports and has 
helped CBP meet the demands of increased passenger volumes. CBP is 
currently working with DHS partners to automate the standard I-94 form 
used by all other, non-VWP visitors entering the United States.
    There have also been many automation improvements in the land 
environment through our Land Border Initiative (LBI). Radio frequency 
identification (RFID) technology, improved license plate readers, and 
the Vehicle Primary Client remain the key to facilitating travel by 
allowing traveler information to be pre-positioned for our officers and 
automatically queried via law enforcement databases as the vehicle 
approaches the primary inspection. Vehicle Primary Client is a next 
generation computer upgrade that allowed CBP officers to quickly verify 
the validity of travel documents and make determinations regarding the 
admissibility of persons. Simultaneously, WHTI increases the security 
of U.S. land borders by requiring travelers to present a securely 
issued travel document, which can be verified electronically in real-
time, to establish identity and citizenship.
    The use of RFID technology and the promotion of new RFID document 
options allows for the transition of travelers from less efficient to 
more efficient processing methods. Passenger name law enforcement 
queries stemming from RFID travel documents are 20 percent faster than 
queries conducted with a machine readable document and 60 percent 
faster than a manual entry with a paper document such as a birth 
certificate. As of February 2012, there are more than 13 million RFID-
enabled documents in the hands of travelers. As part of WHTI, CBP 
greatly increased its use of technology in the land border environment; 
this technology is now integral to CBP operations, providing clear 
security and facilitation benefits.

                    PROFESSIONALISM AND MODEL PORTS

    CBP and our travel industry partners have worked together to 
improve processes for welcoming travelers into our country while 
maintaining the highest levels of security and professionalism. CBP has 
taken a proactive management approach in addressing passenger 
processing issues and is constantly working in partnership with airport 
authorities, airlines, and the travel industry to identify new ways to 
more efficiently facilitate the entry process.
Model Ports
    The Model Ports program was created to make the entry process more 
streamlined, understandable, and welcoming. The program is in place at 
the top 20 airports by volume: Washington-Dulles, Houston (IAH), 
Atlanta, Boston, Dallas/Ft. Worth, Chicago (ORD), Detroit, Ft. 
Lauderdale, Honolulu, Las Vegas, Los Angeles, Miami, Newark, New York 
(JFK), Orlando, Philadelphia, Sanford (FL), San Juan, San Francisco, 
and Seattle.
    Some of those best practices of the Model Ports program include the 
establishment of the Passenger Service Manager (PSM) position, a key 
advocate for promoting traveler satisfaction. The PSM is a uniformed 
CBP manager able to: respond to traveler complaints or concerns; 
oversee issues related to travelers requiring special processing; 
observe overall traveler processing; address issues on site as they 
occur; and provide recommendations for improvement of traveler 
processing and professionalism. The PSM also provides training to 
managers, supervisors, and officers on customer service and 
professionalism issues; collects and analyzes reports concerning 
professionalism and traveler satisfaction; and promotes public 
awareness of the CBP mission through distribution of public information 
bulletins, brochures, and comment cards.
    There are full-time PSMs stationed at each of the 20 Model Ports. 
Photographs and contact information for all PSMs are prominently 
displayed for maximum traveler visibility and access. In partnership 
with airport authorities and airlines, CBP also implemented the use of 
special service representatives to aid in directing travelers to open 
CBP primary booths and ensure CBP forms are completed prior to arrival 
in the processing area. Under the program, we have also significantly 
improved signage that is clear and concise for international travelers.
    CBP has installed and implemented audio and video technology in the 
passport primary queuing area in order to display CBP's informational 
video, ``Welcome to the United States `Simple as 1, 2, 3','' which 
presents travelers with step-by-step instructions on what to expect 
during CBP processing. The video is subtitled in eight languages and is 
seen by over 25 million visitors each year. CBP also partnered with 
Walt Disney Corporation to create a video at our Model Ports depicting 
images of America that provide a warm welcome to arriving visitors and 
resonate with U.S. citizens returning home.
    Another example of successful partnership with industry partners 
and stakeholders resulted in significant improvements to the facilities 
at the Orlando International Airport. A working group that included DHS 
agencies, the Port of Orlando, and private sector participants resulted 
in improved queuing, streamlined signage, a more welcoming interior 
decor, and foreign-language-speaking passenger facilitation. This local 
effort is considered a model for ports across the country and we are 
looking to highlight similar efforts in the future.
Traveler Satisfaction Survey
    As a result of CBP's commitment to improve customer service, CBP 
and the DHS Private Sector Office developed and deployed a traveler 
satisfaction survey to benchmark passenger satisfaction at the 20 Model 
Ports of Entry. The survey was conducted by Medforce Government 
Solutions (MGS), under a CBP contract, to evaluate CBP's performance in 
achieving Model Port goals.
    The traveler satisfaction survey for all 20 Model Ports began in 
October 2011 and was completed in November 2011. MGS used personal 
digital assistant (PDA) devices to collect data from English-speaking 
travelers; travelers speaking other languages were given paper surveys. 
The survey findings indicate that:
  --Nearly 90 percent of travelers agree that CBP officers are 
        welcoming;
  --Over 90 percent of travelers agree that CBP is providing the right 
        information to travelers, at the right time and in a hospitable 
        manner;
  --Over 80 percent of travelers agree that CBP is creating a calm, 
        pleasant Customs waiting area; and
  --Nearly 90 percent of travelers feel that the entry processing time 
        is either short or reasonable.
    Travelers have expressed high satisfaction with the way CBP is 
managing its entry process and providing timely and friendly customer 
service. We are still analyzing the results of this survey and working 
directly with industry partners to develop and maintain an ongoing 
survey process to maintain a feedback loop with our travelers so that 
improvements continue.
    Aligned with the customer service survey initiative, CBP 
revitalized the comment card program. Comment cards are available in 
the CBP areas at airports and can be filled out by travelers wishing to 
express their views of CBP processing. Each card is collected and the 
results are shared with the ports of entry, and if necessary referred 
for additional investigation. CBP has improved the format of the card 
made the cards more accessible to the traveling public, provided more 
analysis and feedback for the ports of entry, and taken corrective 
action where necessary.
Reducing Wait Times
    In addition to proven improvements to the traveler experience, we 
closely monitor wait times for international travelers. CBP strives to 
process arriving travelers, regardless of the port environment, as 
quickly as possible while maintaining the highest standards of 
security.
    Current statistics show that the 88 percent of travelers wait less 
than 45 minutes for processing and 73 percent of travelers wait less 
than 30 minutes for processing at airports. The national wait time 
average in fiscal year 2011 was about 22 minutes.
    Although CBP continues to address ways to manage wait times, other 
issues affect wait times, including concurrent arrivals that exceed the 
capacity of the airport and the need to staff multiple terminals. To 
address these challenges, CBP is implementing an aggressive, multi-
pronged mitigation strategy to enhance air passenger facilitation over 
the near and mid term. The near term strategy includes:
  --More effective use of existing resources;
  --Partnerships with carriers and airport authorities on facilitation 
        measures; and
  --Enhanced risk segmentation through increases in trusted traveler 
        program membership.
    In the mid-term, CBP will focus on optimizing front-line staffing 
resources and transforming business processes. Critical elements of 
this strategy include:
  --Transforming and reengineering current business processes;
  --Implementing alternative funding strategies to expand services at 
        requesting locations; and
  --Accurately identifying staffing requirements through a rigorous, 
        audited, workload staffing model.
    Our port directors identify peak processing periods well in advance 
based on historical data and real time operational information provided 
by carriers and airport authorities. With this advanced information, 
directors make appropriate operational adjustments, including 
restricting annual leave and administrative functions during peak 
processing periods, expanding pre-primary roving operations, utilizing 
cargo lanes for passenger processing as much as possible, and adjusting 
individual schedules and lane assignments.
    The airport wait time console is used to report on primary 
processing passenger wait times at the top 63 air ports of entry. This 
data is based on measurements of time intervals between the arrival of 
the aircraft and the processing of the passenger on primary. The wait 
time for each arriving passenger is recorded, and aggregates of these 
wait times may be obtained based on the individual flight, class of 
admission, time of day, or any other data element associated with an 
arriving air passenger. CBP reports wait times on our public Web site, 
and we continue to refine the reporting.
    The airport wait time console real time flightboard utilizes live 
data feeds from multiple sources to create a view of passenger arrival 
data that allows CBP field operations personnel to make optimal 
staffing decisions. By taking into account such factors as aircraft 
arrival time, facility constraints, as well as passenger volume and 
admission class, CBP field operations management is able to foresee how 
changes in any of the elements will require corresponding adjustments 
to staffing in order to meet our passenger wait time goals. CBP is 
currently testing this program at airports such as JFK and LAX, and we 
expect to expand the program to additional airports later this year.
Workload Staffing Model
    CBP is also developing a workload staffing model (WSM), employing a 
rigorous, data-driven methodology for identifying staffing requirements 
at the air, land, and sea ports. The WSM considers all business 
processes required of CBPOs, the workload associated with those 
business processes, and the true level of effort required to 
effectively carry out the mission on a daily basis. The WSM identifies 
the suggested personnel necessary to accomplish the critical daily 
mission, and it also captures future staffing requirements for new or 
enhanced facilities and technology deployments.
Professionalism: Enhanced CBP Officer Training
    CBP has also improved its training of CBP officers to ensure the 
highest level of professionalism. In 2008, CBP began working on a 
comprehensive basic training program for new officers. This new 
training program was launched in February 2011. The new curriculum 
includes three mandatory components: a 15-day pre-academy, an 89-day 
basic academy and a post-academy training program that ends as the 
trainee completes his or her probationary period.
    The goal of these programs is to produce a professional law 
enforcement officer who possesses the skills necessary to effectively 
carryout CBP's critical mission. The programs prepare trainees 
mentally, physically, and ethically to meet the challenges and demands 
of a law enforcement position and equips them with the specific skills 
needed to perform their duties with a high level of competence.
Partnership With Brand USA
    CBP is committed to the goal of facilitating lawful travel and 
fully supports efforts to expand legitimate travel and tourism to the 
United States. In support of these efforts, CBP has worked with Brand 
USA (formerly the Corporation for Travel Promotion) since it was 
established by the Travel Promotion Act of 2009. Brand USA was created 
for the purpose of encouraging travelers from all over the world to 
visit the United States of America. The public-private marketing entity 
was created in 2010 to work in close partnership with the travel 
industry maximizing the social and economic benefit of travel in 
communities around the country. CBP works closely with Brand USA to 
promote CBP programs such as ESTA and Global Entry and to identify ways 
of improving the traveler experience at U.S. ports of entry based on 
feedback from the customer satisfaction survey.
Proposal To Seek Reimbursement Authority for Outlier Services
    CBP believes that providing additional services that are not 
currently offered such as service for additional flights, new airports, 
or land border crossings and pre-clearance operations are in the best 
interest of the traveling public and economic prosperity. The current 
statutory limitations on CBP's authority to receive outside funding, 
except in narrowly defined instances, have prevented us from receiving 
reimbursement from private sector and international, State, and local 
partners. In turn, CBP has had to deny requested services or the 
provision of services without reimbursement. Therefore, through the 
fiscal year 2013 budget request, we are seeking the passage of a 
proposal that provides the necessary authority to consider and approve 
the provision of inspectional services for full reimbursement at 
domestic or international airports, seaports, land border environments 
other than user fee facilities currently defined in 19 U.S.C. section 
58(b). The underlying objective is to allow CBP to provide additional 
services at ports that it otherwise could not provide without 
reimbursement.

                     ADVANCED TARGETING INITIATIVES

    CBP has also placed a great emphasis in targeting potential 
security and law enforcement threats prior to their arrival in the 
United States and specifically, prior to boarding a U.S.-bound flight 
through its pre-departure targeting strategy. To accomplish this 
strategy, CBP has expanded and reorganized operations at the National 
Targeting Centers, enhanced the Immigration Advisory Program (IAP), 
increased international partnerships, and participated in new 
initiatives such as the U.S.-Canada Beyond the Border plan.
National Targeting Center
    The NTC was established in November 2001 in response to the 9/11 
attacks to provide advance passenger targeting, research, and 
coordination among numerous law enforcement and intelligence agencies 
on a 24/7 basis in support of the CBP anti-terrorism mission. Following 
the attempted bombing of Northwest flight 253 in December 2009, the NTC 
re-engineered its targeting operations with an increased emphasis on 
pre-departure targeting and interdiction, outbound targeting, and the 
re-vetting of previously issued U.S. visas.
    To increase its focus on pre-departure, the NTC not only expanded 
its operations significantly, but also accelerated its response time. 
The additional workload and time-sensitive analysis required process, 
technical, and resource enhancements. As a result, CBP has had to 
maximize the effectiveness of advanced technology and information, 
intelligence, databases (classified, law enforcement, commercial, and 
open-source), domestic and international partnerships, and well-trained 
human resources to effectively screen, review, identify, and prioritize 
passengers, cargo, and agriculture across all international modes of 
transportation, inbound and outbound.
Immigration Advisory Program and Regional Carrier Liaison Groups
    The Immigration Advisory Program is a partnership between DHS/CBP, 
foreign governments, and commercial air carriers to identify and 
prevent high-risk travelers who are likely to be inadmissible into the 
United States from boarding U.S.-bound flights. CBP officer teams are 
deployed to work with foreign law enforcement and air carriers at key 
airports in host countries. IAP teams work collaboratively to identify 
high-risk passengers with targeting support from the NTC and/or an 
assessment of passengers and their documentation. IAP extends the zone 
of security beyond the physical borders; CBP officer presence in 
foreign locations provides the on-site capability to question and 
assess travelers and serve as a direct liaison with foreign 
authorities.
    The Regional Carrier Liaison Groups (RCLG), located at airports in 
New York (JFK), Miami, and Honolulu, also work closely with carriers to 
provide information prior to passenger travel. Using various targeting 
methods, they prevent passengers who may be inadmissible, or who 
possess fraudulent documents, from traveling to the United States. 
Recommendations are made to the carriers regarding suspect travelers.
    The work of the IAP and RCLG has resulted in substantial savings 
for both carriers and the U.S. Government. The Federal Government saves 
costs associated with processing and detention of inadmissible persons, 
while carriers can avoid fines associated with bringing improperly 
documented aliens.
Preclearance
    Preclearance provides for the inspection and clearance of 
commercial air passengers and their goods prior to departure from 15 
foreign locations in five countries in support of CBP's extended border 
strategy. All mission requirements (agriculture, customs, and 
immigration) are completed at preclearance locations prior to departure 
enabling CBP to prevent inadmissible travelers and prohibited goods 
from entering the United States, and to protect U.S. agricultural 
infrastructure from foreign pests, disease and global outbreaks. 
Preclearance supports CBP's initiative to extend the borders outward 
and is part of the DHS strategic plan to deploy technology systems 
overseas to detect radiological threats before they leave foreign 
territories.
    A preclearance inspection is the same inspection an individual 
would experience at any United States port of entry, except it is 
conducted on foreign territory. As a result, the individual does not 
have to undergo a United States Government inspection again upon 
arrival in the United States. Instead, the traveler merely arrives at a 
United States domestic terminal facility and either connects to a 
United States domestic flight or leaves the airport.
    Passengers are afforded the benefits of making quick domestic and 
international connections and by having their checked luggage 
automatically transferred between flights by air carriers without being 
claimed. Meanwhile, United States airports enjoy the benefit of reduced 
passenger delays in the international arrival area.

                               CONCLUSION

    CBP is a world-class law enforcement agency--every day we are 
working to keep air, land, and maritime travel safe and secure, while 
providing professional services to our travelers. Air travel has 
increased by 3 percent in the past year, requiring more efficient 
processing for our travelers. As the industry is expected to grow even 
further in the coming year, we are positioned to respond with improved 
customer service and greater efficiency while engaging in techniques 
that identify threats before they arrive in the United States. We are 
holding CBP officers to a higher standard of professionalism and 
interpersonal conduct. Further, we will continue to take a proactive 
approach and engage in programs and initiatives that enhance security 
and expedite the flow of legitimate travel. Through business 
transformation, professionalism, and targeting initiatives, CBP is 
working to realize our goals and maintain traveler confidence that we 
are doing our best to keep air travel safe and secure.
    Thank you for the opportunity to appear before you today. I look 
forward to your questions.

    Senator Landrieu. Thank you so much.
    Doug.

STATEMENT OF DOUGLAS A. SMITH, ASSISTANT SECRETARY, 
            PRIVATE SECTOR OFFICE, DEPARTMENT OF 
            HOMELAND SECURITY
    Mr. Smith. Thank you, Chairman Landrieu.
    The timing of this hearing could not be better. I was 
thrilled to hear you mention the President's announcement in 
Orlando last month. As important as that announcement and 
calling attention to travel and tourism is who is at this 
table. We are not just here today as a one-time deal. The four 
of us literally talk every single day.
    In my role as the Secretary's Assistant Secretary for the 
Private Sector, what she looks for me to do is to coordinate 
across the entire Department and the interagency how to best 
work with the travel industry. As important are the people 
sitting behind me: Roger Dow, Airlines for America (A4A), and 
all of our partners in the travel industry. We are reaching out 
to them and working with them every single day looking for ways 
to create better efficiencies, looking at ways to increase 
throughput at airports, but to your point, Senator Coats, never 
compromising security. We firmly believe we can have both. It 
is the standard the President and the Secretary of Homeland 
Security hold us to. We can do both. We can facilitate travel 
to the highest degree possible and at the same time keep 
America safe whether it is for exciting events, Senator, next 
week in your hometown, the final four, perhaps we need a 
follow-up hearing, Senator Coats, down there in New Orleans for 
the final four championships.
    Senator Landrieu. Good idea. I should have thought of that.
    Mr. Smith. In New Jersey in the work we are doing at Newark 
International Airport to expedite travelers through so when 
they take those long flights back from Singapore, they are not 
standing in lines.
    We are committed across the entire Federal enterprise to 
continue to raise the bar.
    Since we came into office 3 years ago, we have put exciting 
programs into place. In fact, we have now through the programs 
such as Global Entry, TSA Pre3<SUP>TM</SUP>, broken the 
million-person mark of people that have those benefits. These 
people with those expedited travel benefits are already showing 
what can happen at our airports.
    What we are doing in Orlando in the Model Ports program--
the lessons learned there, we have been able to take across the 
country. I held a field hearing down there about 1 year ago, 
brought in 20 stakeholders from Walt Disney World, Universal 
Orlando, Gatorland, the airport authority, local members down 
there to talk about how we could improve the system, how we 
could make the welcoming experience better. Everybody came 
together. The achievements we learned there and working it 
across the Federal Government and our private-sector partners 
has given us the learnings to take across the country to not 
just the top 20 airports in the Model Ports program, but where 
we are expanding.
    There is a lot of work to do and we realize that, but it is 
this partnership that I can say has never been stronger. My 
partners in the private industry are not shy about reaching out 
and calling on a regular basis. But we are not shy about asking 
for help, asking for their help, and helping us grow our 
expedited traveler programs, helping us think through ways to 
better market to consumers.
    We are in the security business at DHS. My colleagues, Tom 
Winkowski and Administrator Pistole, are the best that there 
are. We rely on their counsel on a daily basis. But it is an 
integrated team, a team that extends to the United States 
Secret Service, to Immigration and Customs Enforcement, to the 
Coast Guard, and looks at innovative solutions to help keep the 
country safe and at the same time support our friends in the 
travel industry as they work diligently to grow this incredibly 
important driver of our economy.
    I know this week you will be talking to some of your 
colleagues on the possible expansion on the visa waiver 
program. It is a program we watch carefully. As you know, we 
have talked with many of your colleagues on areas in that 
program. It is an important tool. But there are many tools out 
there.
    With the time I have left, the one thing I would like to 
stress is it is about a partnership. We are committed. We are 
putting everything we have against this. Whether it is 
Secretary Napolitano, Secretary Salazar, Secretary Bryson in 
chairing the Travel and Tourism Advisory Board, the President, 
we are putting all that we have against it. But it is a 
partnership with private industry, with the administration, and 
with the Congress. Your colleagues, Senator Blunt and Senator 
Klobuchar, in chairing the Travel and Tourism Caucus in the 
Senate, have been phenomenal partners with the insights and the 
ideas they have given us. Your colleagues over on the House, 
Congressman Bonner and Congressman Farr, are equally supportive 
in giving us ideas. But that is how we are going to improve.
    To your point, Senator Coats, you are right. Budgets are 
not growing. They are shrinking and it is why we need to 
continue to close ranks, be as creative as we can to work with 
what we have. We could always use more. Everybody knows that. 
But we are confident that in working closely in these 
partnerships with private industry, with the Congress, across 
the administration, we will continue to find efficiencies and 
support the absolute critical path of growing tourism into this 
country.

                           PREPARED STATEMENT

    Thank you for your time, and I look forward to your 
questions.
    [The statement follows:]

                 Prepared Statement of Douglas A. Smith

    Chairman Landrieu, Vice Chairman Lautenberg, Senator Coats, and 
distinguished members of the subcommittee:
    Thank you for the opportunity to testify today about the Department 
of Homeland Security's (DHS) current major travel initiatives.
    My name is Douglas Smith, and I am the Assistant Secretary for the 
Private Sector at DHS. I am the primary advisor to the Secretary on how 
DHS impacts the private sector, opportunities for public-private 
partnership, and how DHS impacts the economy.
    In my capacity as the Assistant Secretary for the Private Sector, I 
have served as the Department's representative on interagency working 
groups on travel and tourism, such as the Tourism Policy Council and 
the recently established Task Force on Travel and Competitiveness. 
Additionally, I am the DHS ex-officio member of the U.S. Travel and 
Tourism Advisory Board (TTAB), which advises the U.S. Government on 
policies and programs that affect the travel and tourism industry. I 
also serve on the President's Export Council on travel and tourism 
issues
    Given the President's recent Executive Order 13597, ``Establishing 
Visa and Foreign Visitor Processing Goals and the Task Force on Travel 
and Competitiveness,'' and the growth of a number of DHS travel and 
tourism-related programs and initiatives, today's hearing is especially 
timely.

             THE DEPARTMENT'S EFFORTS ON TRAVEL AND TOURISM

    At the onset, I want to stress DHS's commitment to the President's 
critically important initiative. There is no better area in which to 
showcase our dual goal of economic and national security than our work 
to foster and facilitate travel to and within the United States. My 
testimony will provide a brief overview of DHS support of the larger 
U.S. Government effort to foster and facilitate a thriving travel and 
tourism industry, the engagement my office has had with our private 
sector partners, and the steps DHS is taking to improve the traveler 
experience.
    Every year tens of millions of tourists from all over the world 
travel to see firsthand this great country. DHS plays a primary role in 
the facilitation of what amounted to a $134 billion industry in 2010. 
We secure passengers and their luggage before they board planes, we 
screen travelers as they enter our borders, and we play an important 
role in the visa process, among many other responsibilities. This is 
why Secretary Napolitano has made the facilitation and security of 
travel and tourism a priority for the Department. We are taking 
concrete steps at the President's direction, and are working closely 
with Congress and the Office of Management and Budget, to boost 
America's tourism industry so that we can grow our economy and create 
more jobs while continuing to secure our country. At DHS we believe the 
goals of economic prosperity and national security are fundamentally 
intertwined.
    At the interagency level, Federal Government collaboration to 
foster travel and tourism has never been stronger. President Obama's 
Executive order on January 19, 2012, has resulted in a coordinated 
interagency effort to streamline the visa issuance process, strengthen 
the Visa Waiver Program and trusted traveler programs, provide useful 
and accessible travel information online, and develop our country's 
first National Travel and Tourism Competitiveness Strategy. Through the 
interagency leadership of Secretary of Commerce Bryson and Secretary of 
the Interior Salazar, DHS works every day toward these commitments.
    I am also proud to say DHS is continuously striving to meaningfully 
incorporate and involve the travel and tourism industry in the policy-
making process. Some of the stakeholders we regularly work with include 
the U.S. Travel Association, Airports Council International, Airlines 
for America, and--because this is a global effort--the International 
Air Transport Association (IATA). As Secretary Napolitano's 
representative to the TTAB, I work to ensure DHS has a formal, 
structured working relationship with the travel industry, engaging 
businesses on issues that matter most to industry. When the TTAB 
submits recommendations on behalf of industry, we not only share those 
perspectives with the appropriate program managers and leadership 
within DHS, but we also work with industry to leverage their expertise 
and partnership in identifying solutions to their recommendations. We 
have worked with businesses to share their best practices on customer 
service and queue management, promote DHS programs and initiatives, and 
we have even encouraged our ports of entry to engage and work directly 
with their industry stakeholders. Through our work with the TTAB and 
others, the travel and tourism industry is fully engaged in operations 
and policies that impact them. Agency-wide DHS is responsive to their 
needs and concerns. We are focused on making America as safe and as 
easy as possible to visit, and we view industry as a resource and a 
critical partner in this effort.

                        THE TRAVELER EXPERIENCE

    The Department is working at each step of the travel experience to 
increase the number of legitimate travelers to the United States and 
facilitate their journey and entry in a safe and efficient way. I will 
describe examples pre-arrival, on arrival, and while traveling within 
the United States.
    As potential tourists are making their travel plans, DHS is a part 
of the effort to promote the United States as the destination of 
choice. In fiscal year 2011, Customs and Border Protection (CBP) 
managed the Electronic System for Travel Authorization (ESTA) fee which 
collected over $116 million for the Corporation for Travel Promotion. 
ESTA fees are paid by travelers seeking to enter the United States 
under the Visa Waiver Program. The corporation, established by the 2010 
Travel Promotion Act, is a public-private organization charged with 
promoting travel to the United States. The CBP ESTA Program is expected 
to collect the same amount, if not more, this fiscal year. My 
colleagues at CBP and I are closely engaged in that effort as the 
Corporation for Travel Promotion implements its global marketing 
strategy ``BrandUSA.'' In addition, as directed by the President's 
Executive order, the interagency Task Force on Travel and 
Competitiveness, is developing a National Travel and Tourism Strategy 
to promote domestic and international travel opportunities to and 
throughout the United States.
    After foreign tourists decide to travel to the United States, many 
must apply for a visa. DHS is currently collaborating with the 
Department of State (DoS) to strengthen visa processing, and facilitate 
legitimate travel and tourism. Under a new pilot, in select 
circumstances, qualified foreign visitors who were interviewed and 
thoroughly screened in conjunction with a prior visa application may be 
able to renew their visas without undergoing another interview. All 
applicants will still undergo thorough screening against inter-agency 
databases. However, this initiative will free resources to interview 
more first-time applicants. The resulting reduced visa application wait 
times are expected to encourage travel and tourism to the United 
States, especially among travelers from emerging markets. DHS is 
committed to supporting DoS in its goal to increase by 40 percent 
nonimmigrant visa processing capacity in China and Brazil specifically.
    When visitors arrive at our borders, CBP is improving the arrivals 
experience to make it more welcoming. Working with some of the most 
recognized brands in the tourism industry, CBP has improved passenger 
service training for our front-line officers, streamlined signage at 
our ports of entry, and implemented programs to speed passenger traffic 
through Federal Inspection Services areas.
    In addition to our internal efforts to make the ports of entry more 
welcoming, DHS recognizes that each port is unique in its facilities 
and the airlines, passengers, and local industry that it serves. For 
this reason, we have emphasized the importance of local external 
collaboration at each port of entry, where local companies, the airport 
authority, and DHS entities can engage in dialogue and work together to 
improve the port at the field level. Our first effort launched in 
Orlando, where DHS and the Greater Orlando Aviation Authority worked 
with the local travel and tourism industry to improve the signage and 
port facilities. Out of this partnership, DHS was also able to 
accommodate a new daily flight from Brazil to Orlando. This flight 
currently brings more than 200 tourists to Orlando every day. Local 
industry estimates this flight will have a $100 million annual economic 
impact. More achievements like this will be accomplished through 
collaboration at the local level, when airport, industry, and DHS 
entities are able to meet shared challenges and opportunities together.
    A cornerstone of the Department's efforts to provide a more 
efficient and welcoming experience for travelers entering the country 
is Global Entry. This program facilitates expedited clearance for pre-
approved, low-risk travelers through the use of automated kiosks. CBP 
now has surpassed 940,600 eligible users enrolled in the Global Entry 
program with over 4,000 daily uses. Travelers have used automated 
Global Entry kiosks in more than 2 million transactions at 22 airports, 
freeing more than 42,400 inspection hours that DHS has re-allocated to 
focus on the regular passenger queues. The result is reduced wait times 
for all passengers. Global Entry will soon expand to additional 
airports, serving approximately 97 percent of international travelers, 
and now allows children under 14 to participate for the first time. 
Global Entry also benefits from our engagement with business. Working 
with credit card companies, hotel companies, and airlines to promote 
the program to their most loyal customers has resulted in significantly 
increased enrollment volumes.
    Within the United States, the Transportation Security 
Administration (TSA) has implemented a new passenger pre-screening 
pilot TSA PreCheck (Pre3<SUP>TM</SUP>) to facilitate expedited 
checkpoint screening at select domestic airports. TSA Pre3<SUP>TM</SUP> 
is open to any U.S. citizen who is a member of one of CBP's trusted 
traveler programs, such as Global Entry, SENTRI, or NEXUS at 
participating airports and airlines. While this program is currently 
only available to U.S. citizens on domestic flights, TSA 
Pre3<SUP>TM</SUP> allows TSA to better allocate limited resources and 
focus on higher risk passengers, further streamlining the travel 
experience.
    The examples above illustrate how DHS is working to foster and 
facilitate a thriving travel and tourism industry, while maintaining 
the highest security standards, across the entire tourism experience--
from pre-trip planning, to domestic travel. DHS continues to welcome 
the input and engagement of private sector and congressional 
stakeholders, as well as the traveling public to pursue our mission in 
an increasingly innovative, efficient, and effective way.

                               CONCLUSION

    Chairman Landrieu, Vice Chairman Lautenberg, Senator Coats, and 
distinguished members of the subcommittee, thank you again for this 
opportunity to testify on behalf of the Department of Homeland 
Security. DHS is committed to the whole-of-government effort to support 
a thriving travel and tourism industry so significant to our economy 
while maintaining the highest standards of security. I thank the 
subcommittee for its support of the Department's efforts.

    Senator Landrieu. Thank you so much, Doug. I really 
sincerely appreciate your enthusiasm and your focus and the 
administration's focus on this because it is a significant part 
of our responsibility to keep the country secure but also to 
grow jobs, and this is a very important part of our economy.
    I am going to turn this over to my vice chair and the good 
hands of my ranking member, and Mr. Donahue, if you will 
proceed. I am going to go early for the vote and then come 
back. Thank you.

STATEMENT OF DAVID T. DONAHUE, DEPUTY ASSISTANT 
            SECRETARY FOR VISA SERVICES, DEPARTMENT OF 
            STATE
    Mr. Donahue. Good morning, Vice Chairman Lautenberg, fellow 
Hoosier, Ranking Member Coats, and Senator Murkowski. Lots of 
Hoosiers in the room today.
    Thank you for calling this important hearing today. My 
testimony will focus on the State Department's role in 
facilitating legitimate travel of international visitors to the 
United States as a part of the administrations' broader 
initiatives as outlined in Executive Order 13597.
    I have also submitted my full written statement to be 
entered into the record.
    Streamlining access to U.S. Visa Services will complement 
our collective efforts to capture a greater share of the global 
tourism market. The visa application process is a small but 
important component of this effort. In the last year, more than 
62 million foreign visitors entered the United States according 
to the Department of Commerce. About 60 percent of travelers 
entered legally without visas, another 20 percent on previously 
issued visas, and only about 12 percent on visas obtained just 
before their travel.
    The Executive order directs the State Department to 
increase visa adjudication capacity in China and Brazil by 40 
percent and to ensure that consular officers interview 80 
percent of applicants worldwide within 3 weeks of submitting 
their applications. I am pleased to testify today that we are 
meeting this challenge without compromising the security of our 
Nation's borders or the safety of our fellow citizens.
    In fiscal year 2011, consular officers adjudicated 17 
percent more non-immigrant visas than the previous year. The 
growing demand for non-immigrant visas in China and Brazil 
alone is astonishing. In China, consular officers processed 
more than 1 million non-immigrant visa applications last year; 
in Brazil, more than 800,000 applications, which was a 42-
percent increase from the year before.
    In line with the Executive order to increase our visa 
application capacity, we are adding over 100 visa adjudicators 
this year and next in China and Brazil, both Foreign Service 
officers and new hires through a pilot limited non-career 
appointment program that targets applicants who already speak 
Mandarin and Portuguese. We expect the first group of these 
special hires to arrive at post in China and Brazil in the next 
couple of weeks.
    We have reduced and are maintaining short wait times in 
Brazil and China while processing 64 percent more cases in 
Brazil and 34 percent more cases in China. And today our wait 
times in China are all under 8 days, and in Brazil we have 35 
days in Sao Paulo despite huge increases in visa processing, 21 
days in Brasilia, and 14 days in Recife, and Rio de Janeiro. We 
are working to push those numbers down. They work Saturday in 
Sao Paulo to get another 1,500 to come up to Disney World and 
other places they want to come in the United States.
    I want to assure you that we are planning and preparing to 
handle the growing demand for visas from fast-growing 
economies. We are expanding our facilities, adding a total of 
48 new interview windows throughout China and 19 in Brazil. We 
are assessing the feasibility of opening more consulates in 
Brazil and China. Our teams were recently on the ground in 
these countries to assess the new consulate locations. Of 
course, we need the cooperation of the host governments of 
those countries to carry this through.
    We are continually looking for more efficient ways to 
improve the applicant's experience particularly since a trip to 
the Embassy is often the foreign visitors first impression of 
the United States.
    With DHS concurrence on January 19, 2012, the State 
Department and DHS initiated a 2-year pilot program to 
streamline visa processing for low-risk applicants based on 
terms and conditions agreed between our agencies and 
implemented in accordance with the Immigration and Nationality 
Act requirements. The pilot program permits officers to waive 
interviews for certain categories of qualified visa applicants. 
This program is focused mainly on visa renewal applicants and 
is in the process of being implemented at some of our busiest 
overseas posts, including Brazil, China, Mexico, India, and 
Russia. We are working with our partners in the U.S. Government 
to consider additional countries for membership in the visa 
waiver program.
    In addition to our ongoing efforts to streamline the visa 
application process, the State Department will continue working 
to promote travel in the United States through a cadre of 
economic and commercial officers, as well as our public and 
cultural affairs officers who are identifying key audiences and 
ensuring the message about travel to the United States reach 
them in the most appropriate context, formats, and languages.
    As President Obama has said, we will always protect our 
borders, our shores, and our tourist destinations from people 
who want to do us harm, but we want to get more international 
tourists coming to America. And there is no reason we cannot do 
both. The State Department is firmly committed to supporting 
the President's travel and tourism initiatives, opening the 
door to new jobs and exports. We have a priority to make it a 
priority to increase our capacity while maintaining strict 
security standards. Every visa adjudication is a national 
security decision.

                           PREPARED STATEMENT

    This concludes my testimony today, and I will be pleased to 
take your questions.
    [The statement follows:]

                 Prepared Statement of David T. Donahue

    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, it is a distinct honor to appear before you to 
share the accomplishments of my colleagues in the Department of State's 
Bureau of Consular Affairs, and our efforts to facilitate the 
legitimate travel of millions of tourists, business people, students, 
and other visitors to the United States.

     THE DEPARTMENT OF STATE'S ROLE IN TRAVEL AND TOURISM PROMOTION

    The nonimmigrant visa application process is a small but important 
component of the combined effort to attract more overseas travelers to 
the United States. In fiscal year 2011, more than 62 million 
international visitors entered the United States, according to the 
Department of Commerce. Around 60 to 65 percent enter legally without 
visas (Canadians and Visa Waiver Program travelers); most others enter 
with multiple entry nonimmigrant visas issued in prior years. Only 
about 12 percent of travelers obtained new nonimmigrant visas just 
before travel. Streamlining access to U.S. visa services will 
complement the administration's effort to capture a greater share of 
the global travel and tourism market, a multifaceted effort extending 
far beyond improving our visa adjudication capacity.
    In partnership with the Task Force on Travel and Competitiveness 
and the Corporation for Travel Promotion, the Department of State is 
playing a key role in promoting increased international travel to the 
United States. In addition to our ongoing efforts to streamline the 
nonimmigrant application process, we actively promote travel to the 
United States through our cadre of more than 1,200 economic and 
commercial officers working to establish and maintain new patterns of 
international economic cooperation. We promote America as a destination 
for overseas visitors through our public and cultural affairs officers 
who are identifying key audiences and ensuring that messages about 
travel to the United States reach them in the most appropriate 
contexts, formats, and languages.
    The Department of State looks forward to working with the Tourism 
Policy Council and the Corporation for Travel Promotion to encourage 
new and repeat travelers to the United States.

        RESPONDING TO INCREASING WORLDWIDE DEMAND FOR U.S. VISAS

    We at the Department of State are dedicated to the protection of 
our borders, and have no higher priority than the safety of our fellow 
citizens. At the same time, we are committed to facilitating legitimate 
travel, and providing prompt and courteous service. For the Bureau of 
Consular Affairs, the challenge is to meet the increasing worldwide 
demand for U.S. visas without compromising the security of our Nation's 
borders. I am pleased to testify that we are meeting this challenge 
head on.
    Consular officers adjudicated 8.8 million nonimmigrant visa 
applications and issued more than 7.5 million U.S. visas in fiscal year 
2011, an increase of more than 16 percent over the previous year, when 
6.4 million visas were issued. We have seen tremendous increases in 
demand for visas in some of the world's fastest growing economies. We 
are issuing as many visas as we did in 2000, even though nine more 
countries have joined the Visa Waiver Program since then.
    According to the Department of Commerce, international visitors 
contributed $134 billion to the U.S. economy in 2010, supporting more 
than a million jobs. More international travel means more spending on 
airlines, tours, hotels, services, and export purchases, all of which 
mean more American jobs. Not only do international tourists, business 
visitors, and students boost our economy, but these visitors also leave 
our country with a better understanding of American culture and values.
    The greatest growth in travel comes from the world's fastest 
growing economies, including China and Brazil, where we have seen 
demand for U.S. visas increase at a dramatic pace. In fiscal year 2011, 
we processed approximately 1 million nonimmigrant visas in China, and 
more than 800,000 nonimmigrant visas in Brazil. This represented a 34-
percent increase in processing for China over the previous fiscal year, 
and a 42-percent increase in processing for Brazil during the same 
period, an accomplishment in meeting workload demand that would be hard 
to match, even in the private sector. And, we issue nonimmigrant visas 
to almost 90 percent of Chinese applicants, and to over 96 percent of 
Brazilian applicants.
    In the first 4 months of fiscal year 2012 alone, consular officers 
in China processed 33 percent more nonimmigrant visa applications, and 
consular officers in Brazil handled 62 percent more over the same time 
period in fiscal year 2011. Although we have taken several steps to 
meet this growing demand since 2010, we are continuing to implement 
additional measures to streamline the nonimmigrant visa application 
process. In fact, we recently submitted a plan to President Obama 
outlining the steps we will take in 2012 to increase our capacity in 
Brazil and China by 40 percent, and to ensure that consular officers 
interview 80 percent of nonimmigrant applicants worldwide within 3 
weeks of submitting their applications--goals the President directed us 
to achieve through Executive Order 13597. I would like to update you on 
the details of these efforts.

             MEETING DEMAND, ESPECIALLY IN CHINA AND BRAZIL

    The Department of State is keeping pace with growing demand for 
visas, and continues to dedicate more personnel and resources to visa 
adjudication, focusing on embassies and consulates with the greatest 
resource needs. Specifically, we are committed to increasing 
nonimmigrant visa adjudication capacity by 40 percent in 2012 in both 
China and Brazil, two countries where we have seen the greatest 
increase in visa demand:
  --The Department is adding over 100 visa adjudicators this year and 
        next in China and Brazil. A number of these new adjudicators 
        are being hired through a pilot program that targets applicants 
        who already speak Mandarin or Portuguese. We expect the first 
        group of these special hires to arrive at posts in China and 
        Brazil by April 2012. A second group will follow in summer 
        2012.
  --Some posts in China and Brazil are operating double shifts to 
        maximize use of the facilities. Working bilaterally with host 
        governments, the Department is also working to physically 
        expand and improve our visa-processing facilities to allow for 
        even more visa applicant interviews.
  --The Department is using many different tools to expand capacity, 
        including advanced technology to maximize efficiency and 
        improve security-related screening. By consolidating some of 
        the non-security-related consular functions, we are increasing 
        capacity at our embassies and consulates.
    The results of these efforts are already evident. The staffing 
increases and internal efficiency measures have all but eliminated 
backlogs in China, and have significantly reduced the backlog of cases 
in Brazil, where wait times have come down well below the previous 
highs of more than 100 days, to as low as a week or less at some posts. 
As of today, average interview wait times for nonimmigrant visas at our 
Embassy and our consulates in Brazil are below 30 days, and a week or 
less at our posts in China.
    Since 2005, consular officer staffing has doubled in Brazil. Since 
fiscal year 2008, we have sent more than 185 officers and 57 support 
staff to Brazil on temporary assignments to meet short-term staffing 
needs, providing an additional 5,702 days of service. Our consulate in 
Sao Paulo began extended interview hours in August, and other Brazilian 
posts are expected to follow. Sao Paulo increased from 2,000 interviews 
per day to 3,000 per day. The U.S. Consulate General in Rio increased 
from 1,000 interviews per day to 2,000 interviews per day. We hosted 
two ``Super Saturday'' events at consular posts across Brazil, 
adjudicating almost 8,000 visa applications in those 2 days, and 
consular officers in Brasilia adjudicated hundreds of visas during two 
Brazilian holidays in November.
    We are working to expand and remodel our consular facilities as 
permitted by the Chinese and Brazilian governments, so that we can 
interview more visa applicants on a daily basis. In September, a team 
from the Department participated in a 2-week site survey to improve and 
expand existing consular facilities in Brazil, and another team 
traveled to China in January 2012. We are adding a total of 48 new 
interview windows throughout China and 19 in Brazil. This expansion, 
which will extend into 2013, will increase capacity by more than 60 
percent in China and more than 30 percent in Brazil.
    In addition, we are assessing the feasibility of establishing more 
visa-issuing locations in Brazil and China.
    The Department is utilizing limited non-career appointments (LNA) 
to hire visa adjudicators with essential language skills in Mandarin or 
Portuguese. LNA hires meet the strict qualifications of foreign service 
officers, including security and background checks. They enter service 
speaking fluent Mandarin or Portuguese, allowing them to begin work as 
soon as they have completed our intensive consular training program. 
They are appointed for 1-year periods for a total of no more than 5 
consecutive years, and have the same privileges and responsibilities as 
other consular adjudicators. We plan to hire over 50 LNAs over the next 
2 years. Every 10 LNAs could potentially adjudicate 150,000 more visas 
per year.
    We also prioritize groups of travelers, such as students and 
business visitors. Wait times for student visa interview appointments 
worldwide are less than 15 days. We prioritize student visa 
appointments because of the tremendous intellectual, social, and 
economic benefits foreign students provide to the U.S. economy. 
According to the Department of Commerce, international students 
contributed nearly $20 billion to the U.S. economy during the 2009-2010 
academic year. All U.S. embassies and consulates have established 
procedures to expedite appointments for business travelers. U.S. 
officials work closely with American Chambers of Commerce in more than 
100 countries to streamline the visa process for business travelers.
    We use advanced technology to maximize efficiency and improve 
security-related screening. Our worldwide Global Support Strategy (GSS) 
contract makes interview appointment scheduling transparent and 
consistent. It also eliminates the user-pay scheduling programs that 
exist in many countries. In order to create additional capacity, GSS 
moves some non-security-related consular functions off-site. By 
shifting non-security functions out of the consular section, it frees 
our staff to pay more attention to security concerns. GSS is already in 
place in many countries.
    We have worked to reduce or eliminate paper from all aspects of 
visa processing, winning awards for our green initiatives. Our 
nonimmigrant visa application is now completed and submitted online, 
and we are piloting a Web-based immigrant visa application.

                THE ROLE OF SECURITY HAS NOT DIMINISHED

    Security remains our primary mission, since every visa decision is 
a national security decision. We have an intensive visa screening 
process incorporating personal interviews with multiple biographic and 
biometric checks, all supported by a sophisticated global information 
technology network, which shares data with other U.S. Government 
national security agencies in real time. We continue to work with the 
law enforcement and intelligence communities to ensure that our 
officers have the latest information on whether an applicant poses a 
threat. Around the world, at 222 visa-issuing embassies and consulates, 
a highly trained corps of consular officers and support staff process 
millions of visa applications each year, facilitating legitimate travel 
while protecting our borders.
    We instruct our staff that their highest priority must be to 
protect the United States and its citizens. The officers are also 
trained to be courteous, respectful, knowledgeable, and efficient. We 
ensure that these principles are core tenets of our training regimen 
for new consular officers and visa adjudicators. Our visa adjudication 
courses feature in-depth interviewing and name-checking technique 
training, fraud prevention, and the use of automated systems. 
Throughout their careers, consular officers receive continuing 
instruction in all of these disciplines to ensure they integrate the 
latest regulations and technologies into their visa adjudication 
decisions. Our aim is to keep the visa process secure, efficient, and 
as simple as possible for all those who wish to visit our great Nation.

                               INTERVIEWS

    The Immigration and Nationality Act (INA) generally requires our 
consular officers to interview in person all first-time visa applicants 
aged 14 through 79, but gives consular officers authority to waive 
interviews for diplomatic and official applicants from foreign 
governments and, in limited circumstances, some repeat applicants. The 
INA also allows the Secretary of State to waive interviews in certain 
situations.
    Among the provisions in the Department's fiscal year 2012 budget 
was a request that the Department explore alternative measures to meet 
the personal interview requirement, such as video visa interviewing. We 
appreciate Senator Landrieu's interest in this topic, which we have 
also explored at length. We concluded that video visa interviewing is 
simply not a viable option. We have piloted this technology and have 
found it does not meet our strict security requirements, is costly, and 
is less efficient than in-person interviews. Use of this technology 
requires off-site facilities manned by American personnel with security 
clearances, and therefore subject to costly physical security and data-
protection requirements.
    Permission to open such facilities and the legal status of 
employees could be an issue in some countries. We found that moving 
applicants to and from the camera location, and limiting the length of 
the interview, is more challenging at an off-site video facility, 
thereby reducing the overall number of interviews conducted.
    Consular officers are trained to use all of their senses to spot 
potential fraud or threats that might not be as readily observable over 
a two-dimensional video link. Much like the final in-person interview 
before hiring a new employee, if there is any concern about a visa 
applicant, an in-person interview is the best way to resolve the case.
    We are continually looking for more efficient ways to improve the 
applicant's experience, without compromising security, particularly 
since a trip to the Embassy is often a foreign visitor's first 
impression of the United States. One way to accomplish this, among 
other things, is to decrease the number of people in the waiting room. 
Enhanced security screening in effect since September 11 makes it 
possible to eliminate interviews for certain very limited categories of 
applicants, without compromising border security requirements.
    With DHS concurrence, on January 19, 2012, the Departments of State 
and Homeland Security initiated a 2-year pilot program to streamline 
visa processing for low-risk applicants, based on terms and conditions 
agreed between our agencies and implemented in accordance with INA 
requirements. Under the pilot program, consular officers may waive 
interviews for certain categories of qualified nonimmigrant visa 
applicants worldwide who are renewing their visas within 48 months of 
the expiration of their previously held visa, and within the same 
classification as the previous visa (i.e., a B1/B2 applicant must apply 
for another B1/B2 visa). Consular officers also may waive the interview 
and fingerprint collection requirement for certain qualified 
nonimmigrant visa applicants holding Brazilian passports worldwide who 
are younger than 16 years old or 66 years of age and older, so long as 
the required thorough screening against biographic-based, immigration, 
law enforcement, and intelligence databases raises no concerns.
    Officers will only exercise this waiver authority after a careful 
review of the application, and a thorough screening of the applicant 
against inter-agency databases, and in alignment with appropriate 
programmatic quality control measures.
    This new policy will make it much easier for many tourists, 
particularly Chinese travelers, to renew their visas, helping to free 
up over 100,000 interview appointments for travelers applying for visas 
for the first time. That increase in tourism could support as many as 
1,500 travel and tourism-related jobs. For Brazilian applicants, the 
program will permit consular officers to more effectively spend their 
time and resources evaluating higher risk visa applicants and other 
applicants who require interviews. The pilot program has been 
implemented in China and is in the process of being implemented at some 
of our busiest overseas posts, including Brazil, Mexico, India, and 
Russia.

                              RECIPROCITY

    The Immigration and Nationality Act also requires us to set visa 
validity based on the validity of visas issued to U.S. citizens. We 
coordinate these decisions with the Department of Homeland Security. 
Right now, the Chinese generally issue Americans visas valid for 1 year 
or less. U.S. Ambassador to China Locke regularly addresses the issue 
of visa validity with the Chinese Government, with the goal of 
extending visa validity for American travelers from 12 months to 2 or 
more years, so that we can reciprocate and issue longer validity visas 
for Chinese leisure and business travelers.
    The Department does not act alone when it comes to decisions about 
visa validity; we must obtain approval from the Department of Homeland 
Security prior to increasing any period of visa validity.
    In addition to granting reciprocal treatment to U.S. citizens 
seeking visas to visit China, it has been the administration's position 
that the Chinese Government also must make significant progress in 
issuing travel documentation to thousands of Chinese nationals in the 
United States under final deportation orders.

                          VISA WAIVER PROGRAM

    We are working with our partners in the U.S. Government to consider 
additional countries for membership in the Visa Waiver Program (VWP), 
which is administered by the Department of Homeland Security. The 
specific requirements for VWP membership are set forth in law and are 
quite strict; these statutory requirements help to make VWP the secure 
program that it is. The Secretary of State recently nominated Taiwan to 
join the VWP and the Department of Homeland Security has begun the 
review process for its admission to the program. We support S. 2046, 
the Visa Waiver Program Enhanced Security and Reform Act, currently 
being considered in the Senate, which would enhance and strengthen the 
VWP.

                               CONCLUSION

    We believe that promotion of legitimate travel, trade, and 
educational exchanges are not in conflict with our border security 
agenda, but rather further that agenda and U.S. interests in the long 
term.
    Visa adjudication requires good judgment, insight into cultural 
practices, and knowledge of immigration law. Visa adjudication is 
essential to protecting the safety of our citizens, legal permanent 
residents, and those who visit our country.
    Our global presence, foreign policy mission, and personnel 
structure give us singular advantages in executing the visa function 
throughout the world. Our authorities and responsibilities enable us to 
provide a global perspective to the visa process and its impact on U.S. 
national interests. The issuance and refusal of visas has a direct 
impact on our foreign relations as well as our economy. The Department 
of State is in a position to anticipate and weigh all those factors, 
while ensuring border security as our first priority. We will continue 
to staff up, build, and innovate to ensure that America continues to be 
a secure and welcoming country.
    At the same time, as President Obama has said, ``We will always 
protect our borders and our shores and our tourist destinations from 
people who want to do us harm. But we also want to get more 
international tourists coming to America. And there's no reason why we 
can't do both.'' The Department of State is firmly committed to 
supporting the President's travel and tourism initiatives, opening the 
door to new jobs and exports. More international visitors to America 
means more revenue for our cities and States, and we are making it 
easier for tourists from other countries to experience all that America 
has to offer. We have made it a priority to increase our capacity while 
maintaining our strict security standards, and we will continue to 
reduce wait times and facilitate increasing numbers of legitimate 
travelers to the United States.
    This concludes my testimony today. I will be pleased to take your 
questions.

                    NEWARK LIBERTY AIRPORT: STAFFING

    Senator Lautenberg [presiding]. Thank you very much.
    Mr. Winkowski, according to the reports that we get from 
Newark Liberty Airport, arriving passengers are experiencing 
long wait times at Customs due to inadequate staffing, and I 
think you confirmed that in your remarks. With the busy summer 
travel approaching, there are concerns about whether or not 
these times will continue to grow. And it is fairly simple, as 
I see it, if we can get a commitment, Mr. Winkowski, that you 
commit to working with me and with us to boost the staffing at 
Newark. Can we count on that?
    Mr. Winkowski. I think there are several issues with 
Newark. When you look at the staffing of last year versus this 
year, they have had a decrease in on-board staffing of three 
people. Now, that is not to say that the number that they have 
is the right number, and I think that is your point, Senator.
    We are committed to work with the port authority, certainly 
your office, as well as the airlines.
    We face a number of challenges, and one of the challenges 
that I believe Senator Coats raised is the co-issue of peaking 
from the standpoint of aircraft coming in at the same time, 
maxing out facilities.
    I think where we are heading with this is really in three 
areas, and I think we need to look at what we are doing from a 
standpoint of transforming our whole process. I do not believe 
that the whole process is based on more people. Certainly in 
some cases, that would be accurate. But we have to make sure 
that we continue to capitalize on the whole issue of 
transforming what we are doing in the entire continuum of 
travel and clearing international passengers.
    So a number of areas. Global Entry. We need to drive up 
that number. We have a big group of travelers that come in that 
are very, very low-risk, and we need to get them into the 
Global Entry system so we can take that group of travelers, get 
them out of the line, get them over to a bank of kiosks, and 
walk out the door.
    The other area is the elimination of these forms that we 
have. So, for example, when we put the ESTA system up, we were 
able to eliminate the I-94W. That saves a lot of time. We are 
working very, very hard in eliminating the I-94, and we 
anticipate being able to do that by this year and doing other 
initiatives----
    Senator Lautenberg. I would ask that you put this in the 
form a report because the question, as it was posed, was 
developed by my people and the facts that govern there that 
there was a shortage of staff.
    Now, I do not know whether we can alter arrival times for 
aircraft. The airplanes want to arrive on a schedule that is 
most convenient for them and for certainly their passengers.
    So if you would, sir, because the time is so limited, and I 
would like to ask Mr. Pistole a question, if I can.
    Mr. Winkowski. Okay.
    [The information follows:]
    Staffing and Wait Times at Newark Liberty International Airport
    Based on the volume of inbound international passengers, Newark 
Liberty International Airport (EWR) is the fourth busiest international 
airport in the United States.
    Over the last 3 fiscal years, wait times at EWR have risen along 
with those at most major international airports. From first quarter of 
fiscal year 2009 to first quarter of fiscal year 2012, EWR's average 
wait time and the overall national average wait time increased by 
approximately 27 percent. Increasing wait times can be attributed to a 
number of challenges, including:
  --Dramatic return of passenger volume after the global economic 
        downturn. Fiscal year 2011 saw 95 million passengers and crew 
        processed at CBP's international airports--the highest total on 
        record.
  --Expanding facilities and mission requirements that impact the 
        capacity of CBP officer resources.
    EWR wait times track closely to--and slightly below--the national 
average:
  --National average wait time (first fiscal year 2012) = 21.7 minutes.
  --EWR average wait time (first quarter fiscal year 2012) = 21.2 
        minutes.
    EWR's peak arrival time for flights and passengers is the 3 p.m. 
hour. Average wait time during that hour (first quarter fiscal year 
2012) = 30.0 minutes. Most recently, EWR wait times have decreased as 
CBP implements its wait time mitigation strategy, which includes:
  --More precisely aligning staffing to daily workload, including using 
        an automated real-time scheduling tool. EWR maximizes the 
        staffing of its inspection booths in anticipation of peak 
        arrival periods.
  --Limiting leave usage, administrative functions and training during 
        peak arrival times.
  --Working with air carriers, airport authorities, the trade 
        community, and others on facilitation measures such as Express 
        Connect and One Stop. These programs expedite travel, reduce 
        missed connections, increase passenger throughput, and enhance 
        the arrival processing experience.
  --Increasing participation in Global Entry, one of CBP's Trusted 
        Traveler Programs to increase the number of pre-vetted 
        travelers to allow CBP to focus finite resources on those 
        individuals that may present a higher risk. Travelers using 
        Global Entry kiosks significantly reduced wait times for CBP 
        processing. Wait times are also subsequently reduced for the 
        non-members remaining in the general queue.
    Most EWR passengers do not experience long waits for CBP 
processing. During the first quarter of fiscal year 2012:
  --Over 75 percent waited less than 30 minutes; and
  --99.5 percent of arriving passengers waited less than 90 minutes.

                    NEWARK LIBERTY AIRPORT BREACHES

    Senator Lautenberg. Thank you. Your report was excellent.
    Last year there was an unusually high number of breaches at 
Newark Liberty. At my request, DHS is in the process of 
completing an investigation of these breaches. What steps can 
you suggest to us here now that will help identify the problems 
and get them fully resolved? We should have even in that 
relatively harmless breach of the secure area--we, I think, had 
something like 160,000 people tied up in one place or another, 
really unfair. So what can we do?
    Mr. Pistole. Thank you, Senator.
    There are two aspects to this. One is what the initial 
breach is and then the second is what is our response to that 
breach. So do we need to shut down an entire checkpoint in a 
terminal as a result of whatever that breach may have been? So 
we have reviewed our standard operating procedures for that and 
assessed what is the best approach. As you know, we have new 
leadership in there at Newark that is addressing some of the 
issues that have, I believe, led to some of those, whether they 
are isolated--I do not believe they are systemic issues, but 
they cause a lot of concern because of the down time associated 
and the loss of productivity and efficiency. And so those are 
the things that we are trying to address.
    Senator Lautenberg. I am going to call on Senator Coats. 
But it is a question I want to get back to.
    Senator Coats.

                     I-94 REPLACEMENT: COST-BENEFIT

    Senator Coats. Thank you, Mr. Vice Chairman. I will be 
brief because I think I am going to have to run out and catch 
this vote.
    But in talking about effectiveness, I am sure you are 
deluged with new ideas, new technology, and new equipment. And 
I guess my question goes to the point of how do you assess vis-
a-vis the cost-benefit of a new piece of equipment that might, 
say, replace this I-94? There must be some electronic means you 
are talking about or something to that effect. Particularly at 
a time of constrained budgets--I get visited by a number of 
groups saying I have got the next best thing here to solve the 
problem. And if you would only buy a thousand of them and 
implement them across the country, why, we could expedite 
screening.
    Could both you and Administrator Pistole talk a little bit 
about where we are from the standpoint of the use of new 
technology that might help us and are there some things that we 
should focus in on as we consider your budgets?
    Senator Lautenberg. Senator Coats, I am going to go ahead 
and vote, and if you will----
    Senator Coats. I will be happy to do it.
    Senator Lautenberg. Thank you all. We will adjourn for just 
some minutes and be back.
    Mr. Winkowski. Maybe I can take the first crack at that, 
Senator.
    I think with every program that we have in CBP, we look at 
it from the standpoint of how can we be more efficient and 
reduce costs. So you take, for example, the issue of the I-94 
and the I-94W. So the I-94W is for visa waiver countries. It is 
a little form that everybody signs off. We have to stamp it and 
sign it and cut it and hand it out. It adds tremendous time to 
the process. At the same time, we have advance passenger 
information that we have on that particular passenger coming 
into the United States through a lot of good funding from this 
subcommittee. Thank you very much. And we also have outbound 
information. So we are able to match up who came in from a visa 
waiver country and when did they leave. They do not need to 
submit that particular form and send it down to a processing 
center for it to be keyed into a system. That is done. We have 
saved millions and millions of dollars on that.
    The I-94 is for non-visa waiver countries. It is the bulk 
of the forms that we have. And we spend about $15 million per 
year inputting that information in the system, as well as 
storing it. So we are very quickly at the point where we get 
the same advance information coming in. We know that a 
passenger came in and we know that a passenger left to go back 
home and we can match that up and do not need that form. So 
that is going to save us $15 million and become much more 
efficient.
    So Global Entry--you can take the same analysis of what it 
costs us to process a passenger on primary who is low-risk, who 
is going to be sent through the system, and send him over to a 
kiosk for the Global Entry system.
    So as we continue to transform our organization--because I 
agree with you. It is not all about additional positions. I 
think our workload staffing model will show in some areas that 
there perhaps is a need for additional positions in certain 
areas, but overall, we cannot come up with a plan that says we 
are going to keep business as usual but increase our budget. 
Those days are behind us. So all these efficiencies that we 
have that we are working on are saving us millions of dollars.
    Senator Coats [presiding]. Good.
    Administrator.
    Mr. Pistole. Senator, so what we look at in TSA, the bottom 
line, is what is our return on investment. How can we reduce 
risk, mitigate risk through strategic investment such as what 
we did after the attempted bombing on Christmas Day 2009 where 
the subcommittee and obviously Congress invested hundreds of 
millions of dollars in the advanced imaging technology machines 
to give us the best opportunity to detect the nonmetallic 
device, the bomb, that we saw on Christmas Day? So that is a 
strategic type of investment that helps us reduce risk.
    I think a lot of the talk about the future, as we look at 
what some people describe as the checkpoint of the future, 
which different groups and associations, especially the 
International Air Travel Association (IATA) have looked at, is 
trying to consolidate different detection capabilities into 
either a single piece of equipment or something that minimizes 
the intrusiveness, if you will, of the detection capabilities. 
So we are always looking for that next best idea that helps us 
detect devices that could be catastrophic on an aircraft, but 
it has to be, obviously, at a good price and able to deploy in 
an efficient, effective manner.

                AVIATION SECURITY PASSENGER FEE INCREASE

    Senator Coats. I think it is important that you keep us 
advised of this type of thing. Obviously, if there is some new 
technological breakthrough that helps us with our staffing 
situation and so forth, I mean, it is certainly worth looking 
at. But at a time of budget constraints, it is going to be 
difficult to provide the funding for it unless it really 
offsets some expenditures elsewhere to help pay for that.
    I was not going to get into this subject, but I want to 
keep you here until the chairman gets back. So let me get to a 
more controversial subject.
    The President's budget proposed a significant increase in 
the transportation fee paid by passengers. They made some 
adjustments. No longer is it by leg--it is by each trip. I do 
not believe that has been submitted yet for our consideration. 
One, do you have any idea as to when the administration might 
submit that? And two, can you give us your take on that 
proposal? As you know, it has not been increased in a 
considerable number of years. On the other hand, imposing what 
to a lot of passengers seems like a new tax--what is the 
justification for it? Just give us some download on that 
particular issue.
    Mr. Pistole. Thank you, Senator.
    Of course, the idea behind it is that the users of the 
service, the beneficiaries of that security, should have some 
responsibility to help pay for that. So, as opposed to somebody 
who never travels at all, a U.S. taxpayer, they still have a 
burden of paying for that security even though they never use 
the service. So that is the general construct behind it.
    And as you noted, it has not been raised since the 
enactment of the fee going back to 2001-2002. And so, in the 
President's budget, it is simply a recognition that there is a 
cost to security and that the cost can be provided for by the 
users of that security. So what the budget looks at is an 
incremental increase going from that $2.50 per-segment fee up 
to a $5 one-way maximum fee in 2013 and then incremental 
increases beyond that.
    So recognize there is controversy around it and it really 
becomes a question of, as that fee is used, can it reduce the 
general taxpayer's burden for the transportation security 
responsibilities? It also has provisions, as you know, in it 
that would also reduce the overall deficit, which is also 
something that is looked at as an obligation for the 
administration at this time.
    Senator Coats. Relative to the timeframe in terms of which 
it would be introduced, any information----
    Mr. Pistole. I do not have any specifics on that. I will 
have to get back with you on that.
    Senator Coats. Okay.
    I think what I am going to do, given the prerogative of 
being the chair, with no one here able to raise any objection--
what I might do--I would like to let you go, but I know the 
chairman probably has some--why don't we just do this? Why 
don't we just take a temporary hold? I think she will be back 
at any moment. Why don't we have the subcommittee reconvene 
upon the arrival of the chairman. The time clock is probably 
ticking down. But I know they need my vote. So they will 
probably hold it open.
    Mr. Donahue, I did not realize you were a Hoosier also. So 
welcome to the club, and we will all be sitting on the edge of 
our chair Friday night.
    So we will just do a temporary hold here until the chairman 
returns. And I thank all of you for your testimony, and we will 
be back with you very shortly.

            AIRPORT SCREENING: PILOTS AND FLIGHT ATTENDANTS

    Senator Landrieu [presiding]. Thank you all so much for 
your patience as we juggle these schedules.
    And I understand that Senators Coats and Lautenberg got 
their questions in. So let me begin with mine, and we are 
expecting them to return or some of them to return and we will 
continue.
    Let me ask Administrator Pistole. Airline pilots and flight 
crews are subject to extensive background checks. So to me it 
makes sense to allow these vital employees expedited access 
through airport screening checkpoints. Now, I see them as they 
move past me in the line, which is most appropriate, and they 
move to the head of the line, but they still go through all the 
screenings required, including belts, shoes, buckles, et 
cetera.
    I understand we are testing a program at seven airports 
where pilots can go through but not flight attendants. How was 
the decision made for pilots and not flight attendants? Are the 
security screenings for them different, and if so, how? And 
what could we do to include flight attendants in that pilot, 
and then when can we expand it to all pilots and flight 
attendants hopefully safely?
    Mr. Pistole. Thank you, Madam Chair. We have, of course, 
for a while had some modified screening procedures in for both 
pilots and flight attendants, which is less onerous than for 
the general traveling public. But what we are doing under this 
Known Crewmember initiative is recognizing that starting with 
the pilots, they are the most trusted person on the aircraft. 
Almost 29,000 times per day, they get us from point A to point 
B safely, and it is what is really in their hands, the 
aircraft, that is a challenge.
    So recognizing that they are the most trusted, we wanted to 
start someplace and so, in association with A4A and the Pilots 
Association, have been doing this initiative to see if this 
will work on a wide-scale basis. So we have been at the seven 
airports. There are three others that started. We just reached 
agreement to expand that more broadly around the country, maybe 
another 20 airports or so. And the whole idea from the start 
was let us start with pilots and then we will look at flight 
attendants once we make sure that the pilot system is working, 
recognizing that the flight attendants are, as you note, 
trusted and key components of the flight crew.
    Senator Landrieu. I am assuming the flight attendants have 
requested this of you.
    Mr. Pistole. They have. We have had several meetings over 
the last year, and I have been, I think, pretty clear about 
wanting to do this as a pilot initiative with the pilots to 
start off and then once that happened, make a decision as it 
relates to the flight attendants.
    Senator Landrieu. I just want to again remind everyone that 
it will be, I guess, 11 years this September that this industry 
has been topsy-turvy. And 11 years of someone's career is a 
pretty long time to be going through these steps. And I think 
our pilots and our flight attendants have been more than 
patient as we try to figure this out. This is not 2 years. This 
is not 3 years. It is not even 5 years. I mean, it is almost 
one-half of a 20-year career. So I just do not think we have, 
in my view, a lot of time.
    Again, we do not want to compromise security, but using 
just common sense with the screening that I am certain goes on 
before a pilot can get a pilot badge now post 9/11--we 
unfortunately learned the lesson the hard way. But I am certain 
that that screening--and we will hear more about it from the 
flight attendants that are testifying this morning--have been 
in place for flight attendants now, very tough screening for 
them, that they are as much a part of this experience. The less 
haggard they are, the less frustrated they are, both pilots and 
flight attendants, trying to do the job that we have asked them 
to do, that they want to do, the better.
    So I wanted just to get that on the record, and I am glad 
that you are working on it.
    Let me just stop there.

                            PRECHECK PROGRAM

    Senator Landrieu. Because I was not here for the questions, 
I want to make sure I do not double-ask, and I see Senator 
Murkowski back for hers.
    Let me ask on the PreCheck (Pre3<SUP>TM</SUP>) program. I 
applaud your efforts to move away from a one-size-fits-all 
screening approach to a more risk-based approach. Last year you 
launched Pre3<SUP>TM</SUP>. You talked about it in your 
testimony. The screening benefits include no longer removing 
shoes. You do not have to put your laptop, your jacket, your 
belt, liquid containers from carry-on luggage. 
Pre3<SUP>TM</SUP> is currently at 11 airports, scheduled to 
expand to 35.
    I understand that we have about 48 major airports. Is that 
true? Is that the number? What do you say?
    Mr. Pistole. By the end of the year, we will be in 35.
    Senator Landrieu. Thirty-five, but how many major airports 
are there in the United States?
    Mr. Pistole. Oh, there are 28 category Xs, yes the largest 
airports.
    Senator Landrieu. Twenty-eight big, big airports, but how 
many overall airports? About 400?
    Mr. Pistole. Four hundred and fifty, approximately.
    Senator Landrieu. So while these pilots are important, you 
can understand that it is just a small number, although we are 
focusing on the larger ones. Currently, the Pre3<SUP>TM</SUP> 
eligibility is limited to high-mileage frequent flyers and U.S. 
citizens. Less than 6,000 passengers are screened daily through 
a Pre3<SUP>TM</SUP>. When you consider that 1.7 million 
passengers travel each day, but yet only 6,000 have been 
prechecked, can you give us an update and what your potential 
expectations are? Will we ever get up to one-third of our 
travelers prechecked or 20 percent of our travelers prechecked, 
I mean, based on your assessments so far?
    Mr. Pistole. The goal is to expand the Pre3<SUP>TM</SUP> 
program as broadly as possible as quickly as possible while 
making sure that we are maintaining the best possible security. 
By expanding to the 35 largest airports, in many respects we 
will obviously capture a much greater portion of the population 
than we are today. The addition of additional populations such 
as members of the military at Reagan National Airport yesterday 
will help expand that. We are looking at other groups and 
working with industry to see how we can come up with--rapidly 
expanding while maintaining the best possible security.
    Senator Landrieu. Let me ask this--probably lots of good 
people are frequent flyers, but there might be some bad people 
that are frequent flyers. Are we automatically clearing all 
frequent flyers?
    Mr. Pistole. No.
    Senator Landrieu. And are the standards for frequent flyers 
different by airlines? And give us some indication that there 
is another screen other than that you might fly frequently to 
sort of get access to this program.
    Mr. Pistole. Sure. Of course, we are not publishing the 
exact standards that we are using or the vetting we are doing 
because we do not want terrorists to game the system. But 
obviously anybody who an airline would deem qualified to be 
considered--the very first check, of course, is against the 
terrorist screening database to make sure that there is not a 
terrorist trying to game the system and somebody who is just 
trying to rack up a lot of miles to get that possible benefit.
    We also do some things that I would be glad to go into a 
closed setting to talk about in some more detail in terms of 
that vetting.
    But suffice to say that it is simply a starting point for 
us with the more elite frequent flyers, recognizing that if 
they have a long history of travel, the odds are that they are 
not as likely to be a terrorist, but we always will keep random 
and unpredictable screening as part of that. So somebody may go 
into Pre3<SUP>TM</SUP>. I was in Miami yesterday and Reagan 
National yesterday, and saw Pre3<SUP>TM</SUP> in operation. And 
there are those who may qualify and they may have gone through 
several times recently, but just for purposes of randomness, we 
will say, ``Okay, no, you need to go through the regular 
screening.'' So the whole idea is to have multiple layers of 
security and then facilitate the safe, efficient travel for 
those whom we make that assessment on. So there is, again, more 
detail I would be glad to go into.

         COORDINATION WITH AIRLINES AIRPORTS AND TSA OR CUSTOMS

    Senator Landrieu. I have one more question and then I will 
turn it over to Senator Murkowski, and then we will probably 
move to our second panel.
    But Mr. Smith, I was so happy to hear your level of 
enthusiasm and your focus on coordination because as you 
properly stated, the goals of safe and secure but comfortable 
and pleasurable travel, which is so important to this industry 
and to our economy, not just for visitors but in the global 
economy that we have been entering now for the last 15 to 20 
years--it is going to get the demands of screening and 
communications, even though technology sort of minimizes the 
need in some instances. But there is nothing like a face-to-
face meeting or a face-to-face visit no matter how virtual the 
Internet has become. So I think this is just crucial to our 
world in the future.
    Can you talk for just 1 more minute about some of the 
successes that you have specifically had to give us some ideas 
about the coordination between the airlines, the airports, and 
TSA or Customs in reducing wait times, reducing travel lines, 
or any feedback that you are getting from the travelers and any 
sort of success that you could share specifically?
    Mr. Smith. Absolutely, and thank you for that.
    I will tie to what you just asked Administrator Pistole. 
How will we increase numbers? It is the partnership with the 
carriers. The carriers were instrumental. When we took Global 
Entry from an initial pilot and said we want to dramatically 
expand those numbers, my lawyers would yell at me if I told you 
which carrier. Let us just suffice it to say a very large 
carrier. Their CEO took this on as his personal mission to 
partner with us to help explain to the traveling public the 
availability of this program.
    We are doing that same thing with Pre3<SUP>TM</SUP>, 
working very closely with U.S. travel to coordinate messaging 
to the traveling public directly. We are not in the marketing 
business. We are in the keeping the planes safe business. They 
are in the marketing business. It is this partnership. It is 
why we have seen the jump in the number of Global Entry 
applications since John expanded TSA Pre3<SUP>TM</SUP>, in that 
first week, a several hundred percent increase in applications. 
So we are seeing concrete examples.
    In Orlando on wait times, working closely with the airport 
authority there, we set up an ambassadors program. So when a 
new flight, which we were able to add through new efficiencies 
into Orlando resulting in conservatively a $100 million impact 
to that economy flies in, they are greeted with native 
Portuguese speakers. So they welcome them into the Federal 
Inspection Services section that Tom's people have to manage in 
native Portuguese. It makes them more comfortable. It helps 
them speed through the process but once again a partnership, 
freeing up CBP front-line officers to do what they need to do 
to keep us safe while working with the airport partners to help 
increase efficiencies. So people are welcomed. We move through 
more briskly, but we keep them safe at the same time.
    Senator Landrieu. Thank you.
    Senator Murkowski.

           AIRPORT SCREENING: INDIVIDUALS WITH SPECIAL NEEDS

    Senator Murkowski. Thank you, Madam Chairman.
    Gentlemen, thank you for your comments this morning.
    We pay a lot of attention to what is going on within the 
aviation sector because people in my State have to fly, and a 
lot of times it is very small planes going through very small 
communities through another small community to get to a medium-
sized community to get to a community of size, maybe 26,000.
    But what we see oftentimes is a growing frustration because 
TSA, in order to be effective, needs to have a one-size-fits-
all approach, and that is oftentimes clearly not understood 
when you are in a regional fishing hub like Dillingham or 
Bethel and you see a dozen people from TSA who are monitoring 
you going through this tiny, little airport where there is not 
only no room for the passengers once they have gone through 
screening, it is a system that they look at and just say we are 
not quite sure why we are going through all that we are going 
through. And as their representative here in Congress, I have 
to explain to them it is all about safety and it does not make 
any difference whether you are in Bethel or whether you are in 
Baton Rouge. We are talking about safety here. But there are 
some very legitimate concerns that come from this type of an 
approach.
    The first thing I would like to bring up with you, 
Administrator, is the procedures for those who either have 
special needs or issues, use of prosthetics. I know you are 
very familiar with the situation in Alaska. One of our members 
of the Alaska State House of Representatives was in Seattle, 
has had breast cancer and mastectomy and had a prosthesis in 
place and was going to be subjected to a pat-down that she felt 
was invasive based on a prior experience, and she refused. And 
the story is that she then decided that she was not going to 
fly back to work in Juneau, but our capital is on a island 
which required her to drive from Seattle through Canada, up 
north across the border, down to a point where she could get on 
a ferry to get into Juneau to go to work. It was a 3-day 
process but that was how she dealt with it.
    She has really taken this up as a very significant issue to 
try to speak out and make sure that there is a level of 
sensitivity that goes with the screening process. And she has 
introduced several bills in the legislature there, one that 
would require signage warnings that speak to travelers of the 
possibility of what she considers to be very invasive pat-
downs.
    So I guess the question to you this morning--and I brought 
this up with the Secretary as well--is what have you done. What 
is happening within the agencies that demonstrates that in fact 
we are responding to these issues in a way that can help 
mitigate or alleviate what are clearly some very psychological 
effects of some pretty invasive screenings? I would hope that 
you would speak to not only the issue of signage in direct 
response to Representative Cissna's concern but any other ways 
that you are choosing to deal with this to help our passengers 
with more special needs.
    Mr. Pistole. Thank you, Senator. You raise a number of very 
important points.
    The comment about the one-size-fits-all, I agree that has 
served us in the past, but we are moving from that and have 
already testified about it in terms of this Pre3<SUP>TM</SUP>, 
in terms of changing the policy for children age 12 and under. 
We are doing an initiative this week to start on Monday with 
older individuals, age 75 and older, that look at alternate 
screening for them, allowing them to keep their shoes on, a 
light jacket. There are about 60,000 folks age 75 and older 
every day that travel. The same thing on the young side, about 
60,000 children age 12 and under. So the whole idea is, How can 
we differentiate on the basis of what the intelligence, the 
threats tell us about who may be a possible threat.
    The individuals with special needs, whether it is external 
medical devices or prostheses or whatever the particular 
situation, have been a challenge for TSA over the years, 
clearly. In December, we launched what we call TSA Cares, which 
is a number that anybody with special needs can call ahead of 
time, ideally 48-72 hours before they would arrive at an 
airport, to ask questions such as, ``Okay, here is my 
situation. How can I make sure that I am afforded good security 
but in the most professional, respectful way?'' And we have had 
tens of thousands of people call that number since we stood 
that up in the last several months where we give advice. We 
obviously encourage people to look at our Web site.
    The fact is that we are trying everything possible to work 
with individuals who have those special needs in a way that 
respects their privacy and the whole aspect of their dignity, 
and we have not done a good job in some situations.
    We have a complaint line where people call in, and 85 
percent of those calls are simply requests for information as 
opposed to actual complaints. So we monitor that.
    We try to put as much information as we can out, and then 
we will work with individuals. So it is something that--we have 
also met with dozens of special interest groups that have 
similar situations to try to educate the traveling public and 
those they represent, and these groups represent tens of 
millions of people who travel either frequently or 
occasionally. But it is a daily challenge for us dealing with 
the 1.7-1.8 million people.

                            CARGO SCREENING

    Senator Murkowski. And I understand that. I also recognize 
that oftentimes you can look to that Web site because we have 
directed people there, having gone to the call line. But 
oftentimes you read that and then you go through the line, and 
it is what it is. You are dealing with a TSA personnel that you 
are and they may or they may not treat you with that level of 
respect and understanding that you had hoped. Of course, this 
then leads to the problems.
    I want to bring up just one more just side issue to this, 
but it speaks to the sensitivity that I think is important.
    In Alaska, in many parts of the State, the native women 
wear a traditional kuspuck. It is like a jacket that has double 
pockets. And I was wearing a kuspuck and I was told that you 
have got to remove your kuspuck because it is a little bit 
bulky in front. It is not a little bit bulky. You can go like 
this and the bulk is gone.
    Let us just say I had a conversation with some of the folks 
there at TSA asking them how they dealt with the fact that this 
is native, traditional garb. Many of the women coming through 
wear this. And how is it handled? And the response that I got 
was less than satisfactory. It is something that I have 
intended to follow up with because I want to make sure that 
regardless of the part of the country that you are in, that 
there is a level of sensitivity, a level of discretion that is 
provided given the region that you are in. And as of this point 
in time, I am not convinced that we are seeing that to the 
fullest extent.
    Madam Chairman, I know that we want to move to the second 
panel. If I may just ask one brief question, and this relates 
to cargo screening.
    You mentioned the passenger bag screening, but you are 
attempting to get to that point where 100 percent of the cargo 
coming through has been screened. But again, we are dealing 
with a situation in Alaska where much of our goods, the gallon 
of milk that you buy at the grocery store is coming in on the 
aircraft there that also provides for passengers as well. It is 
the number one complaint outside of the price of fuel that I am 
hearing in our smaller communities. I was in the community of 
Yakutat about 3-4 weeks ago and was told that the price of milk 
in the store--they said about one-half of the price that you 
are paying is an add-on because of TSA's security screening. I 
think that there was an exaggeration to that amount, but it is 
something that we are looking at very, very critically.
    So what I would ask is that we continue to have some 
conversation about the cargo screening in, again, parts of the 
country where the situation on the ground is just a little bit 
different because it takes a community and a region that is 
already facing exorbitant costs because of transportation costs 
and adding to the cost of living because of these TSA security 
fees that are imposed on a per-weight charge. So I would like 
to speak with whoever it is within your Departments here that 
can work with us a little bit more on this issue.
    Mr. Pistole. I will be glad to follow up with you on that, 
Senator. Obviously, we are trying to address--we have completed 
the 100-percent cargo requirement that Congress put on us for 
domestic, and we are working on the international aspect of 
that for later this year, hopefully. But it is something that 
we know terrorists have tried to exploit cargo, the Yuma cargo 
plot from October 2010. So we are mindful of that. But at the 
same time, we need to make sure that we are facilitating the 
free movement of people and goods with the best security. So 
that is that dynamic and that challenge. I would be glad to 
follow up with you.
    If I could make one other point, in terms of the staffing 
at some of these small airports and Anchorage, I would be glad 
to have an offline conversation with you about some 
opportunities that we are looking at at the smallest airports 
in terms of improving the efficiencies there.
    Senator Murkowski. Good. I noted that you said that you 
wanted to work with individual airports on initiatives that 
they may have. So we will be happy to talk with you about that.
    Madam Chairman, thank you.
    Senator Landrieu. Thank you. I appreciate that.
    Just like there are going to be special requirements for 
the major hubs where millions and millions of passengers land 
and take off every day, there is going to have to be some 
approach that is custom-designed for them. Then for the 
middling airports of middle size--New Orleans would be a good 
example. We are not a hub, but we see a lot of people coming 
and going every day. And then you have got your very rural 
airports--and Alaska, Montana, Idaho come to mind--that need a 
different approach. This is 10 years, almost 11 years. We want 
to see some of these custom approaches and we will be pushing.
    One final question to Mr. Donahue, and then we are going to 
get to the next panel. I would like you all to stay to listen 
to the next panel. And I appreciate the time you have given, 
but it is important.
    The President's January announcement on tourism said that 
his goal is to expedite the visa issuance for visitors. 
Particularly, he mentioned Brazil and China, very important 
countries for us in terms of trade, technology sharing, et 
cetera.
    How long does it currently take our Government, the State 
Department, to issue visas to travelers from these two 
countries on average? Brazil and China. Conversely, how long 
does it take Brazil and China to issue visas to us? If you have 
that information, I would like you to put it into the record 
this morning.
    Also, what steps has the State Department taken to reduce 
interview wait times, processing times, and travel distance to 
consulates in these countries?
    We go down to our local office to get a passport, and for 
us in New Orleans, it is just a little bit of time. Maybe for 
Alaska, it is a little bit different. But if you think about 
China and Brazil, how large those countries are, there could be 
lots of travel time to the consulates.
    So what is the answer to the first and second question, 
please?
    Mr. Donahue. Thank you, Senator.
    In China today to get an appointment, the longest you wait 
is 6 days.
    Senator Landrieu. Six days.
    Mr. Donahue. Or 8 days. I am sorry. In Guangzhou it is 8 
days.
    Senator Landrieu. To get an appointment.
    Mr. Donahue. To get an appointment.
    And the visas are usually issued in most cases in about 3 
days from then. You will receive the visa delivered to your 
home. There are cases that require additional security checks. 
Those can take 2-3 weeks, but that is a small number of the 
total.
    Senator Landrieu. And do people have to come there in 
person?
    Mr. Donahue. And that is what we have been working on with 
our colleagues at DHS. First-time applicants, according to the 
law, are required to come in and apply in person. On renewal 
applicants, we have extended the time from 1 year to 4 years in 
the Executive order that the President announced, so that if 
your visa--and this is particularly important in China where 
they only have 1-year visas. If your visa has expired within 
the last 4 years, we will review that case, see if there is any 
information that makes it possible that we have concerns, look 
at all the information we have from the person's prior travel 
from our partners at DHS, and if we see no indicators that 
there might be a reason of concern, the person can send that 
in, does not have to travel to one of the five consular offices 
in China.
    And we are doing the same in Brazil. And also in Brazil, we 
have a special program that we are trying as part of this pilot 
where children under age 16 years and adults age 66 and over 
can send in their applications, and then DHS is helping us with 
the biometric part of that. But it is very important the first 
time. That is when we set the identity of that person with 
their biometrics.
    As I mentioned, we sent teams out in the last couple months 
to both China and Brazil to look at new locations to get close 
to them. We have four visa-issuing posts in Brazil and five in 
China, and we are looking at other alternatives.
    Senator Landrieu. The Foreign Operations bill gave the 
State Department video conferencing capability or authorization 
to use video conferencing and doubled the Chinese tourism 
validity from 1-2 years. Why has the State Department not used 
these new authorizations?
    Mr. Donahue. On the video conferencing, we have done a 
pilot of video conferencing. We do not believe it meets the 
security standards. As I mentioned, we do need an interview, 
for instance, to set the identity of that person, so we collect 
the biometric and we have the interview, and we have an 
American that we trust say that that is the person that gave us 
those biometrics. That is the same biometric that is used by my 
colleagues as they arrive in the United States, and having that 
done in person is very important.
    In addition, if we do feel that we need an interview with a 
person, it is the three-dimensional interview. It is that 
person being there, watching how they come up to the window, 
how they react to other people in the room. We do not believe 
that we could do a good security review of that person by video 
conference.
    Senator Landrieu. What about the 2 year?
    Mr. Donahue. The 2 year. According to the Immigration and 
Nationality Act, visa reciprocity must be based, to the extent 
possible, on what the other country grants to Americans. Some 
Americans going to China are granted up to 1 year. Many are 
granted much less. Our Ambassador Locke in China has been 
talking to the Chinese Government about this issue. We would 
like to extend it to 2 years or more with agreement from our 
colleagues from DHS, but we need the reciprocal agreement from 
the Chinese.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Thank you. It has been a very excellent 
panel. Thank you so much, and if you all do not mind staying 
for the next 30 minutes to hear from the private sector, which 
is very important to hear from them about some of their 
successes as well as some of their challenges.
    [The following questions were not asked at the hearing, but 
were submitted to the Departments for response subsequent to 
the hearing:]

              Questions Submitted to Hon. John S. Pistole
            Questions Submitted by Senator Mary L. Landrieu

                         TSA'S PRECHECK PROGRAM

    Question. Are you planning to expand the program beyond elite 
fliers and Global Entry members? If so, what is the Transportation 
Security Administration's timeline and what risk-based criteria will be 
used for expanding PreCheck (Pre3<SUP>TM</SUP>) eligibility beyond the 
scope of the current pilot testing?
    Answer. By the end of calendar year 2012, the Transportation 
Security Administration (TSA) plans to bring TSA Pre3<SUP>TM</SUP> to a 
total of six airlines and over 30 of the Nation's busiest airports. In 
addition to certain eligible frequent flyers and U.S. Customs and 
Border Protection Trusted Travelers, TSA is conducting a proof of 
concept at Washington-Reagan National Airport (DCA) to incorporate 
members of the armed services into the expedited passenger screening 
model. This proof of concept aims to expand upon the existing expedited 
screening procedures for members of the military in uniform, which is 
required pursuant to ``Risk-Based Security Screening for Members of the 
Armed Forces Act'' (Public Law No. 112-086), and would allow members of 
the military who are not in uniform or traveling on official orders (as 
required under the recently enacted law) to take part in TSA 
Pre3<SUP>TM</SUP>. In addition, TSA is currently partnering with the 
Department of Defense (DOD) to examine how DOD may provide TSA a list 
of TSA Pre3<SUP>TM</SUP>-eligible Active Duty personnel. This approach 
would allow TSA's Secure Flight program to automate identification of 
these travelers as TSA Pre3<SUP>TM</SUP>-eligible. Accordingly, this 
will enhance our ability to offer DOD members TSA Pre3<SUP>TM</SUP> at 
all of our TSA Pre3<SUP>TM</SUP> sites.
    Additionally, TSA has met the requirements of the recently enacted 
``Risk-Based Security Screening for Members of the Armed Forces Act,'' 
Public Law No. 112-86. TSA's long-standing policies for troops include 
the following expedited procedures in airport checkpoints nationwide:
  --United States service personnel in uniform with proper ID, whether 
        or not traveling on official orders, are not required to remove 
        their shoes or boots unless they alarm our technology.
  --Family members can obtain gate passes to accompany departing troops 
        or meet their loved ones when they come home.
  --TSA also expedites screening for Honor Flight veterans, and 
        partners with the Department of Defense (DOD) to expedite 
        screening for wounded warriors.
    Question. How many participants are necessary for the program to be 
a success?
    Answer. TSA has established a goal for fiscal year 2013 to double 
the number of passengers who are eligible to participate in TSA 
Pre3<SUP>TM</SUP> and other risk-based security initiatives. Based on 
our aggressive plan to continue to add additional large airports with 
heavy passenger volumes, as well as additional air carriers, we are 
extremely confident in our ability to successfully meet that goal. This 
will allow us to assess further expansion of TSA Pre3<SUP>TM</SUP> to 
airports, air carriers, and low-risk populations. TSA will not measure 
success only by the number of participants but also based on factors 
such as passenger satisfaction.
    Currently, more than 90 percent of TSA Pre3<SUP>TM</SUP> passengers 
surveyed are highly satisfied with the expedited screening experience.
    Question. Are you simply trusting that frequent fliers are not 
terrorists? What are you doing to prevent terrorists from ``learning 
their way around'' these new security measures?
    Answer. The Transportation Security Administration employs random, 
unpredictable security measures at any time. Therefore, no traveler is 
guaranteed to receive expedited screening every time they travel. 
Additional information on countermeasures is Sensitive Security 
Information and may be provided upon request.
    Question. Pre3<SUP>TM</SUP> is available to any U.S. citizen who is 
a member of one of Customs and Border Protection's trusted traveler 
programs, such as Global Entry. Charles Barclay from the American 
Association of Airport Executives points out in his written testimony 
that some two-thirds of the American public is currently ineligible for 
participation in Global Entry because they don't hold a valid passport. 
What is the agency doing to ensure that all interested Americans are 
able to apply for and--if eligible--participate in the program?
    Answer. In addition to the currently participating airlines, 
American Airlines and Delta Air Lines, the Transportation Security 
Administration (TSA) is expanding TSA Pre3<SUP>TM</SUP> to include 
frequent flyers from additional airlines by the end of calendar year 
2012. Interested individuals may apply to become a member of a U.S. 
Customs and Border Protection (CBP) Trusted Traveler program, and opt 
in to become eligible for TSA Pre3<SUP>TM</SUP>. For U.S. citizens who 
do not have a valid passport and who are not frequent flyers, the 
process to obtain a passport is available through the U.S. Department 
of State's Web site, http://travel.state.gov. As part of the ongoing 
partnership across the Department of Homeland Security, TSA is closely 
partnering with CBP to provide additional enrollment opportunities to 
apply for membership in a CBP Trusted Traveler program. Current members 
of CBP's Global Entry, SENTRI, and NEXUS Trusted Traveler programs are 
automatically eligible to participate in TSA Pre3<SUP>TM</SUP>.
    Question. Last year Congress appropriated $10 million for TSA to 
implement Pre3<SUP>TM</SUP>. Are you properly resourced to expand this 
program?
    Answer. Yes. The current TSA Pre3<SUP>TM</SUP> approach leverages 
existing U.S. Customs and Border Protection Trusted Traveler programs 
in conjunction with Secure Flight prescreening processes and 
infrastructure.
    Question. Will investments in risk-based related programs result in 
net savings to TSA programs in the future? When should we expect those 
savings to be realized?
    Answer. The overarching goal of risk-based security is to improve 
security by enabling the Transportation Security Administration to 
better focus resources on those passengers who could pose the greatest 
risk--including those on terrorist watch lists--while providing 
expedited screening, and perhaps a better travel experience, to those 
considered our low-risk, trusted travelers. Other factors, such as cost 
efficiency and passenger satisfaction, may increase as a result of 
these approaches, but those consequences are incidental outputs rather 
than intended outcomes.
    Question. Based on the ``proof of concept'' pilot testing, what has 
been the average time savings for screening Pre3<SUP>TM</SUP> 
passengers compared to other passengers?
    Answer. TSA Pre3<SUP>TM</SUP> expedited passenger screening has 
been operational in a proof of concept manner within a small number of 
airports for only a limited amount of time. Preliminary results related 
to higher throughput and average screening time appear promising, but 
it is too soon to draw system-wide conclusions. In the interim, 
customer satisfaction data from both TSA (captured via airport kiosks 
and customer contact center inquiries) and the airlines demonstrate 
high levels of satisfaction with the expedited screening experience.
    Question. Has TSA conducted surveys of Pre3<SUP>TM</SUP> 
participants? If so, what has the feedback been? Have any areas for 
improvement been identified? If so, what are they and what is TSA doing 
to evaluate and implement these suggestions?
    Answer. As of late March 2012, over 645,000 TSA Pre3<SUP>TM</SUP> 
boarding passes were scanned at selected TSA airport checkpoints, 
enabling expedited screening for known travelers who opted in to 
participate. Customer satisfaction data from both TSA (captured via 
airport kiosks and customer contact center inquiries) and the airlines 
demonstrate high levels of satisfaction with the expedited screening 
experience. As a result of the feedback, TSA updated the public Web 
site with checkpoint specifics for each airport offering TSA 
Pre3<SUP>TM</SUP> and worked with airlines and U.S. Customs and Border 
Protection to make enrollment/opt in instructions and other 
communication messages even more clear. The feedback also revealed the 
need for intensive marketing and other materials during the first few 
days of a new launch to inform individuals how to become eligible for 
TSA Pre3<SUP>TM</SUP>.
    Question. What metrics are you putting into place to judge the 
success of the Pre3<SUP>TM</SUP> program?
    Answer. The overarching goal of risk-based security is to improve 
security by enabling the Transportation Security Administration to 
better focus resources on passengers who are either unknown risk or 
high risk. Key indicators of success include security effectiveness; 
growth in passenger participation (new opt-ins/enrollments); checkpoint 
throughput capacity growth; completion rates for workforce training; 
passenger satisfaction rates as measured by kiosks and call center 
data; and the ongoing capability to bring additional airlines and 
populations into the process in a seamless manner as measured by 
successful execution of the expansion plan. Specific information on 
security effectiveness metrics is sensitive security information and 
may be provided upon request.

                EXPEDITED SCREENING FOR MILITARY MEMBERS

    Question. What is your timeline for expanding this program 
nationwide? Will this expansion occur within the timeframe required by 
Public Law 112-86, the Risk-Based Security Screening for Members of the 
Armed Forces Act?
    Answer. TSA has met the requirements of the recently enacted 
``Risk-Based Security Screening for Members of the Armed Forces Act,'' 
Public Law No. 112-86. TSA's long-standing policies for troops include 
the following expedited procedures in airport checkpoints nationwide:
  --United States service personnel in uniform with proper ID, whether 
        traveling on official orders or not, are not required to remove 
        their shoes or boots unless they alarm our technology;
  --Family members can obtain gate passes to accompany departing troops 
        or meet their loved ones when they come home; and
  --TSA also expedites screening for Honor Flight veterans, and 
        partners with the Department of Defense (DOD) to expedite 
        screening for wounded warriors.
    In late March 2012, TSA initiated a proof of concept at Ronald 
Reagan Washington National Airport to screen Active Duty members of the 
U.S. military through the TSA Pre3<SUP>TM</SUP> expedited passenger 
screening lanes. Active Duty servicemembers, including National Guard 
and Reserves on Active Duty, are eligible through presentation of a 
valid DOD-issued Common Access Card (CAC) at checkpoints enabled with 
DOD CAC readers.
    Based on the outcome from the proof of concept, and the intention 
of moving away from a military ID card-based model and toward a list-
based boarding pass issuance model, eligible servicemembers will be 
issued known traveler numbers by DOD for use when traveling, consistent 
with other Pre3<SUP>TM</SUP> populations. TSA and DOD believe this 
approach will best enable eligible servicemembers to receive expedited 
screening at all Pre3<SUP>TM</SUP> airports without the installation of 
additional hardware and software required for the CAC based pilot. TSA 
and DOD will collaboratively determine next steps and associated 
timelines for screening Active Duty members of the military through TSA 
Pre3<SUP>TM</SUP> lanes.
    Question. How does TSA guard against someone like Major Hassan, the 
Fort Hood shooter, from having expedited screening?
    Answer. Information on countermeasures is sensitive security 
information and may be provided upon request. As we have always stated, 
the Transportation Security Administration may employ random, 
unpredictable security measures at any time. Therefore, no traveler is 
always guaranteed to receive expedited screening every time they 
travel.

          EXPEDITED SCREENING FOR PILOTS AND FLIGHT ATTENDANTS

    Question. Airline pilots and flight crews are subject to extensive 
background checks, so it makes sense to allow these employees expedited 
access through airport screening checkpoints. In fact, the 9/11 Act 
required TSA to begin implementing such a system. In response to that 
requirement, you have been testing a program at seven airports where 
airline pilots can forgo physical screening if they show proper ID that 
is verified by a central database.
    What is your plan to expand this program to additional locations 
and what are the resource impacts of doing so?
    Answer. The Known Crewmember (KCM) pilot is a result of Government 
and industry partnership. As a condition of the program, the 
Transportation Security Administration (TSA) is provided, at no cost to 
the Government, the necessary hardware and software to operate the 
system. All equipment, software, and other costs were paid by industry, 
and no additional staffing was required for KCM at the seven pilot 
airports. TSA and industry are discussing expanding the program.
    Question. The 9/11 Act requires an expedited screening process for 
pilots and cabin crew members. Are you planning to adjust the system so 
that flight attendants can participate in this program and what is your 
timeline for doing so?
    Answer. The Transportation Security Administration (TSA) is 
currently in discussions with industry to expand Known Crewmember (KCM) 
to additional airports for uniformed pilot crew members. TSA has been 
studying all aspects of adding flight attendants to KCM for several 
months. Airlines have been notified that they must be prepared to make 
the necessary system updates to include flight attendant crew members 
if TSA decides to include them in KCM. TSA expects to make a final 
determination on adding flight attendants by late summer of 2012.
    Question. Please provide a comparison of the background checks 
pilots go through compared to flight attendants. Are the checks for all 
crew members the same? If not, please explain the differences. Please 
include the additional checks pilots in the Federal Flight Deck Officer 
(FFDO) program go through.
    Answer. The types and degree of background checks are identical for 
all crew members. Checks include identity validation, fingerprint based 
criminal history records checks, continuous TSA vetting, and name 
checks against TSA watch lists by airlines.
    FFDO background checks include results from criminal history 
records check; employment history check; credit history check; and, 
personal interviews, fromreferences provided by the candidate.

                          CHECKED BAGGAGE FEES

    Question. Administrator Pistole, last year Secretary Napolitano 
testified that TSA incurs an annual cost of $259 million to screen 
increased volumes of carry-on baggage caused by the airlines charging 
for the first checked bag. Your agency has confirmed that those costs 
remain the same today. The baggage fees are generating billions of 
dollars in annual revenues for the airlines, and yet they are not 
required to compensate TSA for these increased costs. To address this, 
last year I introduced legislation called the Fair Airline Industry 
Revenue (FAIR) Act to increase security fees on airlines that charge 
passengers for their first checked bag.
    What are the impacts of the airline checked baggage fees on 
passenger volume in general, on security, and the travel and tourism 
industry overall?
    Answer. In general, the imposition of checked baggage fees by air 
carriers on the traveling public does not appear to have negatively 
impacted air travel volume. From 2009 through 2011, Department of 
Transportation statistics show that air carriers have collected over $8 
billion in baggage fees from passengers, while passenger volume has 
increased by 3.7 percent.
    TSA security operations have been impacted by the imposition of air 
carrier checked baggage fees as we are experiencing an increase of 
volume in carry-on items at our checkpoints. TSA is seeing a notable 
change in checkpoint requirements and processing times since 
introduction of the checked baggage fees. To sustain checkpoint 
passenger throughput, TSA has adjusted operations to better manage an 
increased volume of carry-on effects. TSA estimates it costs 
approximately $260 million in annual additional resources to sustain 
current throughput rates given the increased volume of checkpoint 
processing.

                TSA BEHAVIOR DETECTION--ASSESSOR PROGRAM

    Question. In fiscal year 2012, Congress included funding for 145 
additional behavior detection officers, bringing the total to over 
3,100 TSA-wide. You are currently running pilots at airports in Boston 
and Detroit where TSA behavior detection officers have increased 
interaction with passengers at the checkpoint. Some have termed this as 
a ``chat-down.''
    Has this effort been an effective security layer?
    Answer. The purpose of the Assessor enhanced behavior detection 
pilot program is to evaluate the impact of enhanced behavior detection 
training and assessment on security effectiveness. The goal is to 
develop an enhanced program that utilizes a wide range of behavior 
analysis tools to identify potential threats while improving screening 
efficiencies and the passenger experience. This new capability builds 
upon the strengths of the Screening of Passengers by Observation 
Techniques (SPOT) program, wherein an April 2011 study conducted by the 
American Institutes for Research (AIR), under the sponsorship of the 
Department of Homeland Security (DHS) Science and Technology 
Directorate (S&T) indicated that the SPOT program was significantly 
more effective than random screening: travelers carrying dangerous/
prohibited items or resulting in a law enforcement arrest were nine 
times more likely to be identified using SPOT as compared to random 
referral screening. The Assessor also fits within the Transportation 
Security Administration's (TSA) risk-based security model. Like SPOT, 
the Assessor enhanced behavior detection program focuses on applying 
behavior detection resources on individuals displaying suspicious 
indicators.
    TSA is currently collecting data at these pilot sites to evaluate 
the effect of enhanced behavior detection on security effectiveness, 
efficiency, passenger satisfaction, cost, and industry vitality. 
Preliminary data reveals support for the pilot; however, additional 
data is required (and being collected) to provide a complete analysis 
of the value of this new layer.
    Question. Will it be expanded to Pre3<SUP>TM</SUP> lanes?
    Answer. The Transportation Security Administration (TSA) is 
currently collecting data at these pilot sites to evaluate the effect 
of Assessor on security effectiveness, efficiency, passenger 
satisfaction, cost, and industry vitality. Should the results be 
favorable, TSA will begin expansion of this skill to its behavior 
detection officer workforce beginning in 2012. TSA is currently 
exploring implementing a new enhanced behavior detection proof of 
concept (PoC) for Boston Logan International Airport and Detroit 
Metropolitan Wayne County International Airport. This PoC combines 
Assessor skills with Screening of Passengers by Observation Techniques 
(SPOT) program operations. By melding the best practices of both the 
SPOT program and the Assessor proof of concept together, this new 
option represents the next step toward defining the optimal behavior 
analysis capability for TSA's risk-based security objectives.
    Question. Please describe the steps TSA has taken to address the 
concerns raised by the Government Accountability Office.
    Answer. The Government Accountability Office (GAO) completed an 
audit of the Screening of Passengers by Observation Techniques (SPOT) 
program in May 2011. Eleven recommendations resulted from this audit 
and are outlined below with the status of each:
  --GAO recommended that an independent panel of experts review the 
        methodology of the Department of Homeland Security Science and 
        Technology Directorate (DHS S&T) validation study to determine 
        whether the methodology is comprehensive enough to validate the 
        program. DHS S&T completed an independent peer review of the 
        study's methodology in June 2011. This panel review resulted in 
        support of the methodology as a whole. This recommendation was 
        closed in December 2011.
  --GAO recommended that a comprehensive risk assessment and cost-
        benefit analysis be conducted to determine the effective 
        deployment of SPOT with a comparison to other security 
        screening programs. TSA has developed a risk and cost analysis 
        framework, which has been applied to several different physical 
        countermeasures such as advanced imaging technology and x-ray. 
        Based on its internal validation processes, TSA is refining the 
        framework and data in order to complete the risk and cost 
        analysis work for behavior detection officers (BDOs). The 
        behavior detection capability serves as a routing function to 
        channel higher risk passengers toward additional screening. TSA 
        is conducting ongoing analysis to understand the cost-
        effectiveness thresholds for alternative concepts of operation. 
        TSA is working with DHS S&T to develop more definitive data on 
        the probability of detection (P(d)) and probability of 
        encounter (P(e)) of BDOs. In 2011, DHS S&T issued a report 
        validating that BDOs provide effectiveness significantly better 
        than random, but that study was not designed to elicit a 
        precise probability of detection. TSA continues to gather 
        operational data pointing to P(d) and P(e) and works with DHS 
        S&T to further meaningfully quantify P(d) in non-operational 
        evaluations. These recommendations remain open.
  --GAO recommended that the SPOT program revise its strategic plan by 
        incorporating risk assessment, identifying cost and resources, 
        linking it to other related TSA strategic documents, describing 
        how SPOT is integrated and implemented with TSA's other layers 
        of aviation security, and providing guidance on how to 
        effectively link the roles, responsibilities and capabilities 
        of Federal, State, and local officials providing program 
        support. TSA is finalizing a SPOT strategic plan, which 
        includes strategic goals for fiscal years 2012 and 2013, 
        detailed action plans, and resource requirements to achieve 
        each strategic goal. Recently, the SPOT Program Management 
        Office was moved from the Office of Security Operations to the 
        Office of Security Capabilities (OSC). The SPOT strategic plan 
        is being revised to align with OSC goals and objectives. TSA 
        expects to complete the SPOT strategic plan by the end of the 
        second quarter of fiscal year 2012. This recommendation remains 
        open.
  --GAO recommended studying the feasibility of using airport 
        checkpoint-surveillance video recordings of individuals 
        transiting checkpoints, and who were later charged with or 
        pleaded guilty to terrorism-related offenses, to enhance its 
        understanding of terrorist behaviors in the airport checkpoint 
        environment. On June 10, 2011, TSA completed a field survey to 
        determine closed-circuit television (CCTV) capability at 
        individual airports, including the presence of CCTV systems, 
        the retention time of checkpoint surveillance footage, and the 
        quality of video recordings. The feasibility study will be 
        completed by the end of the third quarter of fiscal year 2012 
        at which time TSA will request that GAO close the 
        recommendation. This recommendation remains open.
  --GAO recommended that guidance be provided in the SPOT standard 
        operating procedure (SOP) or other TSA directive to BDOs, or 
        other TSA personnel, on inputting data into the Transportation 
        Information Sharing System (TISS) and set milestones and a 
        timeframe for deploying TISS access to SPOT airports so that 
        TSA and intelligence community entities have information from 
        all SPOT law enforcement officer (LEO) referrals readily 
        available to assist in ``connecting the dots'' and identifying 
        potential terror plots. All airport operations with SPOT have 
        appropriate training and access to report into TISS. This was 
        included in the most recent SPOT SOP. This recommendation has 
        been closed.
  --GAO recommended to implement the steps called for in the TSA Office 
        of Security Operations business plan to develop a standardized 
        process for allowing BDOs or other designated airport officials 
        to send information to TSA's Transportation Security Operations 
        Center (TSOC) about passengers whose behavior indicates that 
        they may pose a threat to security, and provide guidance on how 
        designated TSA officials are to receive information back from 
        the TSOC, and GAO also recommended that all of the databases 
        available to the TSOC be utilized when running passengers who 
        rise to the level of a LEO referral against intelligence and 
        criminal databases. On March 5, 2012, an update was provided to 
        GAO. TSA believes that efforts it has made in the last 2 years 
        address the issue identified by GAO; specifically, the advent 
        of Secure Flight and the increased LEO response rate to 
        referrals. A letter to GAO emphasizing these points is being 
        drafted. It will also include a discussion concerning why it is 
        not possible to access certain law enforcement databases for 
        this purpose. These recommendations remain open.
  --GAO recommended establishing a plan that includes objectives, 
        milestones, and timeframes to develop outcome-oriented 
        performance measures to help refine the current methods used by 
        BDOs for identifying individuals who may pose a risk to the 
        aviation system. TSA is establishing a panel of experts in 
        behavior analysis, performance measures, and predictive 
        analysis to review current metrics and identify additional 
        outcome based performance metrics. The panel is expected to 
        stand up in the third quarter of fiscal year, but this date may 
        be influenced by budget restrictions. To mitigate this issue, 
        the program office created its own internal working group that 
        met for the first time during the week of February 6, 2012. 
        This internal working group included experts from the field, 
        and other internal supporting program offices to discuss 
        current metrics, establish new metrics, and identify gaps and 
        future needs. The internal working group will be working to 
        align TSA's performance outcome-oriented goals with TSA's 
        Behavior Detection Analysis Division Strategic Plan. In 
        addition to the internal working group, TSA will also be 
        aligning research and development to these outcome-based 
        performance metrics. The plan as described will be completed by 
        the end of the third quarter of fiscal year 2012 at which time 
        TSA will request that GAO close the recommendation. This 
        recommendation remains open.
  --GAO recommended establishing controls to help ensure completeness, 
        accuracy, authorization, and validity of data collected during 
        SPOT screening. The SPOT Performance Management Information 
        System (PMIS) was demonstrated to GAO at which time they agreed 
        to close this recommendation. This recommendation has been 
        closed.
  --GAO recommended establishing timeframes and milestones for its plan 
        to systematically conduct evaluations of the SPOT training 
        program on a periodic basis. The DHS S&T sponsored a 
        comprehensive job analysis for the BDO position that was 
        completed in 2010. Based on these findings, the Office of 
        Training Workforce and Engagement (OTWE) completed a training 
        task analysis (TTA) that will be periodically evaluated and 
        updated. This document provides analysis on the training gaps 
        that exist based on the current training curricula and what is 
        required of the BDO position. This recommendation is open and 
        has been requested closed.

                      ADVANCED IMAGING TECHNOLOGY

    Question. Following the failed attempt to blow up Northwest flight 
253 on Christmas Day in 2009, the Department accelerated its request to 
field advanced imaging technology machines to detect both metallic and 
non-metallic threats. Congress has supported your requests and has 
funded 1,250 of these units through fiscal year 2012. Funding for the 
first 500 machines was included in the Recovery Act followed by 500 
additional machines in fiscal year 2011. The last 250 were funded in 
the fiscal year 2012 DHS Appropriations Act. Approximately 640 of the 
1,250 have been fielded, just over half.
    Your budget indicates that a total of 1,800 AIT machines are 
needed. There is no money in your request to go beyond the current 
level of 1,250.
    Are you planning to meet the 1,800 requirement in future years?
    Answer. The Transportation Security Administration (TSA) is 
reviewing the current full operational capability for advanced imaging 
technology (AIT) units. The initial estimate of 1,800 may change based 
on TSA's risk-based security initiatives, potential reductions in 
processing times, and qualification of new and innovative AIT 
solutions.
    TSA has acquired two different types of AIT machines. Both serve 
the same purpose, but one is made with a technology called millimeter 
wave and the other is made with a technology called backscatter. There 
are approximately 250 backscatter machines fielded at airports today 
and 390 millimeter wave machines. The millimeter wave machines have 
been upgraded with software called automated target recognition which 
automatically displays a cartoon outline of the passenger instead of a 
real image. This was a major advancement in terms of passenger privacy. 
The backscatter machines still require a human operator to view the 
passenger's real image.
    TSA has acquired two different types of AIT machines. Both serve 
the same purpose, but one is made with a technology called millimeter 
wave and the other is made with a technology called backscatter. There 
are approximately 250 backscatter machines fielded at airports today 
and 390 millimeter wave machines. The millimeter wave machines have 
been upgraded with software called automated target recognition which 
automatically displays a cartoon outline of the passenger instead of a 
real image.
    This was a major advancement in terms of passenger privacy. The 
backscatter machines still require a human operator to view the 
passenger's real image.
    Question. Can you tell the subcommittee when the backscatter 
machines will be upgraded with the automated target recognition 
software?
    Answer. The Transportation Security Administration (TSA) is working 
with all advanced imaging technology (AIT) system vendors to ensure the 
implementation of automated target recognition (ATR) software. TSA has 
successfully tested, upgraded, and implemented ATR on all deployed 
millimeter wave AIT systems. TSA's backscatter AIT vendor has had 
difficulty in meeting the ATR requirements; because of that delay, 
airport testing will not commence until spring 2012. Airport testing 
and system evaluations, along with other assessments and system 
upgrades, will take approximately 240 days to complete; therefore, TSA 
expects to have ATR on 100 percent of AIT units by spring 2013.

                     AVIATION SECURITY CAPITAL FUND

    Question. Of the $250 million available from the Aviation Security 
Capital Fund (ASCF) for fiscal year 2012, how much does the agency 
intend to use for EDS equipment procurement?
    Answer. The Transportation Security Administration plans to utilize 
approximately $146.3 million of the fiscal year 2012 ASCF for 
explosives detection systems equipment procurement. Related equipment 
installation costs of approximately $50.2 million will also be funded 
from the ASCF. These estimates may change based on requirements 
determined as a result of ongoing field evaluations and airport 
readiness.
    Question. How much will be dedicated for airport terminal upgrades?
    Answer. In fiscal year 2012, the Transportation Security 
Administration (TSA) plans to utilize approximately $53.5 million for 
facility modifications at airports. As part of TSA's recapitalization 
efforts, $40.2 million will be awarded for facility modifications and 
$12.3 million will be dedicated to facility modifications associated 
with new in-line checked baggage inspection systems. Additionally, $1.0 
million will be used to upgrade existing checked baggage inspection 
systems to comply with current TSA standards. These estimates may 
change based on requirements determined as a result of ongoing field 
evaluations and airport readiness.
    Question. How much in Aviation Security Capital Fund (ASCF) 
resources do you propose to use for explosives detection systems 
equipment purchases in fiscal year 2013?
    Answer. In fiscal year 2013, the Transportation Security 
Administration plans to utilize approximately $183.9 million of the 
ASCF to purchase explosives detection systems equipment. Installation 
costs of about $37.8 million and facility modifications totaling about 
$28.3 million will also be funded from the ASCF. These estimates may 
change based on the requirements confirmed as a result of on-going 
field evaluations and airport readiness.
    Question. What impact will the use of ASCF resources for equipment 
rather than airport modifications have on efforts to upgrade baggage 
screening systems at airports in fiscal year 2012 and fiscal year 2013?
    Answer. The large increases in funding for explosives detection 
systems in the American Recovery and Reinvestment Act and other recent 
appropriations helped the Transportation Security Administration (TSA) 
complete nearly all airport facility modification projects for category 
X and I airports. TSA continues to encourage airports to submit 
applications for in-line baggage screening systems; however, an in-line 
system or facility modification is not always an optimal solution for 
an airport. Optimal solutions for airports include both stand-alone 
systems and in-line systems which vary on an airport-by-airport basis; 
therefore, not all airports require an in-line system. Additionally, 
TSA has found that many smaller airports either do not have their share 
of funding to support a facility modification or have not expressed 
interest. As a result, there are few applications to fund facility 
modifications and the overall requirement is small.
    TSA plans to fund two facility modifications for which it received 
applications using the fiscal year 2012 Aviation Security Capital Fund: 
Bellingham International Airport and Greenville-Spartanburg 
International Airport. TSA also plans to use a combination of mandatory 
and discretionary funds to award five other transactional agreements 
for facility modifications associated with in-line Checked Baggage 
Inspection Systems (CBIS) during fiscal year 2012. All requested 
facility modification projects that satisfied the criteria outlined in 
TSA's Program Guidelines and Design Standards for CBIS were funded in 
fiscal year 2012.
    At this time, TSA has received a small number of airport 
applications for consideration for funding the construction of an in-
line CBIS in fiscal year 2013. TSA will review applications received 
and prioritize the requirements within the framework of its risk-based 
prioritization process which considers requirement factors such as 
equipment for growth and critical operational projects needed to remain 
compliant with screening mandates.
    Additionally, as part of TSA's efforts to recapitalize the aging 
equipment in its fleet, some airports may be identified where the 
replacement of existing baggage screening equipment with an in-line 
system can be justified by project costs and operational efficiencies.
    Question. What are you doing to ensure that adequate funding is 
available for airport facility modifications necessary to accommodate 
new explosives detection systems (EDS) equipment?
    Answer. The large increases in funding for explosives detection 
systems in the American Recovery and Reinvestment Act and other recent 
appropriations helped the Transportation Security Administration (TSA) 
complete nearly all airport facility modification projects and shift 
its focus to the recapitalization of its aging fleet. TSA's plans 
include funding for facility modifications required to replace existing 
equipment with new explosives detection systems and explosives trace 
detection units on a one-for-one basis. Additionally, as airport 
screening areas are identified where the replacement of existing 
equipment with optimal systems can be justified by project costs and 
operational efficiencies, funds will be budgeted to support those 
projects. TSA continues to encourage airports to apply for funds to 
assist in the construction of in-line checked baggage inspection 
systems. TSA will review applications and prioritize the requirements 
within the program framework of its risk-based prioritization process, 
which considers requirement factors such as equipment for growth and 
critical operational projects needed to remain compliant with screening 
mandates.

               SECURITY PROCEDURES FOR AIRPORT EMPLOYEES

    Question. Please describe screening and access control procedures 
that are in place to prevent airport employees from bringing dangerous 
items into sensitive areas like tarmacs or aircraft cargo holds.
    What are the current screening protocols for airport employees?
    Answer. Airport employees are subjected to multiple levels of 
security screening measures, as follows:
  --Background checks are completed on all airport employees, and the 
        same employees are continually vetted against various 
        databases. Also, many airports have installed biometric 
        scanning devices, which are used to screen airport employees 
        before they are allowed to enter the secured or sterile areas.
  --In addition, multiple physical security layers are in place to 
        prevent airport employees from bringing dangerous items into 
        sensitive areas. Many of the layers are implemented in a random 
        and unpredictable manner. These include:
    --TSA screens airport employees holding sterile area or secure 
            identification display area badges who access the sterile 
            area via the security screening checkpoint in the same 
            manner as enplaning passengers.
    --Transportation security officers (TSOs) periodically conduct 
            Playbook activities, which consist of airport employee 
            screening at access points leading directly into the 
            secured (tarmac) or sterile (terminal) areas. This 
            screening may take place in or around the airport terminal 
            or at access points on the airport perimeter and may 
            include a physical search of an airport employee's bags.
    --Transportation security inspectors (TSIs) conduct various 
            inspections and tests in and around tarmacs, baggage areas, 
            and aircraft. These tests include verifying that employees 
            have visible and accurate ID media. TSIs routinely conduct 
            inspections of aircraft operators, such as verifying that 
            aircraft cargo holds have been swept for prohibited items 
            before loading new baggage or freight. TSIs' presence acts 
            as a deterrent and represents an additional layer of 
            security.
    Question. What are the respective roles of airport security 
officials and the TSA?
    Answer. Airport operators are required per 49 C.F.R. 1542.3(a) to 
designate one or more airport security coordinators (ASC). ASCs 
generally serve as the airport operator's primary point of contact for 
security-related activity and communications with the Transportation 
Security Administration (TSA).
    Airport operators are responsible for submitting an Airport 
Security Program (ASP) to the responsible TSA Federal Security Director 
(FSD) for approval. The ASP's approval is contingent on the FSD or 
designated TSA official determining the document complies with all 
content requirements as specified in 49 C.F.R. part 1542. Procedures 
for access and movement control within the secured areas and air 
operations area (AOAs) are required elements of an ASP. At the 
discretion of the airport operator, the ASP may also contain more 
restrictive requirements for entry to the sterile, secured, or air 
operations areas than those baseline requirements identified in 49 
C.F.R. 1542. TSA officials regularly meet with airport officials and 
aircraft operators to discuss and fine tune security procedures.
    Airport operators with a complete ASP are responsible for providing 
secure identification display area (SIDA) training classes, which are a 
prerequisite to an employee's receipt of SIDA access media. The 
training classes must include proper access procedures for entry to the 
airport access-controlled areas to include the sterile area, SIDA, and 
AOA, per 49 C.F.R. 1542.213. TSA screens airport employees holding 
sterile area or SIDA who access the sterile area via the security 
screening checkpoint in the same manner as enplaning passengers. TSA 
also conducts Playbook security screening of individuals accessing 
sensitive areas of the airport via doors and airport perimeter vehicle 
gates located away from passenger security screening checkpoints.
    Finally, airport law enforcement officers (LEOs) at several 
airports have deployed sophisticated surveillance systems that alert 
LEO dispatchers when a sensitive area's access door is opened. In those 
cases where an access door is opened and a determination is made that 
the individual was improperly bypassing security checkpoint screening 
while carrying a bag or similar item, the airport police frequently 
issues the individual a citation and suspends the individual's sterile 
area/SIDA access media. The incident is also reported to the TSA for 
further investigation.
    Question. What resources do you dedicate to this effort?
    Answer. The Transportation Security Administration (TSA) has 
allocated 1,654 full time equivalent (FTE) transportation security 
officers (TSO) in fiscal year 2012 to the Playbook program.
    From April 1, 2011-March 31, 2012, Playbook has screened 3,325,472 
employees at 162 airports that conduct Playbook. The total number of 
hours spent screening employees was 826,015 hours for the past 12 
months.
    A national cadre of 710 transportation security inspectors-aviation 
(TSIs-aviation) monitors, tests, and inspects airport compliance of 
established regulations, such as access control issues, Airport 
Security Program implementation, and other security regulations.
    Question. In 2008, an independent study on airport employee 
screening concluded that random screening was just as effective as 100-
percent screening. 100 percent screening of airport employees was 
deemed cost-prohibitive. Do you conduct random screening today at the 
levels evaluated in the independent study?
    Answer. The Transportation Security Administration (TSA) does 
conduct screening of airport employees on a random and unpredictable 
basis. Such screening activities are conducted in accordance with the 
Playbook standard operating procedures (formerly Aviation Direct Access 
Screening Program) and include screening of employees and/or their 
property and vehicles at locations such as direct access points, 
screening checkpoints, and vehicle SIDA gates. The number of plays 
scheduled that include airport employee screening is left to local 
Federal Security Director (FSD) discretion based on the individual 
layout and operating conditions of the airport. Airports with more 
direct access points and vehicle gates will require a greater number of 
plays targeted at employee screening. While the 2008 Office of 
Inspector General study did not include a benchmark percentage for 
screening employees, FSDs are expected to make risk-based and 
intelligence-driven decisions on the proper amount of plays scheduled 
to ensure that employee screening is an effective deterrent.

                     SCREENING PARTNERSHIP PROGRAM

    Question. Based on the new requirements in the FAA re-authorization 
bill, how will TSA compare costs of Federal screening versus private 
contractor screening? Will imputed costs not accounted for in TSA's 
budget be used as part of the comparison? If imputed costs are 
included, is there a possibility that TSA could end up spending more 
for airport security through an SPP contract than the amount it 
estimated as necessary for Federal screening?
    Answer. Currently, the Transportation Security Administration (TSA) 
develops a range of cost estimates for Federal screening, which shows 
multiple assumptions. TSA examines the impact to its budget and the 
long-term imputed retirement costs using Office of Personnel Management 
(OPM) guidance. It is possible that TSA could be compelled to request 
additional funds from Congress or reduce Federal resources if a 
Screening Partnership Program (SPP) contract were more expensive than 
Federal screening.
    Question. How many applications or notices of application has TSA 
received since the FAA authorization bill was signed into law? How many 
SPP applications has TSA received in the past 2 years?
    Answer. Since the Federal Aviation Administration (FAA) 
Modernization and Reform Act of 2012 (Public Law No. 112-95) was signed 
into law on February 14, 2012, TSA has received two new Screening 
Partnership Program (SPP) applications from the Sacramento 
International Airport and the Orlando-Sanford International Airport. 
These applications follow the format prescribed by the recently enacted 
FAA law.
    TSA also received two requests for reconsideration, which were 
submitted under section 830(d) Reconsideration of Applications Pending 
as of January 1, 2011, from Orlando-Sanford and Glacier Park 
International Airports.
    In the last 2 years, TSA received applications from Missoula 
International Airport and Springfield-Branson Regional Airport during 
2010; the Orlando-Sanford International Airport (two applications), 
Bert Mooney Airport, and West Yellowstone Airport during 2011; and the 
Sacramento International Airport (old and new applications), the 
Glacier Park Airport (request for reconsideration), and the Orlando-
Sanford Airport (request for reconsideration and new application) 
during 2012.
    Question. What areas does the Transportation Security 
Administration investigate when an application is filed under the SPP?
    Answer. The Transportation Security Administration (TSA) considers 
many areas when determining whether to accept an application. The 
primary areas evaluated are cost and security effectiveness, including 
the impact to the overall TSA security network. Specifically and at a 
minimum, TSA will look at indicators and measures that relate to an 
airport's security performance, workforce structure/dynamic, 
organizational interrelation, cost, and other location specific 
factors.
    Question. What is the size of TSA procurement staff processing 
Screening Partnership Program (SPP) applications? Will the expected 
increase in SPP applications and statutorily mandated deadline require 
additions to TSA's procurement staff processing those applications?
    Answer. Currently, there are six full-time SPP Office personnel and 
four full-time Office of Acquisition personnel who process SPP 
applications, with legal review provided by the Office of Chief 
Counsel. The Transportation Security Administration (TSA) is evaluating 
the TSA procurement staffing needs following the enactment of the 
Federal Aviation Administration Modernization and Reform Act of 2012 
(Public Law No. 112-95).
    Question. TSA is now required by law to inform a contractor 
precisely what was deficient in their application. Does this 
requirement pose a security risk in that TSA will have to divulge SSI 
or information vital to TSA's mission of aviation security?
    Answer. Since the Federal Aviation Administration Modernization and 
Reform Act of 2012 (Public Law No. 112-95) was signed into law on 
February 14, 2012, the Transportation Security Administration (TSA) is 
required to provide the airport operator, not a contractor, the 
findings that served as the basis for the denial and the results of any 
cost or security analysis conducted in considering the application. TSA 
is evaluating the requirement to provide reports on denied 
applications. Should TSA deny any application for security-related 
reasons, it will provide the airport operator with appropriate 
information in accordance with the FAA law, while ensuring the 
protection of such information.

                        KNOWN CREWMEMBER PROGRAM

    Question. TSA's Known Crewmember initiative allows pilots to forego 
regular screening procedures if they show two forms of verifiable ID, 
but flight attendants are not eligible to participate in the program.
    Would you respond to the proposal to expand enrollment in the Known 
Crewmember Program to members of the cabin crew?
    Answer. The Transportation Security Administration (TSA) is 
currently in discussions with industry to expand Known Crewmember (KCM) 
to additional airports for uniformed pilot crew members. TSA has been 
studying all aspects of adding flight attendants to KCM for several 
months. Airlines have been notified that they must be prepared to make 
the necessary system updates to include flight attendant crew members 
if TSA decides to include them in KCM. TSA expects to make a final 
determination on adding flight attendants by late summer of 2012.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

         RISK-BASED PASSENGER SCREENING (TSA PRECHECK PROGRAM)

    Question. All aviation passengers are pre-screened through TSA's 
Secure Flight database. CBP's ``trusted traveler'' programs--Global 
Entry, SENTRI, and NEXUS--which provide eligibility for TSA PreCheck 
(Pre3<SUP>TM</SUP>) not only require a criminal and law enforcement 
background check but charge a fee for enrollment. What, if any, 
additional background checks/fees are paid by ``frequent flyers'' 
qualifying for the TSA Pre3<SUP>TM</SUP> program which allow them to be 
determined ``less risky'' travelers?
    Answer. First and foremost, all travelers, including frequent 
flyers and travelers enrolled in U.S. Customs and Border Protection's 
(CBP) Global Entry program, are always first screened by Secure Flight 
against the U.S. Government's consolidated terrorist watch list 
maintained by the Federal Government. At present, certain frequent 
flyers that opt into TSA Pre3<SUP>TM</SUP>, as well as Global Entry 
members, may be eligible for expedited screening in a TSA 
Pre3<SUP>TM</SUP> lane. To enroll in a CBP Trusted Traveler program, 
and to renew every 5 years, travelers must provide extensive biographic 
and biometric information to CBP and US-VISIT, submit to terrorism, 
criminal, immigration, agriculture, customs violation, and other 
checks. Applicants must also complete a CBP officer interview of travel 
history. There is a $100 fee for enrollment in Global Entry, which is 
valid for 5 years. Frequent flyer eligibility criteria and prescreening 
analysis factors, including comparisons to the CBP Trusted Traveler 
population, are sensitive security information and may be provided upon 
request.
    Question. Will vacation/occasional air travelers and families who 
do not fly over 50,000 miles a year or meet a similar ``frequent 
flyer'' threshold ever have the opportunity to take advantage of 
expedited screening (i.e., TSA Pre3<SUP>TM</SUP>)? Or, will their only 
route into the program be to qualify and pay to enroll in one of CBP's 
``trusted traveler'' programs?
    Answer. For non-frequent flyers, U.S. Customs and Border 
Protection's Trusted Traveler programs, such as Global Entry, are the 
best method for becoming eligible for expedited screening in a TSA 
Pre3<SUP>TM</SUP> lane.
    Furthermore, although they may choose not to pursue expedited 
screening, non-TSA Pre3<SUP>TM</SUP> passengers are benefiting from 
modifications to the standard screening process.
    As one example, effective in August 2011, TSA deployed nationwide 
revised screening procedures for children 12 and under. This change 
dramatically reduced, but did not fully eliminate, the number of pat-
downs for this population. As of mid-March, TSA is currently testing 
similarly revised protocols for adults appearing at least 75 years old.
    Assuming the pilot demonstrates nationwide viability, TSA will 
adjust the screening procedures in the standard lane for this older 
population. Each time TSA uses intelligence information and a risk-
based approach to modify standard screening lane procedures like this, 
our officers are able to focus on the more likely adversaries, while 
also improving the passenger experience through reduced divestiture and 
touch rates.
    Question. Mr. Pistole, you have publicly claimed that TSA's move 
from a one-size-fits-all to a risk-based model in airline passenger 
screening in recent years saves your agency money. Could you please 
quantify those savings for us and where they are being achieved?
    Answer. The overarching goal of risk-based security is to improve 
security by enabling the Transportation Security Administration (TSA) 
to better focus resources on passengers who pose either an unknown risk 
or high risk. As one example, in August 2011, TSA deployed revised 
screening procedures for children 12 and under. These procedures are 
informed by intelligence and risk analysis. This risk-based adjustment 
dramatically reduced, but did not fully eliminate, the number of pat-
downs for this population. Time previously spent conducting such 
actions is now available for officers to focus on more likely 
adversaries. This is a re-focusing of resources, better aligning them 
with risk, not an overall reduction in net resources required.
    Question. What reduction in wait times is Pre3<SUP>TM</SUP> having 
so far, both for enrollees and those travelers not eligible?
    Answer. The Transportation Security Administration (TSA) records 
all incidents when wait times of 20 minutes or more occur. A review of 
that data reflects no increase for the airports where Pre3<SUP>TM</SUP> 
has been implemented. Otherwise, TSA Pre3<SUP>TM</SUP> expedited 
passenger screening has been operational in a proof of concept manner 
within a small number of airports for only a limited amount of time. It 
is too soon to draw system-wide conclusions about throughput, screening 
time, and wait time. In the interim, customer satisfaction data from 
both TSA (captured via airport kiosks and customer contact center 
inquiries) and the airlines demonstrate high levels of satisfaction 
with the expedited screening experience.
    Question. What is your long-range vision for the Pre3<SUP>TM</SUP> 
program?
    Answer. By the end of calendar year 2012, the Transportation 
Security Administration (TSA) is aiming to partner with a total of six 
airlines to bring TSA Pre3<SUP>TM</SUP> to over 30 of the Nation's 
busiest airports. Additional known traveler populations, such as 
members of the armed services and growing enrollments within U.S. 
Customs and Border Protection's Global Entry program, will be 
incorporated in a manner that reduces risk, positively impacting 
checkpoint efficiency, passenger experience, and workforce 
satisfaction.
    TSA Pre3<SUP>TM</SUP> is only one part of TSA's long-term vision to 
deliver the most effective security in the most efficient manner. TSA 
Pre3<SUP>TM</SUP> combines with other approaches such as real-time 
threat assessment capabilities (including enhanced behavior detection 
and security technology), and enhanced prescreening (via Secure Flight) 
to provide benefits across the aviation security spectrum. In the long 
term, TSA's intelligence-driven, risk-based security efforts will, on a 
growing basis, enable TSA officers to focus security screening 
processes and technology on higher risk travelers.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                      CANINE EXPLOSIVES DETECTION

    Question. Director Pistole: As you point out in your budget 
request, and I quote: ``Explosives detection canine teams are proven 
and reliable resources in the detection of explosives and are a key 
component in a balanced counter-sabotage program.'' My concern is that 
despite these claims your budget proposes cutting over $2,000,000 from 
the National Explosive Detection Canine Training Program. Canine 
detection teams are non-invasive, visible, and cost-effective assets 
that, unlike a body scanner, can be moved throughout our transportation 
infrastructure in minutes. I understand the need for as tight a budget 
as possible but I have serious concerns about this proposed cut, given 
the importance of canines in the explosives detection enterprise.
    Considering this, what level of funding is TSA dedicating to 
research on the breeding, training, deployment and use of canine 
detection teams in the transportation system?
    Answer. The Transportation Security Administration's (TSA's) 
National Explosives Detection Canine Training Program is comprised of 
operational entities and does not engage in research. Recognizing the 
importance of research in the canine field, TSA has partnered with the 
Department of Homeland Security (DHS) Science & Technology (S&T) to 
determine possible behavioral, physiological, and genetic indicators of 
successful explosives detection dogs.
    The contractual commitments with DHS S&T are set out in the 
following table:

                                             CONTRACTS FUNDED BY S&T
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                   Description                         2011            2012            2013            2014
----------------------------------------------------------------------------------------------------------------
University of Texas (started in fiscal year 2010        $350,000        $350,000        $350,000        $350,000
 with 4 option years)...........................
Dog Genetics, LLC (Started in fiscal year 2010           288,447         288,587         269,460         277,865
 with 4 option years)...........................
                                                 ---------------------------------------------------------------
      Total.....................................         638,447         638,587         619,460         627,865
----------------------------------------------------------------------------------------------------------------

    Question. At your current levels, are category X and category 1 
airports fully supported by passenger screening canines? What about our 
smaller airports? If not, what is TSA's timetable for providing canine 
coverage?
    Answer. Current allocations only provide coverage at 30 airports, a 
mix of category X and category 1 airports. There is no plan to expand 
beyond the 120 passenger screening canines currently authorized.
                               __________
               Questions Submitted to Thomas S. Winkowski
            Questions Submitted by Senator Mary L. Landrieu

                      CBP WAIT TIMES AND STAFFING

    Question. International arrivals at U.S. gateway airports are 
projected to rise anywhere from 5 to 26 percent this summer compared to 
last year. To cite just one example, Dallas-Fort Worth Airport projects 
an increase of 10.5 percent during peak hours.
    This increase in travel is a positive for the U.S. economy, but it 
will quickly become a problem if there aren't enough CBP officers at 
the airports to process visitors efficiently.
    In light of these projections and the fact that a number of these 
airports already appear to be understaffed, why is it that CBP is not 
seeking funds in fiscal year 2013 for additional CBP officers? And does 
your request take into account the forecasted growth in demand?
    Over the past 10 years, CBP has put in place an automated passenger 
processing system. Given these improvements, what is the estimate of 
how much time it takes a CBP officer to process an average person 
during the primary inspection?
    How much faster can a U.S. citizen be processed if they are a 
member of a known traveler program such as Global Entry?
    The U.S. Travel Association has suggested a target processing time 
of 30 minutes for international visitors, but reported delays in some 
instances up to 3 hours.
    Answer. CBP has developed a workload staffing model that serves as 
the primary decision-support tool for identifying staffing requirements 
at air, land, and sea ports. A congressional report that outlines the 
model is currently being drafted and cleared within DHS. Through the 
workload staffing model, CBP is able to identify that additional 
officers would help maintain and improve processing times. While the 
fiscal year 2013 President's budget does not request additional 
officers, it does continue to support programs and technology 
investments that give CBP officers the data and tools to process people 
and cargo faster. Additionally, the 2013 budget includes proposed 
legislation that would allow CBP to enter into agreements with 
corporations, non-Federal Government agencies and interested parties 
for the reimbursement of inspection services that are not currently 
offered by CBP, such as service for additional flights and new 
airports. Current statutory limitations on CBP's authority to receive 
outside funding, except in narrowly defined instances, have prevented 
CBP from receiving reimbursement from private sector and international, 
State, and local partners. This has resulted in the denial of the 
requested services or the provision of services without reimbursement.
    The average processing times during a primary inspection are as 
follows:

----------------------------------------------------------------------------------------------------------------
                         Passenger type                               Air \1\        Land \1\         Sea \1\
----------------------------------------------------------------------------------------------------------------
United States Citizens (USCs)...................................             1.0  ..............             0.5
Lawful Permanent Residents (LPRs)...............................             2.0  ..............             1.0
Non-Resident Aliens.............................................             3.0  ..............             3.0
Canadian Nationals (pre-clearance)..............................        1.2--1.9  ..............  ..............
Passenger Vehicles..............................................  ..............            0.93  ..............
Passenger Vehicles at Dedicated Commuter Lanes..................  ..............            0.25  ..............
Bus Passengers..................................................  ..............            1.00  ..............
Pedestrians.....................................................  ..............            0.25  ..............
Train Passengers................................................  ..............            0.25  ..............
----------------------------------------------------------------------------------------------------------------
\1\ Minutes used as unit of measure.

    U.S. citizens can clear the Global Entry kiosk in an average of 40 
seconds, 20 seconds faster than a regular primary inspection. Global 
Entry travelers also experience a notable time savings by not having to 
wait in line to be processed by an officer. Global Entry travelers 
rarely encounter a line for the kiosks.
    Question. Does CBP have a target processing time and, if so, what 
is it?
    Answer. CBP strives to process arriving travelers as quickly as 
possible while maintaining the highest standards of security. CBP 
closely monitors wait times and works with field managers to implement 
facilitative passenger programs and innovative strategies to mitigate 
wait times. Current statistics indicate that 88 percent of 
international air travelers wait less than 45 minutes for processing. 
In fact, 73 percent of international air travelers wait less than 30 
minutes for CBP processing.
    CBP is working with airport authorities to document the entire 
processing time of passengers, including time entering the facility, 
time spent waiting for baggage and other elements of the passenger 
experience.
    Question. How often does the agency meet that target?
    Answer. CBP is working with airport authorities to document the 
entire processing time of passengers, including time entering the 
facility, time spent waiting for baggage and other elements of the 
passenger experience.
    Current statistics indicate that 88 percent of international air 
travelers wait less than 45 minutes for processing. In fact, 73 percent 
of international air travelers wait less than 30 minutes for CBP 
processing.
    To enhance air passenger facilitation over the near and mid terms, 
CBP is implementing an aggressive, multi-pronged mitigation strategy. 
This strategy is comprised of three key elements:
  --effective use of existing resources;
  --partnerships with carriers and airport authorities on facilitation 
        measures; and
  --enhanced risk segmentation through increases in trusted traveler 
        membership.
    Question. Please explain the staffing workload alignment tool 
(SWAT) and whether you believe it can improve performance in this area.
    Answer. The staffing workload alignment tool (SWAT) is a scheduling 
tool that has the potential to improve staffing decisions and, 
therefore, assist in the speedy inspection of international arrivals. 
CBP developed SWAT at JFK International Airport to handle the unique 
staffing challenges at JFK--five independent international arrival 
facilities with each fluctuating daily peaks--to optimally deploy 
personnel resources. An enhancement of the SWAT is the airport wait 
time console real time flightboard, which utilizes live data feeds from 
multiple sources to create a view of passenger arrival data, thereby 
allowing port personnel to make optimal staff scheduling decisions. By 
taking into account factors such as aircraft arrival time, facility 
constraints, passenger volume and passenger admission classifications, 
port managers are able to make real-time adjustments to staffing in 
order to minimize passenger wait times. The real time flightboard is 
currently being used at JFK International Airport and has proven 
effective. It is now being tested at Los Angeles International Airport 
to determine its effectiveness at airports other than JFK International 
Airport.

                     TARGETING HIGH-RISK PASSENGERS

    Question. In the fiscal year 2012 DHS Appropriations Act, Congress 
provided additional funding for operations at the National Targeting 
Center of nearly $5 million, as well as an additional $10 million in 
funding for CBP's Automated Targeting Systems. Can you tell us how 
those funds are being used and how these enhancements will help 
facilitate international travel and improve passenger processing at air 
ports of entry?
    Answer. The additional $5.0 million in funding will support 
requisite staffing levels at the National Targeting Center-Passenger 
(NTC-P) by funding the salaries for staff that have been reassigned to 
the NTC-P from field locations.
    CBP will use the additional $10 million in funding for the 
Automated Targeting System (ATS) to improve passenger and cargo 
targeting efforts, by augmenting existing entity resolution; developing 
visualization tools; applying predictive modeling and machine learning 
capabilities; and continuing work on its visa overstay and document 
validation initiatives. Notably, recognizing the public's sensitivity 
to advanced screening procedures, all of the aforementioned 
enhancements will be made with consideration given to the privacy, 
civil rights, and civil liberties of passengers. By investing in the 
improved exploitation of available law enforcement and intelligence 
information, CBP will be able to refine its targeting efforts on the 
most high-risk travelers, conveyances, and cargo shipments, thus 
allowing greater facilitation of legitimate trade and travel.
    CBP will employ a three-phased approach to improve entity 
resolution: name matching, data augmentation, and the use of a variety 
of name matching routines, algorithms and models to continually assess 
the utility of existing and new routines to result in the most 
efficient and accurate encounter dispositions.
    Data visualization is an integral component of data analysis or the 
process of looking at and summarizing data with the intent to extract 
useful information and develop conclusion or inferences and recognize 
patterns or anomalies. Development of visualization capabilities will 
allow CBP to communicate relevant information to analysts clearly and 
effectively through graphical means.
    Data-driven modeling is an important complement to rules-based 
targeting since models can identify anomalies and patterns that would 
escape traditional methodologies, as well as highlight subtle features 
and combinations of features that are predictive of future behavior. 
CBP will develop and operationalize analytical and predictive models to 
detect patterns in data by taking advantage of all available data in a 
parallel manner. Additionally, CBP will employ machine learning models 
that incorporate new findings and evolve and learn in real time.
    CBP continues to work with Immigration and Customs Enforcement 
(ICE) and US-VISIT to automate identification of visa overstays in the 
United States. An automated system will allow users to perform real 
time checks of classified databases, implement rules in a timely and 
cost-efficient manner, and classify and prioritize overstays by risk.
    Document validation will provide CBP the capability to verify the 
accuracy of the travel document information provided by air carriers 
for each traveler arriving in and departing from the United States 
prior to boarding.
    These efforts will facilitate legitimate travel in ways that may 
not be readily apparent at the ports of entry. Improved entity 
resolution will reduce the number of secondary referrals since fewer 
false positives will be promoted to the hot lists because of better 
automated vetting. Link analysis and visualization tools will provide a 
graphical representation of relationships among travelers, their 
documents and other travel information. This type of information 
representation (as opposed to reading and integrating information from 
documents) will allow analysts to make faster and more informed 
decisions.
    Question. How does your fiscal year 2013 budget request enhance 
CBP's targeting operations and capabilities? Do you think that these 
programs need additional resources, particularly for the critical 
operations and maintenance?
    Answer. CBP is requesting additional funding of $69.7 million to 
address resource requirements for Automated Targeting System (ATS) 
maintenance and enhancements, in addition to supporting and augmenting 
targeting staff within the Office of Intelligence and Investigative 
Liaison (OIIL). The OIIL targeting staff identifies, develops, 
implements, and refines various methods of targeting and responding to 
security-related operational and real-time events involving people, 
goods, and conveyances entering and exiting the United States.
    The additional funding of $31 million for ATS operations and 
maintenance and the enhancement of $38.7 million for targeting system 
and staff will sufficiently fund CBP's targeting requirements in fiscal 
year 2013, and will provide CBP with the ability to update targeting 
rules in real time--allowing CBP to attain a true 24/7 targeting 
capability to better support CBP front-line personnel.

                          MODEL PORTS OF ENTRY

    Question. Given its success at the 20 airports in which it 
operates, the Model Ports of Entry program seems to be something that 
should be expanded to all international airports.
    What impediments are there to expanding the Model Ports program? If 
it is an issue of funding, has consideration been given to increasing 
the ESTA fee or to modifying how the $14 fee is divided?
    Answer. Congress approved a one-time appropriation of $40 million 
in fiscal year 2008 for CBP to establish the Model Ports program. The 
$40 million was used to deploy required equipment, monitors, signage, 
CBP officers and CBP officer overtime to the largest 20 international 
airports by volume of visitors. No additional funds for expansion are 
available at this time.
    The current ESTA fee is comprised of two separate and distinct 
amounts ($10 and $4), both of which are authorized under The Travel 
Promotion Act of 2009. The act established the Corporation for Travel 
Promotion (now Brand USA) to communicate U.S. entry policies and 
otherwise promote leisure, business and scholarly travel to the United 
States. Brand USA is funded from the collection of a $10 fee assessed 
on travelers from visa waiver countries in the completion of a form 
under the DHS requirement for the Electronic System of Travel 
Authorization (ESTA). The $10 fee has a sunset date which prohibits its 
collection for fiscal years beginning after September 30, 2015. Under 
current law, this fee cannot be used for the Model Ports program. 
Additionally, the $10 fee has a current sunset date which prohibits its 
collection for fiscal years beginning after September 30, 2015. A fee 
to recover the costs of operating ESTA was authorized by the act and 
set by regulation in order to recover the ``full costs of providing and 
administering'' ESTA. These fees may only be used to pay the costs to 
administer ESTA.
    Question. I understand that every Model Port has a Passenger 
Service Manager who responds to traveler complaints or concerns, 
oversees issues related to travelers requiring special processing, 
observes the overall traveler processing procedure, and generally 
serves as a liaison between the traveler, the airport, and CBP. This 
seems like something which should be in place at every international 
airport.
    How much does it cost annually at the 20 airports and do the 
airports share in the cost?
    Answer. The main cost is for the Passenger Service Manager (PSM) 
who is a supervisory CBP officer who is allocated from the port's 
managerial staff. Since the PSM program leverages existing personnel, 
the incremental costs are limited to training and reporting. The annual 
incremental cost incurred by CBP for the 40 PSMs nationwide is 
$3,000,000. The airports do not share in the cost of the CBP PSM 
program.
    Question. Are there plans to expand these positions to other 
airports? If not, why not?
    Answer. CBP has already expanded the PSM program to two land border 
ports of entry--Blaine, Washington, and Brownsville, Texas. We will 
assess opportunities to further expand the program on a case-by-case 
basis.
    Question. How much does installing and maintaining improved 
signage, including welcome/informational videos, cost per airport?
    Answer. The cost of improved signage varies. CBP, through its 
printing and graphics office, prints Model Ports signage, which 
includes way finder signs and queue identification signs (U.S. citizen, 
crew, Asia Pacific Economic Cooperation, etc). The cost is 
approximately $1,615 per airport.
    The cost of welcome/informational videos varies as well. The cost 
of video production can be between $30,000 and $75,000 depending on the 
type of service required (new video production, video editing and 
updating, etc).

                          CBP CUSTOMER SERVICE

    Question. The subcommittee understands the CBP officers' primary 
duty is security and ensuring that the individual before them is 
eligible for entry into the country. However, that officer is also the 
first impression the traveler has of America and Americans.
    I understand that CBP has a process in place to collect feedback 
from travelers on their entry experience through the use of comment 
cards at each airport.
    How does CBP currently use the travelers' comments to improve 
customer service?
    Answer. CBP conducted a Traveler Satisfaction Survey at the 20 
Model Ports between October 12 and November 18, 2011.
    The Traveler Satisfaction Survey was conducted to obtain feedback 
from the traveling public on CBP's Model Ports program and traveler 
experience. The survey was designed to evaluate CBP's performance in 
achieving the goals of the Model Ports program:
  --Ensure that passengers entering the United States are welcomed by 
        CBP officers who treat them with respect and understanding;
  --Provide the right information to help travelers, at the right time 
        and in a hospitable manner;
  --Create a calm and pleasant CBP area; and
  --Streamline the CBP process.
    The survey findings indicate that:
  --Nearly 90 percent of travelers responded that the entry process 
        made them feel welcomed;
  --More than 90 percent of travelers responded that CBP officers were 
        welcoming, professional, helpful, efficient, and communicative;
  --More than 80 percent of travelers responded that the inspection 
        area was welcoming; and
  --Nearly 90 percent of travelers surveyed felt that the entry process 
        time was either short or reasonable with three-quarters of 
        travelers getting through in 15 minutes or less at the model 
        airports.
    CBP is using this information to make further improvements to the 
passenger process and will conduct a follow-up traveler satisfaction 
survey as part of the continuing effort in evaluating valuable traveler 
feedback and further improving the traveler experience.
    Question. I understand the travel industry recommended that CBP 
officers begin by greeting all arriving visitors with a simple 
``Welcome to the United States.'' Is that something you could adopt? 
Are CBP officers trained to begin the inspection process with any 
particular greeting?
    Answer. CBP conducts professionalism musters at the local ports on 
a recurring basis. Creating a welcoming environment and experience is a 
theme that is woven into all CBP professionalism musters. CBP officers 
are trained to greet the traveling public with the appropriate greeting 
for the time of day and conclude the traveler transaction with 
``Welcome to the United States'' or ``Welcome home'' as appropriate.

                          VISA WAIVER PROGRAM

    Question. The President recently issued an Executive order which 
calls for the Secretaries of State and Homeland Security to ``increase 
efforts to expand the Visa Waiver Program and travel by nationals of 
Visa Waiver Program participants.'' Currently 36 countries participate 
in the program, all of whom are required to share counterterrorism and 
law enforcement information with the United States and demonstrate low 
visa refusal and overstay rates, in exchange for visa-free travel by 
their citizens to America.
    Can you discuss what efforts you expect to undertake to implement 
this mandate and how can Congress help with your efforts?
    Answer. DHS is pursuing four courses of action to support expanding 
the Visa Waiver Program (VWP) and travel by nationals of VWP countries:
  --Given the security and economic benefits of the VWP to the United 
        States and the program's important role in strengthening 
        international partnerships, DHS has long supported a carefully 
        managed expansion of the VWP to select countries that meet the 
        statutory requirements and are willing and able to enter into a 
        close security relationship with the United States. DHS, in 
        concert with its interagency partners, stands ready to work 
        with Congress to support legislative efforts that would allow 
        DHS, in consultation with the Secretary of State, to designate 
        additional countries that meet the statutory and policy 
        requirements for participation in the VWP;
  --DHS is reviewing Taiwan for designation in the VWP and has begun 
        its statutorily required assessment of Taiwan. On the basis of 
        this assessment, the Secretary of Homeland Security will make a 
        determination on Taiwan's VWP candidacy;
  --Under current VWP requirements as set out in INA section 217, 
        relatively few additional countries qualify at present 
        designation under the program. DHS will work with foreign 
        governments to fulfill the legal requirements for VWP 
        designation in advance of full eligibility; and
  --DHS will support efforts led by the Departments of Commerce and 
        Interior to craft a National Travel & Tourism Strategy to 
        promote domestic and international travel opportunities 
        throughout the United States.

                              GLOBAL ENTRY

    Question. I understand that CBP's Global Entry program has over 1 
million individuals enrolled in the program, and President Obama 
recently announced the program will expand to four additional airports 
this year.
    Can you tell us how this automated program will help reduce wait 
times for travelers?
    Answer. There are over a million trusted travelers with Global 
Entry benefits (including NEXUS and SENTRI members who are eligible for 
Global Entry benefits), with over 300,000 individuals directly enrolled 
in Global Entry. Program members do not have to wait in the general 
queues to be processed by a CBP primary officer, but instead proceed 
directly to self-service, automated kiosks. Use of kiosks reduces a 
trusted travelers wait time by over 70 percent (an estimated 7 minutes 
on average). In addition, having fewer people in the queues to be 
processed by CBP primary officers decreases wait times for the general 
traveling public.
    Question. What are the plans to expand Global Entry to other 
airports this fiscal year?
    Answer. Global Entry is currently available at 24 U.S. airports as 
well as six preclearance sites in Canada. CBP intends to expand the 
program to additional sites this year based on volume and frequent 
traveler data.
    Question. Are funds requested in the fiscal year 2013 budget to 
expand Global Entry to other airports? If so, how much? What is the 
estimated per airport cost to expand Global Entry?
    Answer. The fiscal year 2013 budget does not request additional 
funds to expand Global Entry to other airports; however, base 
appropriated dollars will be applied to planned future expansions. 
Global Entry kiosks cost approximately $24,000 each. On average, five 
kiosks are needed to expand the program to a new site. In addition, 
funding is needed for cabling, installation, and workstations and 
equipment for enrollment centers. Roughly, it would cost between 
$200,000-$250,000 to get a new airport established with Global Entry. 
This figure does not include the cost of training the officers. The 
ongoing operations and maintenance of Global Entry is funded through 
fees that were set to cover the costs of the program.
    Question. Currently, individuals wishing to enroll in Global Entry 
must travel to a participating airport. For instance, the nearest 
participating airport to residents of New Orleans is Houston--a 6-hour 
drive. What consideration is being given to expanding enrollment 
centers in locations other than participating airports? What are the 
costs and requirements--in terms of personnel, technology, etc--
associated with establishing an enrollment location?
    Answer. CBP currently is analyzing the possibility of alternative 
enrollment centers.
    As part of this analysis, CBP is evaluating the costs and 
requirements associated with this option and others.
    Question. As interest and demand for Global Entry increase, is 
consideration being given to establishing enrollment locations at non-
Global Entry airports--perhaps as pilot programs in which enrollment 
opportunities would be made available at specific times (in order to 
limit the time a CBP officer would be taken away from their other 
duties at a given location)? Please explain the costs and benefits of 
such a pilot.
    Answer. CBP is considering establishing enrollment locations at 
non-Global Entry airports. This requires the acquisition of additional 
equipment which is necessary to conduct the enrollments. CBP estimates 
that equipment costs and set up of offsite enrollment locations would 
average between $250,000-$300,000 per location. Having enrollment 
centers in non-Global Entry airports would benefit the public, as they 
would have more enrollment location options.
    Question. How does CBP's Global Entry program help TSA with its 
registered traveler program known as Pre3<SUP>TM</SUP>? Can you 
leverage CBP's existing technology infrastructure to make TSA's program 
a success?
    Answer. U.S. citizens participating in CBP's trusted traveler 
programs (Global Entry, NEXUS and SENTRI) are automatically qualified 
to participate in TSA Pre3<SUP>TM</SUP>.
    Membership in one of CBP's programs is the only way someone can 
participate in the TSA program currently without being invited by an 
airline or qualified through a TSA pilot. The Global Online Enrollment 
System (GOES) is the system utilized to apply for trusted traveler 
programs. CBP and TSA are reviewing technology infrastructure to 
identify options for direct participation in TSA Pre3<SUP>TM</SUP> 
through enrollment in GOES, while leveraging the established trusted 
traveler vetting process to ensure the integrity of the program. 
Collaboration between CBP and TSA serves as a force multiplier, 
utilizing established technology and procedures within the CBP process 
as the backbone to support and increase participation in the programs.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy

                  CROSS-BORDER PASSENGER RAIL SERVICE

    Question. Mr. Winkowski, Vermont used to have cross-border Amtrak 
service along the old Montrealer line between Washington, DC, and 
Montreal, Quebec. Rail access to Montreal went away in 1995, though, 
when St. Albans, Vermont, became the terminus for Amtrak's new 
Vermonter train.
    The State of Vermont is very interested in reestablishing Amtrak 
service to Montreal--and our Governor, Peter Shumlin, has made it one 
of his administration's top priorities.
    One of the major obstacles to cross-border travel today is CBP 
passenger screening. While I am pleased to see cross-border train 
travel included in the recently announced bilateral Beyond the Border 
initiative with Canada, over the past few years DHS has prepared a 
number of reports on this topic. Unfortunately, instead of 
contemplating how it could happen, these reports have only recycled the 
same tired and worn line that ``it can't be done.''
    With other trains already operating across the Northern border in 
New York State and Washington State, I know it can be done. Vermont and 
Quebec are working closely together to orchestrate the creation of a 
preclearance facility in Montreal that would benefit both the existing 
Adirondack service in New York and an expanded Vermonter service to 
Montreal.
    We need help and support from CBP to make it happen.
    Will you continue working with me, the State of Vermont, Amtrak, 
the State Department, the Quebec Government, and the Canadian National 
Government to construct a preclearance facility in Montreal for 
passenger trains?
    Answer. I am pleased to report that the Beyond the Border 
initiative is providing the pathway for CBP to overcome the primary 
obstacle inhibiting full preclearance processing of passengers trains 
in Canada, by providing a forum for discussion of an expanded 
preclearance agreement to allow for rail. DHS is actively discussing 
the requirements of such an agreement with its counterpart, Public 
Safety Canada. Per the Beyond the Border Action Plan, we anticipate 
having a negotiated agreement by the end of this calendar year. CBP has 
also already provided preliminary concurrence to Amtrak on a dual-use 
CBP/Canada Border Services Agency facility concept design at the 
Montreal Rail Station as a step forward to support potential future 
discussions on preclearance expansion for rail, and Amtrak has 
indicated a business decision to eliminate the intermediate stops on 
any scheduled routes that would be precleared into the United States.
    While CBP is committed to continuing its review of the feasibility 
of expanding passenger rail preclearance in Canada, certain conditions 
will need to be in place before expansion can take place, including a 
signed bilateral agreement between the two nations, and the existence 
of sufficient infrastructure, funding, resources, and staffing.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

                            CARGO SCREENING

    Question. With respect to TSA compliance with the 9/11 Act 
requirement to screen all air cargo bound for the United States, we 
have monitored what CBP has done using its automated targeting system 
(ATS) to identify high-risk cargo being shipped on consignment aircraft 
and have been impressed with the results of that program. It was our 
understanding that TSA was working with CBP on using this technology to 
enhance passenger safety on international flights until such time as 
other contemplated screening technologies fully compliant with 9/11 Act 
requirements have been developed. Can you tell me the status of these 
efforts and if there are practical alternatives to using the ATS to 
target air cargo before departure? Finally, what resources are required 
to achieve the goal of screening air cargo on international passenger 
flights?
    Answer. TSA and CBP have been working together since 2009 to 
explore the use of CBP's automated targeting system (ATS) to target 
high-risk cargo for screening. Currently, ATS is being leveraged 
through the joint TSA/CBP Air Cargo Advance Screening (ACAS) pilot to 
explore the feasibility of collecting pre-departure information on 
international inbound air cargo and assessing its risk. Participants 
engaged in the pilot include express, all-cargo, passenger, and heavy 
all-cargo aircraft operators. The ACAS pilot procedures will align with 
TSA's risk-based strategy to achieve 100 percent screening of 
international inbound air cargo transported on passenger aircraft.
    In February 2012, TSA released proposed amendments to TSA carrier 
standard security programs for industry comment. In addition to 
incorporating the ``Trusted Shipper'' concept and requiring 100 percent 
screening of international inbound air cargo transported on passenger 
aircraft by December 2012, the proposed amendments provide carriers 
incentives to submit data through ACAS as soon as possible..
    The ACAS pilot provides TSA and CBP the ability to assess the 
resources that will be required for full program implementation. Costs 
will include both the modifications to the ATS, as well as personnel 
resources to man CBP's National Targeting Center--Cargo. Implementation 
of 100 percent screening of international inbound cargo transported on 
passenger aircraft also requires additional resources for overseas 
inspection, as well as implementation of TSA's National Cargo Security 
Program (NCSP) recognition process. The NCSP process establishes a 
mechanism for bilateral discussions with countries that employ similar 
or commensurate security measures within the air cargo and mail supply 
chains in order to recognize those requirements that meet or exceed TSA 
security requirements.

                          GLOBAL ENTRY PROGRAM

    Question. What is the long-range vision for Global Entry? Will CBP 
see the most significant impact when 15 percent of the international 
traveling public is enrolled, when 20 percent is enrolled, or some 
higher percent is enrolled?
    Answer. Over the long term, CBP will expand Global Entry to 
additional airports and to additional nationalities. As more people 
enroll in the program and usage increases, CBP will be able to redeploy 
a higher percentage of resources to process those travelers not 
enrolled in the program. CBP is seeing, on average, 3-5 percent of the 
eligible traffic (international crossings) using Global Entry kiosks at 
the locations where the program is operational. We are currently 
initiating modeling efforts to assess the impact on service levels. As 
each airport has different physical infrastructure and different air 
passenger traffic composition, the modeling will necessarily be port 
specific.
    Question. Would CBP like to see all primary processing eventually 
handled in an automated fashion with minimal officers involved--and 
instead have officers working on targeting and staffing secondary 
inspection?
    Answer. CBP is exploring ways to better automate the existing 
primary process and to fully maximize the law enforcement capabilities 
of the CBP officer cadre. Toward that end, CBP is looking at potential 
technologies and changes to its business processes to allow primary 
officers to focus on conducting effective interviews and enforcement 
inspections. CBP will strive to accomplish the appropriate balance 
between automation, targeting, and officer interaction with each 
traveler.
    Question. Today, what is the average processing time for a traveler 
being inspected by an officer? What is the average processing time for 
a traveler using a Global Entry kiosk?
    Answer. The average processing time by an officer during primary 
inspection at airports is 1 minute for U.S. citizens, 2 minutes for 
lawful permanent residents, 3 minutes for nonresident aliens and 1.2 to 
1.9 minutes for Canadian nationals at preclearance locations. On 
average, Global Entry members (U.S. citizens) can process through the 
kiosks in 40 seconds.

                 TARGETING IN THE PASSENGER ENVIRONMENT

    Question. Congress provided additional funds to CBP in fiscal year 
2012 for the automated targeting systems and overall for targeting 
activities. How are those funds being spent? What improvements are 
being made to the targeting systems?
    Answer. Congress provided additional funding in fiscal year 2012 of 
$5.0 million for the National Targeting Center-Passenger and $10 
million for the automated targeting system (ATS).
    The additional $5.0 million in funding will support requisite 
staffing levels at the National Targeting Center-Passenger (NTC-P) by 
funding the salaries for staff that have been reassigned to the NTC-P 
from field locations.
    CBP will use the additional $10 million in funding for ATS to 
improve passenger and cargo targeting efforts, by augmenting existing 
entity resolution; developing visualization tools; applying predictive 
modeling and machine learning capabilities; and continuing work on its 
visa overstay and document validation initiatives. Notably, recognizing 
the public's sensitivity response to advanced screening procedures, all 
of the aforementioned enhancements will be made with consideration to 
the privacy, civil rights, and civil liberties of passengers. 
Additionally, through investments to improve access to available law 
enforcement and intelligence information, CBP will be able to refine 
its targeting efforts on the most high-risk travelers, conveyances, and 
cargo shipments, thus allowing greater facilitation of legitimate trade 
and travel.
    CBP will employ a three-phased approach to improve entity 
resolution: name matching, data augmentation, and the use of a variety 
of name-matching routines, algorithms, and models to continually assess 
the utility of existing and new routines to result in the most 
efficient and accurate encounter dispositions.
    Data visualization is an integral component of data analysis or the 
process of looking at and summarizing data with the intent to extract 
useful information and develop a conclusion or inferences and recognize 
patterns or anomalies. Development of visualization capabilities will 
allow CBP to communicate relevant information to analysts clearly and 
effectively through graphical means.
    Data-driven modeling is an important complement to rules-based 
targeting since models can identify anomalies and patterns that would 
escape traditional methodologies, as well as highlight subtle features 
and combinations of features that are predictive of future behavior. 
CBP will develop and operationalize analytical and predictive models to 
detect patterns in data by taking advantage of all available data in a 
parallel manner. Additionally, CBP will employ machine learning models 
that incorporate new findings and evolve and learn in real time.
    CBP continues working with Immigration and Customs Enforcement 
(ICE) and US-VISIT to automate identification of visa overstays in the 
United States. An automated system will allow users to perform real 
time checks of classified databases, implement rules in a timely and 
cost-efficient manner, and classify and prioritize overstays by risk.
    Document validation will provide CBP the capability to verify the 
accuracy of the travel document information provided by air carriers 
for each traveler arriving in and departing from the United States 
prior to boarding.

                          I-94 FORM AUTOMATION

    Question. What is the current status of automating the I-94 
nonimmigrant admissions form that non-visa waiver country travelers 
fill out on the airplane?
    Answer. Currently, we are considering and actively discussing the 
automation of the I-94 nonimmigrant admissions form that non-visa 
waiver country travelers complete on the airplane.
    Question. What kind of processing efficiencies do you foresee once 
the I-94 form is fully automated?
    Answer. CBP expects it may see a 20- to 30-second reduction in 
processing time for each passenger requiring an I-94 if the I-94 form 
is fully automated. The reduced processing times may result in 
approximately $19.1 million a year in officer efficiency savings. 
Potentially, there could be a savings of up to $15 million a year in 
contract costs if the need for data entry and storage of the paper form 
I-94 are eliminated.
    Question. Are there any plans to automate the customs declaration 
form as well?
    Answer. CBP is currently exploring the possibility of automating 
the customs declaration form.

               ELECTRONIC SYSTEM FOR TRAVEL AUTHORIZATION

    Question. The Travel Promotion Act of 2009 created a $10 fee to be 
paid by non-U.S. travelers staying in the United States less than 90 
days. The proceeds of this fee are assisting in paying for an 
advertising campaign to promote international travel to the United 
States. However, CBP levied an additional $4 fee on top of the $10 fee 
for processing. How does CBP justify such a huge processing charge 
equal to 40 percent of this fee in this instance? CBP already has in 
place a significant apparatus to collect from the airlines a myriad of 
other fees imposed on international passengers arriving in the United 
States. Why did the addition of this $10 fee necessitate such high 
processing costs?
    Answer. While both fees are authorized under The Travel Promotion 
Act of 2009, the statute treats the $10 and $4 fees separately. The act 
established the Corporation for Travel Promotion (now Brand USA) to 
communicate U.S. entry policies and otherwise promote leisure, 
business, and scholarly travel to the United States. Brand USA is 
funded from the collection of a $10 fee assessed on travelers from visa 
waiver countries. The $10 fee has a sunset date which prohibits its 
collection for fiscal years beginning after September 30, 2015. The act 
also required the Secretary of Homeland Security to establish a fee in 
``an amount that will at least ensure recovery of the full costs of 
providing and administering'' ESTA. CBP determined that fee to be $4 by 
completing a fee analysis study of the costs involved in administering 
the ESTA program. ESTA is a fee-funded program and CBP does not receive 
appropriated dollars for its operation.
    Question. What have been the results of the ad campaign paid for by 
this fee to promote international travel to the United States?
    Answer. Brand USA launched its advertising and marketing campaign 
at the International Pow-Wow Convention on April 23, in Los Angeles, 
California. As Brand USA is a public-private partnership, CBP has no 
jurisdiction over the advertising campaign.
                               __________
                Questions Submitted to Douglas A. Smith
             Question Submitted by Senator Mary L. Landrieu

    Question. Much of the focus of this hearing has been on how the 
Federal Government can make air travel more efficient and convenient 
without sacrificing security. However, cooperation with private sector 
stakeholders is critical for this to happen. What responsibilities do 
private sector stakeholders have to grow these programs and make them 
successful?
    Answer. Private sector stakeholders are crucial participants in the 
Department of Homeland Security (DHS) effort to better facilitate 
secure travel and tourism, and there are a number of formal and 
informal channels through which they can lend their expertise and 
engage on all travel and tourism issues.
    At the national level, industry representatives are welcome to 
apply for membership on the Secretary of Commerce's U.S. Travel and 
Tourism Advisory Board (TTAB) and the President appoints members from 
industry to the President's Export Council (PEC). These boards 
represent their industry by advising at the Cabinet and Presidential 
levels, respectively, on emerging travel and tourism issues. Their 
participation assists the Federal Government in fostering a thriving 
travel and tourism industry.
    In addition, industry representatives can play a role by working 
with DHS at the regional and local levels. Local level partnerships are 
important because the challenges that U.S. Customs and Border 
Protection (CBP) and the Transportation Security Administration (TSA) 
face at each port are unique. Facility layout and size differ greatly 
from airport to airport; the airlines, cities, and travelers they serve 
vary; and airports are managed differently. Industry representatives 
should feel empowered to connect with CBP and TSA at their airport to 
better understand these issues and see how they can collaborate. For 
example, businesses are currently providing expertise in design, queue 
management, customer service, and other areas at airports in Orlando, 
Florida, and Las Vegas, Nevada. The DHS Private Sector Office is able 
to help businesses establish a relationship with their local airport.
    Industry representatives can also play a role in many other 
important ways.
    The air travel experience is broader than just customs or 
screening. Ground transportation to the airport, airport parking, 
rental cars, airline reservations, hotel reservations, and many other 
facets impact the traveler's experience. Businesses can recognize how 
their operations fit into the entire journey of each traveler and 
engage with the Government on these issues. For example, CBP and TSA do 
not own or even control the appearance of the port facilities, the 
inflow of arriving planes and passengers, or the delivery time of 
checked airline baggage. Dialogue and collaboration among all parties, 
especially airport authorities and airlines, is crucial to successful 
partnerships. We recognize that the entire travel experience has many 
layers and interconnecting parts. DHS is committed to using that 
understanding to facilitate secure travel and tourism.
    Additionally, industry has the customer base and outreach 
capabilities to effectively market initiatives and programs such as 
Global Entry and TSA Pre3<SUP>TM</SUP>. Companies can help by enrolling 
their frequent flyer employees in these programs and informing their 
customers. CBP saw the largest increases in applications following 
promotions by credit cards, airlines, hotels, and other companies to 
frequently traveling customers. The DHS Private Sector Office, CBP, and 
TSA are ready to assist companies or organizations if they wish to 
promote these programs to their employees and customers.
    DHS is committed to continuing dialogue and collaboration with all 
stakeholders to improve the travel experience without sacrificing 
security. The Department is grateful for the willingness of industry to 
learn more about the challenges and opportunities we face as well as 
their efforts to help strengthen and improve our initiatives and 
programs.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

                 COLLABORATION WITH AIRPORT AUTHORITIES

    Question. Can you explain what funds were invested in the 
collaborative effort between the Department of Homeland Security (DHS) 
and the Greater Orlando Airport Authority by DHS and how much by the 
Orlando Airport? What specific improvements were made that allowed an 
additional flight to be accommodated by Customs and Border Protection 
(CBP) and the airport?
    Answer. The Department of Homeland Security (DHS) did not 
contribute any funds to the collaborative effort. The U.S. Customs and 
Border Protection (CBP) Assistant Port Director at Orlando 
International Airport (MCO) worked with the Greater Orlando Aviation 
Authority, which operates MCO, to establish a collaborative effort of 
regular meetings and workgroups with local travel and tourism industry 
stakeholders. The Greater Orlando Aviation Authority invested over 
$500,000 in port facilities in the beginning of 2011. In addition, the 
local public and private sector contributed $100,000 toward facility 
enhancements and $11,250 in in-kind services to the port including 
suggested way-finding signage and decor. The CBP Assistant Port 
Director and the Passenger Service Manager joined the community 
workgroup to provide input on the developments.
    The working group was able to accommodate the additional flight 
from Brazil to Orlando through cooperation among the community, local 
congressional delegation, and DHS to quickly address staffing 
challenges and adjust CBP operations. Local industry stakeholders 
believe the flight will have a significant economic impact on the 
region.
    Question. Are there other collaborations currently under 
consideration with other airport authorities?
    Answer. Yes. In the coming months, the Private Sector Office (PSO), 
Transportation Security Administration (TSA), and U.S. Customs and 
Border Protection (CBP) are planning to organize the next meetings in 
upcoming airports launching TSA PreCheck (Pre3<SUP>TM</SUP>).
    DHS continues to work with airline associations and airports to 
deploy TSA Pre3<SUP>TM</SUP> as they become ready to implement. By the 
end of calendar year 2012 we plan to add 30 airports, for a total of 35 
TSA Pre3<SUP>TM</SUP> airports throughout the country. Orlando 
International Airport, the first to be highlighted by PSO, and industry 
partners are also collaborating to share their success with the wider 
travel and tourism industry. At the U.S. Travel Association Board 
Meeting on March 23, 2012, the Greater Orlando Aviation Authority and 
Universal Studios gave a presentation to approximately 100 industry 
leaders on their efforts to improve the atmosphere at the port and how 
other airports and businesses can start their own local initiative.
    CBP launched the Model Ports initiative in 2006 to present a warmer 
welcome to travelers and provide a more intuitive process by improving 
signage, communications, and using technology to facilitate entry. The 
PSO effort at the Model Ports, which now comprise 20 airports, connects 
and informs local air port of entry stakeholders--including DHS, the 
airport authority, other private-sector representatives, and community 
partners--of the role they can play in creating a more welcoming 
atmosphere. These efforts often leverage and highlight the strong 
collaboration already built by local entities. DHS looks forward to 
continuing to foster this kind of local-level collaboration with 
industry and other stakeholders of the ports of entry.

                  NATIONAL TRAVEL AND TOURISM STRATEGY

    Question. Since the President announced the creation of the Task 
Force on Travel and Competitiveness and the President's Travel and 
Tourism Advisory Board, what is the status of developing the National 
Travel and Tourism Strategy?
    Answer. The Department of Commerce and the Department of the 
Interior continue to lead DHS and other interagency partners on the 
Task Force on Travel and Competitiveness in writing the National Travel 
and Tourism Strategy. The Task Force published a Federal Register 
Notice for public comment and received substantial and thoughtful input 
from the travel and tourism industry and other stakeholders. As the 
lead agencies, the Departments of Commerce and Interior are best 
positioned to answer specific questions regarding the current status of 
the strategy.
                               __________
                Questions Submitted to David T. Donahue
            Questions Submitted by Senator Mary L. Landrieu

                             VISA ISSUANCE

    Question. In the President's January announcement on tourism, he 
said one of his goals is to expedite the visa issuance process for 
visitors from Brazil and China. This is important, but we want to 
ensure our citizens are receiving similar courtesy if they travel 
overseas.
    How long does it currently take our Government to issue visas to 
travelers from these two countries, on average? Conversely, how long 
does it take Brazil and China to issue visas to U.S. travelers?
    Answer. On April 3, 2012, all posts in China had interview 
appointment wait times of less than 1 week. In Brazil, interview wait 
times varied from 7 days in Rio de Janeiro and Brasilia, to 15 days and 
35 days in Recife and Sao Paulo, respectively. These wait times 
represent average wait times at these posts for the last 2 months. 
Following the interview, on average, visa-processing posts in China and 
Brazil issue visas to qualified applicants in less than 3 days. Those 
renewing visas who meet the eligibility criteria for an interview 
waiver can expect to receive their visas in approximately 5 business 
days. Approximately 2 to 4 percent of B1/B2 applicants in Brazil, and 6 
percent of applicants in China who overcome INA section 214(b) must 
still undergo security-related administrative processing, which may 
extend the period from adjudication to issuance (if ultimately found to 
be fully qualified) to 2 weeks or more.
    China.--Chinese consular officials state that they issue visas to 
U.S. citizen travelers in 1 or 2 business days, though State frequently 
receives anecdotal reports from non-official U.S. citizen travelers of 
longer wait times. U.S. citizens who submit applications via mail 
usually receive their passports with visas in 2 weeks; however, some 
U.S. citizen applicants have complained of months-long delays.
    Brazil.--The Department has received complaints from the U.S. 
citizen business community regarding Brazil's visa requirements for 
business travelers. Brazil applies a distinction between a short-term 
business visit and a short-term working visit. Under this distinction, 
a U.S. company sending staff to Brazil to install equipment or 
software, resolve specific problems, train local staff or work on a 
short-term specific project is required to obtain a temporary work visa 
rather than a temporary business visa. A temporary work visa requires 
approval from the Labor Ministry, a process which the U.S. citizen 
business community notes can take up to 6 months. The United States 
issues qualified short-term overseas business travelers a B1 visa, 
which does not require a labor certification.
    Question. These are high-growth economies where America is 
competing with other developed countries to attract tourism dollars. 
U.S. consular services in these key markets have lagged behind those of 
England, Germany, France, and Japan in accommodating that demand.
    What steps has the State Department taken to reduce interview wait 
times, processing times, and travel distances to consulates in these 
countries?
    Answer. Demand for U.S. visas in countries such as Brazil and China 
are at all-time highs and the State Department is taking a number of 
new and innovative steps to meet this demand. In the first 6 months of 
fiscal year 2012 alone, consular officers in China processed 44 percent 
more nonimmigrant visa applications, and consular officers in Brazil 
handled 58 percent more as compared to the same time period in fiscal 
year 2011. We issue nonimmigrant visas to almost 90 percent of Chinese 
applicants, and to over 96 percent of Brazilian applicants.
    In order to build our capacity to meet the increasing demand, we 
are working to expand the physical infrastructure of our consular 
sections in Brazil and China as well as building a deeper staffing pool 
to adjudicate these visas. Our extensive planning on both fronts will 
give us the capacity to exceed projected growth. The additional space 
and staff will allow us to process more visas with reduced wait times.
    Each of our posts throughout Mission China has significant 
renovation or expansion projects underway. Shanghai and Chengdu are 
expanding in their current facilities and will add additional 
adjudicating windows by spring 2013. Beijing is renovating the previous 
consular facility to reopen for public use by this summer. Guangzhou 
will move to a new consulate compound in April 2013, doubling its 
capacity, and we are considering a possible relocation of the consular 
section in Shenyang that would allow for expansion at this rapidly 
growing post. In Brazil, we will begin renovation projects at all four 
consulates in spring 2012. These projects increase the capacity of 
entryways and security screening, enlarge waiting rooms, add interview 
windows where possible, and improve foot traffic to shorten the amount 
of time applicants spend in the section. Additional windows for all 
four projects will be operational by December 2012.
    The Bureau of Consular Affairs (CA) is planning for staffing 
increases to fill these new facilities and is adding more than 100 visa 
adjudicators this year and next in China and Brazil. A number of these 
new adjudicators are being hired through a pilot program that targets 
applicants who already speak Mandarin or Portuguese and will be 
arriving at posts through spring and summer of 2012. We are building a 
register of language-qualified potential employees that can be hired 
and deployed in response to changes in demand and as facility projects 
are completed and adjudicating windows are built. Some posts in China 
and Brazil have expanded their hours of operation to maximize use of 
staff and facilities.
    For Brazil, Congress has received our official notification that we 
can begin the process to open two new consulates in Belo Horizonte and 
Porto Alegre, expanding our visa interview capacity to those 
metropolitan cities. These new facilities will help to reduce travel 
times for many applicants residing in those regions.
    The visa interview pilot program is an additional step taken, 
worldwide, to further reduce applicant travel to U.S. embassies and 
consulates. Under the pilot program, consular officers may waive 
interviews for certain categories of qualified nonimmigrant visa 
applicants worldwide who are renewing their visas within 48 months of 
the expiration of their previously held visa, and within the same 
classification as the previous visa (i.e., a B1/B2 applicant applying 
for another B1/B2 visa). This new policy will make it much easier for 
many tourists to renew their visas, helping to free up as many as 
100,000 interview appointments in China alone for first-time travelers. 
This program is also in place at many of our overseas posts, including 
Mexico, India, and Russia.
    Under the pilot program, consular officers also may waive the 
interview and fingerprint collection requirement for certain qualified 
nonimmigrant visa applicants holding Brazilian passports worldwide who 
are younger than 16 years old or 66 years of age and older, so long as 
the required, thorough screening against biographic-based, immigration, 
law enforcement, and intelligence databases raises no concerns.
    The Department of State is dedicated to the protection of our 
borders, and has no higher priority than the safety of our fellow 
citizens. At the same time, we are committed to facilitating legitimate 
travel, and providing prompt and courteous service. State will continue 
to monitor visa adjudications and visa interview wait times to measure 
success in our programs and adjust our planning for the future.
    Question. One possibility to expedite the issuance of visas and 
ameliorate lengthy travel distances to consulates for prospective 
visitors would be for the State Department to conduct interviews in 
remote parts of countries which do not have easy access to consular 
posts. Videoconferencing technology is another potential solution to 
address these challenges. However, I understand the State Department 
does not currently plan to move ahead with remote visa interviews.
    Why? Is it cost-prohibitive? Are there security concerns?
    Answer. The Immigration and Nationality Act (INA) generally 
requires our consular officers to interview in-person all first-time 
visa applicants aged 14 through 79, but gives consular officers 
authority to waive interviews for diplomatic and official applicants 
from foreign governments and, in limited circumstances, some applicants 
renewing their visas. The INA also allows the Secretary of State to 
waive interviews in certain situations.
    Among the provisions in State's fiscal year 2012 budget was a 
request that the Department explore alternative measures to meet the 
personal interview requirement, such as video visa interviewing. We 
have piloted this technology and have found it does not meet our strict 
security requirements. It is costly and less efficient than in-person 
interviews. Our conclusions are based on the following observations and 
results of our pilot:
  --Use of this technology requires off-site facilities manned by 
        American personnel with security clearances, and therefore 
        subject to costly physical security and data-protection 
        requirements.
  --Permission to open such facilities and the legal status of 
        employees could be an issue in some countries, particularly 
        China. We found that moving applicants to and from the camera 
        location and limiting the length of the interview is more 
        challenging at an off-site video facility, thereby reducing the 
        overall number of interviews conducted.
  --Video interviewing presents unacceptable vulnerabilities. Consular 
        officers are trained to use all of their senses to spot 
        potential fraud or threats that might not be as readily 
        observable over a two-dimensional video link.
    We are continually looking for more efficient ways to improve the 
applicant's experience, without compromising security, particularly 
since a trip to the Embassy is often a foreign visitor's first 
impression of the United States. One way to accomplish this, among 
other things, is to decrease the number of people in the waiting room. 
Enhanced security screening in effect since September 11 makes it 
possible to eliminate interviews for certain very limited categories of 
applicants, without compromising border security requirements. This 
factor is why the Departments of State and Homeland Security have 
pursued secure, streamlining measures such as an Interview Waiver Pilot 
program to reduce the opportunity cost for those legitimate travelers 
who have been interviewed and vetted through a comprehensive, multi-
layer process.

                   IMPLEMENTATION OF EXECUTIVE ORDER

    Question. Under section 2(b) of the President's January 19, 
Executive order on travel and tourism, he directed development of an 
implementation plan by the Secretaries of State and Homeland Security 
within 60 days.
    As it has been approximately 60 days since he issued that order, 
has the implementation plan been prepared?
    Please describe the major highlights of the implementation plan and 
whether there are any items which require action by this subcommittee 
as we write the fiscal year 2013 homeland security bill.
    Answer. Yes, the implementation plan was submitted to the President 
on March 19, 2012. State and DHS are committed to the facilitation of 
legitimate travel and tourism. This priority is a vital national 
interest that keeps our borders secure, while generating jobs and 
revenue critical to our economic growth and vitality.
    Section 2(b) of the Executive order lays out the following four 
goals:
  --(i) Increase nonimmigrant visa processing capacity in China and 
        Brazil by 40 percent over the coming year;
  --(ii) Ensure that 80 percent of nonimmigrant visa applicants are 
        interviewed within 3 weeks of receipt of application;
  --(iii) Increase efforts to expand the Visa Waiver Program (VWP) and 
        travel by nationals of VWP participants; and
  --(iv) Expand reciprocal recognition programs for expedited travel, 
        such as the Global Entry program.
    These four are whole-of-government goals, but for planning and 
implementation purposes, State will lead on goals (i) and (ii) and DHS 
will lead on goals (iii) and (iv).
    State will increase staffing at our highest volume posts by:
  --Increasing overall visa adjudicating positions in Brazil and China 
        by 98 in 2012; and
  --Hiring additional consular adjudicators with Portuguese and Chinese 
        language ability via limited non-career appointments (LNAs).
    State will increase the efficiency of its consular sections in 
China and Brazil by:
  --Expanding interviewing hours in China and Brazil; and
  --Implementing the Global Support Strategy (GSS) in Brazil and China 
        as soon as feasible. GSS replaces the current patchwork of 
        contractor-provided visa support services at overseas posts 
        (e.g., call centers, appointment scheduling, and document 
        delivery) with a single contract and comprehensive process for 
        logistical arrangements preceding the actual adjudication 
        process.
    State will expand existing facilities and explore possibilities for 
additional visa-processing facilities in China and Brazil. We will:
  --Remodel and renovate existing facilities, including adding 48 
        interview windows in China and 19 in Brazil;
  --Expand existing facilities in China;
  --Expand service hours and introduce multiple shifts where 
        appropriate; and
  --Assess the feasibility of establishing new visa-adjudicating 
        locations.
    State will implement the program to waive interviews for low-risk 
applicants, as described in the Executive order:
  --Expand the eligibility for renewal of nonimmigrant visas for 
        certain categories of applicants without interview from 1 to 4 
        years since expiration of the previous visa; and
  --Streamline processing for certain Brazilian applicants younger than 
        16 years old and 66 years of age and older.
    State will further improve its capacity to process visa 
applications in 2012 and beyond. As noted above, State is increasing 
staff, taking measures to increase efficiency, expanding facilities, 
implementing a pilot program to streamline processing for low-risk visa 
applicants (including the waiver of interviews for certain low-risk 
applicants), and monitoring progress to achieve these goals. These 
initiatives include an increase in visa adjudication staff by 50 
percent in China and 130 percent in Brazil, resulting in capacity to 
adjudicate an additional 1.5 million adjudications per year by the end 
of 2012. The additional staff will permit us to introduce longer 
interview hours and they will work in expanded facilities. State is 
confident that the capacity- and efficiency-building measures described 
in this document, combined with further refinement of data collection, 
will allow it to meet the benchmark to increase visa interview capacity 
in Brazil and China 40 percent while also meeting its target of 
interviewing 80 percent of visa applicants worldwide within 3 weeks 
from when an application is submitted.

 TRAVEL TO THE UNITED STATES: FROM A VISA WAIVER PROGRAM COUNTRY VS. A 
                    NON-VISA WAIVER PROGRAM COUNTRY

    Question. One of the concerns I hear from constituents is how long 
it takes them to get a visa to travel to another country. At the same 
time, we are trying to expedite the issuance of visas for travel to 
this country.
    If someone wanted to travel to the United States from a Visa Waiver 
Program country--like England or France--they do not have to get a 
visa.
    Please describe what steps they must take to come here. What forms 
do they need to fill out and how much do they cost?
    What about travelers to the United States from a non-Visa Waiver 
Program country--like Brazil or China?
    What steps do they have to take and how long does it take?
    Answer. The Visa Waiver Program (VWP) allows foreign nationals from 
certain countries to travel to the United States for business or 
pleasure, for stays of 90 days or less without obtaining a visa. 
Travelers admitted under the VWP must agree to waive their rights to 
review or appeal, as explained in the Waiver of Rights section of the 
Application screen. All passengers traveling under the VWP are required 
to have an approved Electronic System for Travel Authorization (ESTA) 
prior to traveling to the United States by air or sea. The program is 
administered by U.S. Customs and Border Protection.
    Mandated by the Implementing Recommendations of the 9/11 Commission 
Act of 2007 (9/11 Act), ESTA adds another layer of security that allows 
the Department of Homeland Security (DHS) to determine whether an 
individual is eligible to travel to the United States under the VWP and 
whether such travel poses a law enforcement or security risk.
    Travelers should submit their ESTA applications at least 72 hours 
prior to travel. However, not all travel is planned in advance and 
applications for last minute or emergency travel are accommodated.
    To apply for ESTA, travelers need to complete an application at the 
ESTA Web site (https://esta.cbp.dhs.gov). Travelers must provide 
biographic information, passport data, credit card information for the 
required fees, and answer VWP eligibility questions. The traveler 
receives an application number that can be used to track their ESTA 
application. CBP queries the traveler's information against the 
appropriate data bases to determine if the traveler is eligible for the 
VWP or if they provide a security or law enforcement threat to the 
United States.
    Once the traveler's data has been screened he or she will receive 
one of three responses:
  --Authorization Approved.--Travel is authorized and the authorization 
        is valid for 2 years and any number of trips in the period, 
        unless there is a change in status--for example, name change, 
        marriage, VWP eligibility, or passport expiration;
  --Authorization Pending.--An immediate determination could not be 
        made and that the traveler should check back in 72 hours; or
  --Travel Not Authorized.--The traveler is not eligible to travel the 
        United States under the VWP and is advised to visit the U.S. 
        Department of State Web site for additional information about 
        applying for a visa.
    All applicants requesting an electronic travel authorization are 
charged a $4 processing fee. If an application is approved and the 
traveler receives authorization to travel to the United States under 
the VWP, an additional $10 fee will be charged in accordance with the 
Travel Promotion Act of 2009.
    For a national of a non-visa waiver country to apply for a visa, a 
potential traveler would follow these steps:
  --Complete a visa application (form DS-160) online;
  --Schedule an interview appointment at a U.S. Embassy or consulate. 
        Scheduling procedures vary in each country. Wait times to 
        obtain an appointment at each Embassy or consulate are 
        available on the Bureau of Consular Affairs Web site at http://
        travel.state.gov/visa/temp/wait/wait_4638.html, and are updated 
        weekly;
  --Pay the visa processing fee of $140 (increasing to $160 on April 
        13, 2012). Payment procedures vary in each country. In some 
        countries, applicants can also submit digital fingerprints at 
        an applicant service center any time prior to their interview 
        date. If not, those digital fingerprints are taken at the 
        appointment; and
  --On the day of his/her interview appointment, visit the Embassy or 
        consulate, to have his/her fingerprints taken (if not taken 
        before), and appear before a United States consular officer, 
        who has reviewed the application and security check results, 
        for an interview. (In some instances, the officer may waive the 
        interview for a qualified applicant renewing a visa.) The 
        applicant must provide a valid passport, photo, and receipt for 
        payment. Other forms or documents may be necessary depending on 
        the type of visa and purpose of travel. Once cleared, the visa 
        is printed, affixed in the passport, and returned to the 
        applicant, usually through a courier service or express mail.
    More than 70 percent of applicants worldwide obtain appointments in 
less than 3 weeks, and as we outlined in our written testimony, the 
Department has dedicated considerable resources to improve that figure. 
Approved visas are generally returned to applicants within 1 to 3 days. 
A very small number of cases may require additional processing, usually 
for security, legal, or administrative reasons.
    Applicants for some visa categories, such as student or temporary 
employment, must meet additional requirements before making a visa 
application. For example, temporary workers generally require approved 
petitions filed through U.S. Citizenship and Immigration Services. 
Students must be accepted by an approved educational institution, 
receive a confirmation form from the school (form I-20) and pay a fee 
to the Student and Exchange Visitor Program prior to their visa 
interview.
    Question. At the hearing, one of the witnesses on the second panel 
raised concerns about the inability of the State Department to issue 
visas to foreign visitors to trade shows held in the United States and 
the loss of revenues related to those shows.
    Please respond to these concerns.
    Are there steps international visitors can take to improve their 
visa applications, including submitting them within a certain 
timeframe?
    Answer. The Department of State understands the important economic 
benefits of foreign visitors at U.S. trade shows, particularly those 
from fast-growing economies who require visas to enter the United 
States. Large numbers of foreign attendees come to the United States 
without visas, either from Canada or the 36 countries participating in 
the Visa Waiver Program. In other countries, our embassies and 
consulates issue visas to many thousands of qualified trade show 
visitors and exhibitors each year.
    While Department of State visa statistics do not capture issuance 
and refusal rates specifically for trade shows, according to attendance 
figures obtained from three of the largest U.S. trade shows,\1\ foreign 
participants last year ranged from 11 to 21 percent of total visitors 
to their shows. An average of 54 percent of the foreign visitors at 
these three shows entered the country using visas. Trade show 
participants from Canada and visa waiver countries averaged 46 percent 
of foreign attendees. By contrast, the proportion of overall U.S. 
international travelers who enter the United States using a visa each 
year is 35 to 40 percent. The remaining 60 to 65 percent of 
international travelers do not require visas (principally Canadians and 
Visa Waiver Program participants).
---------------------------------------------------------------------------
    \1\ Because attendance figures are proprietary, we are not able to 
name the three shows. They are among last year's top five U.S. trade 
exhibitions in attendance.
---------------------------------------------------------------------------
    The higher proportion of trade show participants who entered with 
visas (54 percent compared with 35 to 40 percent among overall 
travelers) indicates that the U.S. visa process is not a barrier to 
foreign attendance at these events. On the contrary, Visa Office 
representatives in Washington routinely consult with event organizers 
to clearly and accurately inform them about general visa requirements 
and processing. The Visa Office's Business Visa Center (BVC) provides 
information to conference organizers and business travelers. The center 
also posts information about upcoming conferences on the Department's 
intranet site to inform consular officers about events and trade shows 
that expect more than 100 foreign participants. In 2011, the BVC 
handled over 3,400 inquiries, and in the first 3 months of 2012, has 
posted information about 66 conferences and trade shows that are 
expecting more than 153,000 foreign participants.
    The Department of State is committed to facilitating legitimate 
business travel and supporting U.S. economic growth. All U.S. embassies 
and consulates have established procedures to expedite appointments for 
business travelers. U.S. officials work closely with American Chambers 
of Commerce in more than 100 countries to streamline the visa process 
for business travelers. Embassy Foreign Commercial Service and economic 
officers also work closely with visa sections, informing them about 
upcoming shows and country delegations. At the same time, each 
applicant must individually qualify for the visa they are seeking under 
U.S. immigration law. Unfortunately, a small minority of potential 
trade show attendees fail to satisfy this legal requirement. However, 
we note that a study by Oxford Economics commissioned by the Exhibition 
Industry Foundation said that only ``3.1 percent of the total 
attendance of [surveyed] shows could not participate in the event 
because of visa issues. In addition, 1.3 percent of all exhibitors were 
not able to attend the 15 events that responded due to visa problems in 
attendance at those shows.''
    Visa applicants should apply as early as possible before travel, to 
allow for any processing that might be necessary. They should be 
prepared to discuss, if asked, the family, social and economic ties to 
their home country that show they are not at risk of remaining 
unlawfully in our country. Most visas are issued for multiple trips and 
are valid for as long as 10 years in many countries, depending on how 
that country treats U.S. citizen travelers, so applicants who 
anticipate future travel do not need to wait until just before their 
trip. Applicants can find extensive information about the visa process 
on the Bureau of Consular Affairs Web site at http://travel.state.gov.
    Question. Your testimony delineates the number of specific steps 
State has already taken to reduce the time it takes to issue new visas 
to visitors from Brazil and China. However, there still appears to be 
the impression that large numbers of potential travelers are unable to 
visit the United States because of an inability to obtain a visa.
    In your estimation, what percent of the potential traveling 
universe from these countries are first time visa requesters? Please 
describe this issue in more detail.
    Does more need to be done to encourage multiple trips to the United 
States because many travelers already have multiple-entry visas?
    For what reasons can an individual be denied a visa? Are all of 
these reasons specified in U.S. law?
    Do many visa requesters apply for a visa with little notice or just 
days prior to their planned trip? What more can our Government do to 
encourage these individuals to apply for a visa on a timelier basis?
    Answer. The vast majority of visa applicants in Brazil and China 
are legally eligible for visas and are being issued visas. In fiscal 
year 2011, we issued visas to more than 96 percent of Brazilian 
applicants and almost 90 percent of Chinese applicants.
    The Department of State does not maintain statistics on the number 
of visa applications coming from first-time applicants. Available data 
does suggest that many visa holders make multiple trips to the United 
States. Comparing Department of Homeland Security admissions statistics 
for fiscal year 2010 (the most recent available) and the total number 
of visas issued in that year, we can see the number of travelers to the 
United States far exceeds the number of visas issued during the year.

------------------------------------------------------------------------
                                           Nonimmigrant    Nonimmigrant
                                            admissions     visas issued
            Fiscal year 2010                   (all            (all
                                            categories)     categories)
------------------------------------------------------------------------
Brazil..................................       1,233,457         546,866
China...................................       1,038,279         653,198
------------------------------------------------------------------------

    We do think that BrandUSA should target current visa holders as a 
group likely to return to the United States again and again.
    Most visas are issued for multiple entries and for validity periods 
reciprocal to what the foreign government grants American travelers. In 
the last 7 years, for example, the United States issued Brazilians more 
than 2.6 million tourist visas (B1 and B2 categories), almost all of 
which can still be used for travel. Worldwide, from fiscal year 2007 to 
fiscal year 2010 alone, we issued more than 21 million visitor visas 
worldwide (categories B1, B2, and border crossing cards), the vast 
majority of which are still valid. This represents an enormous 
potential market for tourism promotion.
    A visa can be denied only on grounds delineated in the Immigration 
and Nationality Act (INA). The majority of nonimmigrant visa denials 
result from the applicant's failure to meet the requirements of INA 
section 214(b) which, in part, states: ``Every alien . . . shall be 
presumed to be an immigrant until he establishes to the satisfaction of 
the consular officer, at the time of application for a visa. . . that 
he is entitled to a nonimmigrant status under section 101(a)(15).''
    In the case of B1 and B2 visa applicants, INA section 214(b) 
relates to the applicants' failure to convince the interviewing officer 
that they have strong ties to a residence abroad that will compel them 
to leave the United States after a temporary visit.
    INA section 212(a) lists other grounds of inadmissibility to the 
United States, including criminal convictions, affiliation with 
terrorist organizations, drug trafficking, fraud, among others. INA 
section 291 places the burden of proof on the applicant to establish he 
or she is eligible to receive a visa.
    In all of our public outreach on visas, the Department of State 
urges potential travelers to apply early. We make available on our 
public Web site (http://travel.state.gov) the lead times necessary to 
obtain interview appointments at each of our visa-issuing posts. This 
information is updated weekly so that travelers can realistically plan 
ahead.
    In fact, more than 70 percent of applicants worldwide obtain 
appointments in less than 3 weeks, and as we outlined in our written 
testimony, the Department has dedicated considerable resources to 
improve this figure. We are committed to achieving the goal the 
President laid out in Executive Order 13597 that ``80 percent of 
nonimmigrant visa applicants are interviewed within three weeks of 
receipt of application.'' Once approved, visas are generally available 
to applicants within several days. (A small number of cases may require 
additional processing, usually for security, legal or administrative 
reasons.) All of our visa-issuing posts have procedures to expedite 
cases with medical, humanitarian, national interest, or urgent business 
travel, as well as other cases having a legitimate need for rapid 
handling.
                       NONDEPARTMENTAL WITNESSES

    Senator Landrieu. First, we have Roger Dow, president and 
CEO of the U.S. Travel Association; second, Charles Barclay, 
president of the American Association of Airport Executives 
(AAAE); third, Thomas Hendricks, senior vice president of 
Safety, Security and Operations for Airlines for America (A4A); 
Mr. Steven Hacker, president and CEO of the International 
Association of Exhibitions and Events; and Sara Nelson, 
international vice president, the Association of Flight 
Attendants (AFA).
    Take your seats in any order, ladies and gentlemen. Mr. 
Dow, if you do not mind, we will start with you. And if you all 
could limit your opening statements to 3 minutes each, that 
will leave us approximately 15 or so minutes for questions to 
the panel. And so Mr. Dow, let us start with you. And if there 
is anything that you heard in the first panel that you would 
like to raise, add to your statement, please feel free. But let 
us leave it to 3 minutes.

STATEMENT OF ROGER DOW, PRESIDENT AND CEO, U.S. TRAVEL 
            ASSOCIATION
    Mr. Dow. Very fine. Thank you, Madam Chairman, for holding 
this hearing. It is so important, and I will skip going through 
how big the industry is because you did a great job off the 
bat. Lots of jobs, huge industry.
    The critical role that DHS and the State Department have in 
working and facilitating commerce and travel and protecting our 
country we will all concur on. We really thank you for all the 
bipartisan leadership on this issue because it is a white hat 
issue. I mean, we all believe in increasing travel, jobs, et 
cetera.
    But we sincerely believe that we can have a robust economy 
and a robust tourism industry and very secure by making a few 
changes and modifications in some of the things that we are 
doing right now.
    I am going to divide my testimony into two parts. One, I am 
going to talk domestically and I want to address TSA, which was 
talked about.
    The Federal Aviation Administration (FAA) predicts that in 
20 years, air traffic will double. So it is going to be 1.2 
billion travelers. So the concern is what does that mean for 
longer lines if we just keep doing things the way we are. 
Sooner or later, this thing falls in on itself. In 2010, we did 
a survey and we asked people if you knew you had dependability 
and if you knew it was a short, defined amount of time, would 
you travel more. And people said they would take two or three 
more trips. That is $85 billion, and when you look at that, 
that is hundreds of thousands of jobs that that creates. We 
think there is a way to really increase this significantly. If 
you look at that $85 billion that we could have had, we want to 
make sure we do not have that same loss going forward.
    So we have submitted, in conjunction with AAAE and CLEAR, a 
way that we could find a way to rapidly increase the number of 
people that go on the Pre3<SUP>TM</SUP> program because we 
think that is extremely valuable and have a way that people 
could be enrolled like in New Orleans. To go in Global Entry, 
you have to go to Houston and it is a long way. So we are 
recommending ways to increase that, and that is very critical.
    When you look at inbound travel, expanding that--and first 
of all, I do applaud Administrator Pistole for what they have 
done on really stepping forward with Pre3<SUP>TM</SUP>. It is a 
great beginning, but we can take it much further because we 
have to get a lot more than those 6,000 people a day going 
through the system or it is like an HOV lane that does not 
work.
    So when we take a look at what is going on with inbound 
travel, if you look at long-haul travel to the United States, 
we now get 12 percent of inbound travel around the world. We 
used to get 17 percent. We have lost a huge amount of money. 
That is $153 billion. But if we can get back to where we were 
years ago, that would be $400 billion to the U.S. economy, 1.3 
million jobs over decades. It is big. And we can do that 
through several ways.
    One, expanding the visa issuance process. We think a great 
job is being done there. The numbers that Mr. Donahue talked 
about have been nothing less than outstanding over the past 
year. But we can expand that greatly.
    Also, we need to find a way to get more people into this 
program, and when you look at the visa waiver program, that is 
one that we believe can be increased. There are 100 and some 
countries around the world. We have 36 countries in there. And 
there are relatively few countries with security that could 
really be looked at. If we could get them into the visa waiver 
program, that would be terrific.
    And last, the immigration process of how people come in. It 
is just as important to have a welcoming and efficient process, 
and if we are going to increase the visa process by 40 
percent--I did some quick calculation--that is going to add $70 
million to what we do. And somehow we ought to figure out how 
to use that money at both ends of the spectrum.
    And last, you asked a question about video conferencing, 
and I applaud your putting it in there. That has not happened 
as far as the pilot, and we believe that just as Ranking Member 
Coats asked, is there technology--and we really believe you 
have to test it. We have to put technology to work or these 
things will fall in on themselves. We have to try this. And we 
are going to watch. We talked about the Indiana game. We are 
going to watch basketball. We are going to watch people on high 
definition, 100-inch TVs. I am going to be able to tell whether 
someone is going to make that foul shot or not just looking at 
their eye. You can see that. Plus, it gives you a chance to 
record it, have other people look at. So we believe we should 
pilot this program that you have proposed, and we would hope to 
work with you and with the State Department to make that 
happen.

                           PREPARED STATEMENT

    Thank you very much for your help and all you do for this 
industry.
    [The statement follows:]

                    Prepared Statement of Roger Dow

    Chairman Landrieu, Ranking Member Coats and members of the 
subcommittee: I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the national, nonprofit organization 
representing all sectors of America's travel industry. U.S. Travel's 
mission is to increase travel to and within the United States. Last 
year the $813 billion travel industry generated a total of $1.9 
trillion in total economic output.
    I applaud you for holding today's hearing to discuss the critical 
role the Department of Homeland Security (DHS) plays in facilitating 
travel and commerce, and protecting our country. I would also like to 
thank you for the strong bipartisan leadership you have demonstrated on 
travel issues during your time here in Washington.
    Travel provides good, domestic jobs that cannot be outsourced. In 
2011, travel supported 14.4 million jobs and is among the top 10 
employers in 48 U.S. States and the District of Columbia. For example, 
travel directly employs more than 100,000 Louisianans, contributes $8.9 
billion annually to the Louisiana economy and generates more than $1.1 
billion in State and local tax revenue. Similarly, travel directly 
employs more than 96,000 Indianans, contributes more than $8.6 billion 
to the Indiana economy and generates nearly $1.3 billion in tax 
receipts. In every region of America, travel helps pay the salaries of 
police, firefighters, and teachers without creating much new demand for 
those public services.
    I am here today to tell you that increasing travel in the United 
States is the most effective form of economic stimulus--and it doesn't 
cost taxpayers a dime. When American and international visitors travel 
within the United States, they inject new money into the U.S. economy 
by staying in U.S. hotels, spending in U.S. stores, visiting U.S. 
attractions, and eating at U.S. restaurants. And spending by 
international travelers is chalked up as U.S. exports that contribute 
positively to America's trade balance. In fact, international travel is 
the export sector that should be easiest to boost.
    Larry Summers, the former director of the National Economic 
Council, recently observed that ``the easiest way to increase exports 
and close the trade gap is by increasing international travel to the 
United States.''
    But the 10 years from 2001 through 2010 were a lost decade for 
America's travel industry and the U.S. economy. While global 
international travel grew over the last decade, America failed to keep 
pace. The opportunity costs of this slippage are staggering. If America 
had kept pace with the growth in global long-haul international travel 
between 2000 and 2010, 78 million more travelers would have visited the 
United States, adding a total of $606 billion to the U.S. economy that 
could support more than 467,000 additional U.S. jobs annually over 
these years.
    Unlike other goods and services, the barriers to travel are 
primarily self-imposed. There are no trade agreements to be negotiated 
or tariffs to reduce with other countries. The principle barriers to 
increased travel to and within the United States are the 
inefficiencies, uncertainties, and delays that characterize our visa, 
entry, and passenger screening process. These self-imposed restrictions 
discourage Americans and overseas visitors from traveling within the 
United States.
    It is unconscionable that in a time of weak economic growth, 
followed by deep recession, inefficient security, and travel 
facilitation programs caused America to leave so much economic 
prosperity on the table. We cannot afford to make the same mistakes in 
this current decade. As described below, these lost opportunities are 
not a tradeoff with security--we can have robust, growing, and secure 
travel.

         IMPLEMENT RISK-BASED AND EFFICIENT PASSENGER SCREENING

    Over the next 20 years, air passenger travel will almost double to 
1.2 billion passengers per year, according to projections released last 
week by the Federal Aviation Administration (FAA). This forecast may 
seem like an indicator of robust growth and increased job creation in 
the years ahead. But given our Nation's inefficient and costly security 
screening process, and the growing level of passenger frustrations--the 
FAA is really forecasting longer lines and wait-times at security 
checkpoints and potentially greater economic losses for the travel 
industry.
    To understand the potential magnitude of problems in the future, it 
is helpful to examine the costs imposed by the current system. A 2010 
survey conducted by Consensus Research found that travelers would take 
two to three more flights per year if the hassles in security screening 
were reduced. These additional flights would add nearly $85 billion in 
consumer spending back into local hotels, restaurants, convention 
centers, and other travel business, and help support 900,000 jobs.
    An inefficient screening process also imposes a staggering cost on 
the American tax payer. From 2004 to 2011, the TSA's budget rose by 68 
percent, while the number of passengers screened remained almost 
flat.\1\ If these trends continue, TSA's budget would spiral out of 
control as passenger levels increase.
---------------------------------------------------------------------------
    \1\ U.S. Travel Association, ``A Better Ways: Building a World-
Class System for Aviation Security.'' http://www.ustravel.org/sites/
default/files/page/2011/03/A_Better_Way_032011.pdf
---------------------------------------------------------------------------
    The only way to avoid this scenario is for TSA to become a more 
risk-based, intelligence-driven, and cost-effective organization.
    In 2011, TSA recently launched PreCheck (Pre3<SUP>TM</SUP>), a 
trusted traveler pilot program that provides expedited screening for 
passengers willing to volunteer more personal information. 
Pre3<SUP>TM</SUP> is an essential first step in creating a more 
efficient and secure screening process, and I applaud Administrator 
Pistole for his leadership in creating this program.
    Today, roughly 400,000 Americans are enrolled in Pre3<SUP>TM</SUP>, 
which is small number compared to the 2 million people who fly each 
day. The future success of the program will depend on the operational 
efficiencies and cost-savings realized when more low-risk travelers use 
the program on a frequent basis.
    Unfortunately, there are several barriers preventing ordinary 
Americans from joining and using Pre3<SUP>TM</SUP>. One way to join the 
program is to be a member of U.S. Customs and Border Protection's 
(CBP's) Global Entry program. To be a part of Global Entry, CBP 
requires an in-person interview but only offers these interviews at 25 
permanent locations. If a person living in New Orleans wishes to join 
Global Entry, the closest CBP interview location is in Houston, Texas--
nearly a 6-hour drive away. Alternatively, if the same person wanted to 
qualify for Pre3<SUP>TM</SUP> through an airline frequent flier 
program, U.S. Travel estimates that it would cost roughly $10,000 in 
airfare paid to a single airline in order to accrue enough frequent 
flier miles to qualify.\2\
---------------------------------------------------------------------------
    \2\ TSA considers enrollment criteria for Pre3<SUP>TM</SUP> to be 
security sensitive information. The U.S. Travel Association calculated 
an estimate of the cost to join Pre3<SUP>TM</SUP> by multiplying the 
average 2010 passenger yield (the average fare paid by domestic 
passengers per mile flown) of  cents13.49 by 75,000 (the number of 
miles needed to become a platinum customer on Delta airlines).
---------------------------------------------------------------------------
    Moreover, once a traveler is enrolled in Pre3<SUP>TM</SUP> through 
a frequent flier program, they can only use the expedited screening 
lanes when flying with that particular airline--in airports where 
Pre3<SUP>TM</SUP> is established. For example, an American Airlines 
Pre3<SUP>TM</SUP> customer who buys an American Airlines ticket for 
travel from JFK airport to Miami International, would have access to 
the Pre3<SUP>TM</SUP> lane. If that same customer decides to fly Delta 
airlines on the return flight home, he or she would not have access to 
the Pre3<SUP>TM</SUP> lane, simply because they are not flying with 
American Airlines. In our opinion, risk should not be determined by 
your loyalty to any one airline.
    Fortunately, there are many innovative ways to bolster the 
Pre3<SUP>TM</SUP> program. TSA and the Department of Homeland Security 
(DHS) can increase participation in Pre3<SUP>TM</SUP> by expanding 
CBP's trusted traveler programs and allowing travelers to qualify by 
aggregating their frequent flier miles across multiple airlines. 
Additionally, once a passenger is enrolled in the program, 
Pre3<SUP>TM</SUP> passengers should be immediately granted access to 
any Pre3<SUP>TM</SUP> lane.
    But TSA must also offer enrollment opportunities beyond CBP trusted 
travelers and elite frequent fliers if the program is going to succeed. 
In 2011, the U.S. Travel Association, the American Association of 
Airport Executives (AAAE), and CLEAR submitted to TSA a joint proposal 
for expanding Pre3<SUP>TM</SUP>. Under our proposal, TSA would 
establish a new set of eligibility requirements for participation in 
the program. U.S. Travel, AAAE, CLEAR, and TSA would then work to 
create enrollment procedures that meet these requirements by using 
proven and operationally ready methods of identity verification and 
risk assessment. Once these procedures are in place, our organizations 
could quickly increase enrollment in Pre3<SUP>TM</SUP> by leveraging 
CLEAR's existing base of 200,000 members and providing additional 
outlets for enrollment in places frequented by travelers--including 
airport, hotel, rental car, and convention center lobbies. 
Additionally, CLEAR is willing to explore a partnership with CBP 
whereby persons who enroll in Pre3<SUP>TM</SUP> through CLEAR would be 
offered reimbursement for the CBP trusted traveler application fees.
    TSA is considering various aspects of our proposal and we look 
forward to working with them in the future to expand Pre3<SUP>TM</SUP> 
and ensure its future success.

                PROMOTE AND EXPAND INTERNATIONAL TRAVEL

    Just as FAA is predicting a significant increase in domestic air 
travel, international air travel is expected to grow as well. On a 
worldwide basis, total international tourist arrivals are projected to 
grow 36 percent between 2010 and 2020, resulting in $2.2 trillion in 
direct travel spending and 62 million jobs. Over the same period, 
international travel revenue as a share of global GDP is forecast to 
increase by 10 percent. This presents enormous economic and diplomatic 
opportunities of the United States.
    Increasing secure travel to the United States is an integral part 
of a successful foreign policy. As noted by a Federal advisory 
committee to the Departments of Homeland Security and State in 2008:

    Our long-term success requires not only that we deter and detect 
determined adversaries, but also that we persuade millions of people 
around the globe of our ideals--democratic freedom, private enterprise, 
human rights, intellectual pursuit, technological achievement. That 
persuasion requires human interaction, and each visitor to the United 
States represents such an opportunity. Raw statistics are important in 
analyzing our achievements and challenges, but so are the attitudes we 
display. Treating prospective and actual visitors with dignity and 
respect will reinforce, not diminish, our security.

    The travel industry is also a leading source of U.S. exports. When 
visitors travel to the United States from abroad, they inject new money 
into our economy by staying in our hotels, shopping at our stores, 
visiting our attractions and eating at our restaurants. In many cases, 
they are also here to conduct business that can lead to significant 
sales of U.S. products and services in overseas markets. Every dollar 
these visitors spend in the United States counts as an export--just 
like agricultural crops, minerals, or manufactured goods. International 
travel to the United States generated more than $134 billion in exports 
in 2010, supported 1.8 million U.S. jobs, and made travel the Nation's 
leading industry export.
    In May 2011, the U.S. Travel Association released a comprehensive 
report which studied the effects of the visa process on international 
travel to the United States and found that delays, cost, access, and 
unpredictability in the U.S. visa system served as a barrier for 
potential visitors and contributed to our lost market share. The travel 
industry rallied together in support of recommendations in the U.S. 
Travel Association's report that would help to reform the visa process 
in key high-growth and high-spend markets such as Brazil, China, and 
India.
    While reforms can often be difficult to implement and are rarely 
done quickly, we greatly appreciate the support and attention Secretary 
of State Hillary Clinton, Deputy Secretary of State for Management and 
Resources Tom Nides, and U.S. Ambassador to China Gary Locke have 
dedicated to improving the U.S. visa process in China and Brazil over 
the last year. The State Department has undertaken several steps, most 
importantly dedicating more personnel and resources toward visa 
adjudication. Among the Department's recent initiatives are:
  --Adding 100 visa adjudicators in China and Brazil, many of whom are 
        being hired through a pilot program that targets applicants 
        with Mandarin and Portuguese language skills.
  --Extending hours at some posts in China and Brazil at existing 
        facilities to process more visa applicants.
  --Expanding visa-processing facilities to allow for increased 
        interview capacity of applicants.
  --Opening a new Embassy consular facility in Beijing to increase visa 
        interview capacity in by 50 percent.
  --Initiating a new pilot program that permits consular officers to 
        waive interviews for some qualified non-immigrant applicants 
        worldwide who are renewing their visa within 48 months of the 
        expiration of their previously held visa, and within the same 
        classification as the previous visa.
  --In Brazil, permitting consular officers to waive interviews for 
        applicants 15 years and under and 66 and older.
  --Sending temporary duty officers to manage seasonal spikes in visa 
        application demand.
    Furthermore, we applaud the President for issuing Executive Order 
13597 which gives this issue the prominence it deserves, and offers the 
vision and commitment we have long needed to reap the economic, 
security and public diplomacy rewards that will come from improving our 
competitiveness in the global travel market.
    We look forward to working with the new Task Force on Travel and 
Competitiveness that was created by the Executive order to help fulfill 
the enormous promise of America's travel industry and strengthen our 
economy's leading industry export. However, there is also a clear role 
for Congress to help advance policy that will increase legitimate 
international travel. I will focus on three key areas: the entry 
experience at U.S. international airports, the visa issuance process, 
and the Visa Waiver Program.

                         VISA ISSUANCE PROCESS

    As I mentioned, visa issuance process will be a critical factor in 
determining whether the United States will regain the 17-percent global 
travel market share we once held and whether we can match the market 
power our Western European competitors currently enjoy in the thriving 
Brazilian, Chinese, and Indian travel markets.
    We believe Congress can play a key role in ensuring that the 
reforms the State Department has implemented to reduce the backlog in 
visa processing in Brazil and China are replicated in other countries 
and that they are sustained over time. In our view, Congress should 
codify a 2-week visa processing standard. Furthermore, a consistent set 
of metrics that indicate the efficiency, effectiveness, and consumer 
friendliness of visa application and adjudication should be maintained 
and be used to analyze and continually improve performance and optimize 
deployment of resources. The performance metrics related to visa 
application and adjudication and those related to entry of 
international travelers, both citizens and non-citizens, should be 
globally benchmarked. For example, the State Department needs to 
develop a short-term and long-term plan for addressing visa processing 
problems in key emerging markets (Brazil, China, and India) and measure 
its visa processing performance against Western European countries 
competing for these visitors. Progress assessments should be evaluated 
by GAO annually; both the report and assessment should be submitted to 
Congress for review. The State Department should develop a formal 
tracking mechanism to measure results, and its annual budget request 
should reflect the resources required to these meet targets.
    Another area for Congress to engage is in providing greater access 
to a U.S. visa interview for thousands of applicants. The visa 
application fee is $140 but the real cost of obtaining a U.S. visa is 
far greater, particularly when potential visitors do not live near a 
consular post issuing visas and therefore must travel hundreds if not 
thousands of miles and pay for a flight and hotel to make a mandatory 
trip to a U.S. consulate for an interview that on average lasts for 3 
minutes.
    Thanks to the leadership of Senator Landrieu and others on this 
subcommittee, the fiscal year 2012 omnibus appropriations bill included 
language that granted the State Department the authority to develop and 
conduct a pilot program that would use secure videoconferencing 
technology to interview visa applicants remotely. Ensuring security of 
the videoconferencing transmission and encryption must be a top 
priority. Therefore, we support granting Federal agents access to the 
recorded interview videos as well as ensuring that the State Department 
works with other Federal agencies that regularly transmit real-time 
video, biometric, and document data through secure means. 
Unfortunately, the State Department has stated that it does not intend 
to carry out a pilot of the technology. We hope to work with the 
subcommittee and the State Department on this issue to find a way to 
move a pilot forward. The fact is we live in a world where technology 
can help us solve problems but we must be open to testing it.
    Furthermore, the lack of reliable information regarding applicant 
backlogs makes it difficult to identify consulates where demand is not 
being properly met. The GAO reported, ``Wait times generally do not 
provide a sense of applicant backlog, which is the number of people who 
are waiting to be scheduled for an appointment or the number of people 
who have an appointment but have yet to be seen.'' \3\ In order to 
better understand and manage workload, staffing and throughput, it is 
critical that the State Department develop a better measure of 
applicant backlogs and use that information to deploy resources more 
efficiently and develop annual budget requests.
---------------------------------------------------------------------------
    \3\ GAO, ``Border Security: Long-term Strategy Needed to Keep Pace 
with Increasing Demand for Visas''. (13-JUL-07, GAO-07-847)
---------------------------------------------------------------------------
    The State Department should also set a standard for capping 
interview dates at consulates to prevent consulates from artificially 
limiting appointment dates which only serves to mislead applicants 
about the actual interview wait times. The GAO noted in its report: 
``We observed that some posts artificially limit wait times by tightly 
controlling the availability of future appointment slots--such as by 
not making appointments available beyond a certain date, which can make 
appointment scheduling burdensome for the applicant who must 
continually check for new openings.'' \4\ We believe that individual 
posts should not control the availability of appointment slots to 
artificially limit wait times. We urge the State Department to publish 
specific guidance on this issue.
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    The lack of reliable information about the visa system, its current 
performance and its ability to meet future demand makes it all the more 
difficult to make improvements. However, we know that improving the 
performance and competitiveness of the visa processing system must 
begin with transparency. We recommend a system of ongoing information 
sharing that should take place at least annually--and in some cases 
monthly. This data should include:
  --Monthly visa interview wait times for each consulate so that 
        travelers can view historical information and make informed 
        decisions about when to apply.
  --Consulate throughput capacity and ability to meet projected visa 
        demand.

                          VISA WAIVER PROGRAM

    The most economical and powerful step the U.S. Government can take 
to improve the performance and competitiveness of the visa processing 
system while maintaining national security is to sign bilateral visa-
free travel agreements with new countries as part of the Visa Waiver 
Program (VWP). Visitors from VWP countries played a leading role in 
making travel the leading service export for our Nation. VWP countries 
are the largest source of inbound overseas travel to the United States. 
According to Commerce Department data, over 17 million VWP visitors, 65 
percent of all visitors from overseas traveled to the United States in 
2010. While here, they spent more than $61 billion, supporting 433,000 
American jobs along with $12 billion in payroll, and generating $9 
billion in Government tax revenues. Countries in the VWP must agree to 
adopt strict security measures, strong travel document standards, and 
enhanced information sharing agreements with the United States. In 
addition, each traveler from a participating country must also obtain 
pre-clearance to board a flight to the United States through the 
Electronic System Travel Authorization (ESTA).
    We strongly support the recommendation in the President's recent 
Executive order on travel and tourism, that the U.S. Government 
increase its efforts to expand the VWP. We are pleased that the 
administration has nominated Taiwan for participation in the VWP and we 
support Taiwan's inclusion. In the short-term we also believe the 
Departments of State and Homeland Security should immediately begin 
bilateral negotiations with countries that are prospective candidates 
for the VWP.
    Recently, the U.S. Travel Association studied the economic impact 
of including the 11 likeliest candidates for VWP status: Argentina, 
Brazil, Bulgaria, Chile, Croatia, Israel, Panama, Poland, Romania, 
Taiwan, and Uruguay. Last year, 3 million visitors from these countries 
spent $14 billion in the United States, directly supporting 104,300 
jobs in the American travel industry. In the first year of 
participation in the VWP, the growth rate of visitation from these 
countries would nearly double. If that first year were 2012, VWP status 
would generate an additional 482,000 arrivals and $5.1 billion more in 
total revenue. VWP eligibility would quickly drive up arrivals from 
these 11 nations to 4 million visitors with an overall economic impact 
exceeding $41 billion, supporting 256,000 American jobs. The 32,200 
additional U.S. jobs created this year would be eight times more than 
employment at the largest auto assembly plant in Michigan.
    Every potential new VWP visitor from Brazil, Poland, and other key 
markets constitutes, in effect, a walking economic stimulus package. 
Each has the desire and means to travel to the United States, for 
business and/or pleasure; and rarely do these visits require additional 
U.S. infrastructure. It is just a question of whether our entry process 
is welcoming or discouraging, as compared with destinations in other 
nations.
    Another key goal of the Visa Waiver Program is to improve standards 
for air security, travel documents, and international law enforcement 
collaboration. As a condition of participation in the program, VWP 
countries must follow strict counter-terrorism, border security, law 
enforcement, and document security guidelines, as well as participate 
in information-sharing arrangements with the United States. VWP 
countries must issue International Civil Aviation Organization-
compliant electronic passports; report information on all lost and 
stolen passports to the United States through Interpol; and share 
information on travelers who may pose a terrorist or criminal threat to 
the United States. As a result, our Government is able to supplement 
our watch-list database with information from the travelers' home 
governments. In addition, each VWP traveler must also obtain pre-
clearances to board a flight to the United States through the 
Electronic System for Travel Authorization.
    Taken together, these eligibility requirements ensure compliance 
with elevated security standards and cooperation with United States law 
enforcement. This enables us to better detect, apprehend, and limit the 
movement of terrorists, criminals, and other dangerous travelers--and 
to shift limited visa screening resources to higher risk countries.
    The most effective ambassadors of American values are ordinary 
Americans. Citizens from VWP countries who travel to the United States 
for tourism or business form life-long impressions of American society 
based on their visits to destinations, large and small, across America. 
From our national parks to our ball parks to our theme parks, the 
heartland of our great Nation reflects the best of the United States to 
foreign visitors. The more they know us, the better they like us.
    Surveys have shown that foreigners who have the opportunity to 
visit the United States are 74 percent more likely to have a favorable 
view of our country; and that 61 percent are more likely to support the 
United States and its policies. Moreover, the mere agreement itself to 
establish a visa waiver relationship reinforces bilateral goodwill. 
While its explicit mission is to enhance security and encourage travel, 
the Visa Waiver Program has also demonstrated significant public 
diplomacy value as a ``soft power'' tool that complements our formal 
foreign policy mechanisms.
    By strengthening our alliances and enhancing our Nation's global 
image, the Visa Waiver Program has helped to keep us safer. By 
facilitating more efficient flow of overseas visitors for legitimate 
business and leisure at a time when the global travel market is 
booming, VWP expansion offers enormous export opportunity for the U.S. 
travel and tourism sector across the entire Nation.
    That is why we strongly support bipartisan legislation introduced 
earlier this congressional session by Senator Mikulski (D-MD) and 
Senator Kirk (R-IL) which would reform the criteria for being admitted 
to the Visa Waiver Program, with the intent to accelerate VWP expansion 
(S. 2046). We urge Congress to make passage of this legislation a top 
priority this year.
    The stakes are high for every American business seeking to host 
meetings with international customers, for dozens of international 
trade shows each year whose foreign clients need to enter the United 
States on a deadline, and for tens of thousands of U.S. workers and 
businesses dependent on a vibrant inbound travel market. We appreciate 
your ongoing interest in ensuring an efficient entry process and look 
forward to continuing to work closely with you to move this legislation 
forward.

       IMMIGRATION PROCESSING UPON ARRIVAL INTO THE UNITED STATES

    How international visitors are treated when they arrive in the 
United States and is just as important as the visa process. Over the 
last decade, as recommended by the 9/11 Commission, the U.S. Government 
has rightly built additional layers of security into America's border 
entry process. However, the way some of these policies are implemented 
has had the unintended effect of alienating some international 
travelers. Overseas visitors complain about hour-long waits at the 
inspection areas at airports and of unfriendly treatment by inspection 
officials.
    This negative perception of the U.S. entry process was on full 
display in 2009 when President Obama traveled to Copenhagen to help 
promote Chicago's bid for the Olympic Games. An International Olympic 
Committee (IOC) member from Pakistan, in the question-and-answer 
session following Chicago's official presentation, pointed out to the 
President that entering the United States can be ``a rather harrowing 
experience.''
    When IOC members are expressing concern to our President about the 
kind of welcome international visitors would get from airport officials 
when they arrive in this country to attend the Olympic Games, we need 
to take seriously the challenge of reforming our entry process to make 
sure we are welcoming our friends around the world, even as we ensure a 
secure system.
    Since 2006, our industry has partnered with DHS and CBP to offer 
strategic advice on how to provide improved customer service and 
increased efficiency in traveler facilitation. CBP has implemented some 
recommendations quite effectively, such as the adoption of a welcome 
video--produced by Disney--that is now played at all major 
international U.S. airports. CBP also created the Global Entry program 
to fast-track previously vetted Americans and select international 
visitors returning from international trips. But much more remains to 
be done.
    The Department of Homeland Security should aim to process all 
international arriving passengers within 30 minutes at the primary 
inspection area. This can be done by developing and implementing a 
comprehensive and automated staffing model to improve passenger 
facilitation. In addition to the workload staffing model, CBP should 
also expand the staffing workload alignment tool (SWAT) to additional 
airports in order to better anticipate short-term staffing demands and 
reduce wait times at primary inspection areas. To meet these goals, the 
DHS appropriations bill for fiscal year 2013 should fund CBP adequately 
to implement appropriate staffing reforms included in the workload 
staffing model to decrease wait times at airports of entry.
    U.S. Travel also encourages the establishment of baseline data and 
the development clear staffing metrics in order to assess the 
efficiency of CBP's workforce. The development of performance metrics 
will increase agency accountability and ensure effective use of their 
current resources.
    The Department of Homeland Security should ensure that the $110 
million in annual funding resulting from the elimination of the COBRA 
fee exemptions from Canadian, Caribbean, and Mexican air and sea 
travelers be reinvested into CBP staffing and facilitation at air and 
sea ports of entry.
    U.S. Travel remains concerned that a shortage of inspection agents 
continues to produce excessive delays in processing international 
passengers at some of this Nation's highest volume international 
airports. Some international airports note that thousands of passengers 
arriving from long flights are experiencing delays of up to 3 hours due 
to inadequate staffing. We would like to work with your subcommittee to 
find a sensible funding solution to ensure adequate staffing is 
provided to process international travelers visiting our Nation. We 
also encourage CBP to enhance transparency and reporting related to 
airport wait times data. We recommend that the fiscal year 2013 DHS 
appropriations bill should require this information to be published on 
CBP's Web site and submitted to the subcommittee through a 
comprehensive report on a quarterly basis.
    These long delays in processing hurt the undoubtedly hurt customer 
experience and discourage travelers from visiting or doing business in 
the United States. The fiscal year 2013 DHS appropriations bill should 
include provisions contained in the House DHS Authorization bill to 
improve CBP transparency and customer service through the 
implementation of a comprehensive system to collect, analyze, respond 
to traveler comments. In addition, the legislation includes 
requirements for CBP to set baseline standards and implement clear 
metrics to track progress of customer services related issues and 
establish agency best practices.
    Lastly, CBP should increase the number of nations participating in 
the Global Entry program and implement fully those reciprocal 
agreements signed to date with the Netherlands, the United Kingdom, 
Germany, and Korea, among others, so that the maximum number of foreign 
nationals can be signed up under Global Entry. We recommend that CBP 
provide a more user-friendly process for individual registration to the 
program, including simplifying the online application and providing 
additional staff and locations for in-person interviews in order to 
ensure conditionally approved applicants are interviewed within 6 
weeks.

                                CLOSING

    If this country is serious about becoming more competitive in a 
global economy, Congress and the administration have to encourage 
Americans and legitimate international visitors to travel in the United 
States by reducing unnecessary hassles and barriers, while maintaining 
necessary security. The stakes are enormous. Our own analysis shows 
that if the United States recaptured its historic share of worldwide 
overseas--or long-haul--travel by 2015 and maintained that share 
through 2020, it would add nearly $100 billion to the economy over the 
next decade and create nearly 700,000 more U.S. jobs. Increasing 
America's share of worldwide long-haul travel is a no-brainer and, with 
the right policies, should be relatively easy to do.

    Senator Landrieu. Thank you, Mr. Dow. And your focus on 
using technology to help solve these problems I really 
appreciate.
    Mr. Barclay.

STATEMENT OF CHARLES M. BARCLAY, PRESIDENT, AMERICAN 
            ASSOCIATION OF AIRPORT EXECUTIVES
    Mr. Barclay. Thank you, Chair Landrieu.
    I would just like to make three very brief points because a 
lot of our testimony repeats what Roger and the first panel 
have said.
    The first is that airport executives strongly support the 
philosophy behind RBS and the Trusted Traveler programs. We 
congratulate the Department on both Pre3<SUP>TM</SUP> and 
Global Entry. I particularly want to point out Administrator 
Pistole deserves great credit for taking Pre3<SUP>TM</SUP> from 
theory to practice. It is something that has been debated for 
far too long over the last 10 years, as you have noted.
    Second, RBS is not an option. We have to go to more 
efficient use of our limited screening resources. Passenger 
growth alone will overwhelm our facilities and our checkpoints 
if we do not make more efficient use of intelligence and 
information that people are willing to provide on themselves.
    And third, airports want to be of greater help. Airports 
would like to engage in local enrollment of trusted populations 
in order to expand the numbers of people going through 
Pre3<SUP>TM</SUP>. We have a number of both large and small 
airports that are eager to do this for the frequent travelers 
in their communities, but people who do not travel enough to be 
on one airline's high level frequent flyer list or they may not 
travel internationally and be thinking of Global Entry.
    This is not just a theoretical offer. Airports own the 
Transportation Security Clearinghouse which has processed 12 
million biometric and biographic background checks to Federal 
Government standards for airport workers and passengers in the 
past 10 years. We have a number of airports that want to take 
that process and on a voluntary basis airports would market 
enrollment again to trusted communities locally and brand it 
for themselves.

                           PREPARED STATEMENT

    Finally, the key to Pre3<SUP>TM</SUP> is to fill up those 
lanes. If we do not fill those lanes--at a lot of airports, you 
cannot put a new lane in. So if you designate a lane for 
Pre3<SUP>TM</SUP> and put the resources there, we need to get 
the volume going through there. Airports are eager to quickly 
help engage in enrollment and make sure that we are putting 
enough volume through those lanes in order to justify them, and 
in both kinds of lanes, it will speed passengers' screening 
process.
    [The statement follows:]

                Prepared Statement of Charles M. Barclay

    Senator Landrieu, Senator Coats, and members of the subcommittee, 
on behalf of the American Association of Airport Executives (AAAE)--the 
world's largest airport organization, representing thousands of men and 
women across the country who manage and operate the Nation's airports--
I want to thank you for the opportunity to participate in this 
important hearing on the Department of Homeland Security's (DHS) travel 
programs and initiatives. We appreciate the subcommittee's continued 
focus on enhancing security, efficiency, and passenger satisfaction in 
air travel and look forward to working with you toward that end in the 
months ahead as you develop fiscal year 2013 Department of Homeland 
Security appropriations legislation.
    Although airport operators do not have a direct role in screening 
passengers at airport checkpoints or in processing international air 
travelers, airport professionals are committed to enhancing security 
and efficiency at their facilities and serve as important partners to 
the Transportation Security Administration (TSA) and Customs and Border 
Protection (CBP) in meeting their respective missions in these areas. 
Airport executives remain strongly committed to working collaboratively 
with the Federal Government to expedite checkpoint screening and 
international facilitation, and we are encouraged by recent 
developments with the implementation by DHS of intelligence-driven, 
risk-based programs, including CBP's Global Entry and TSA's PreCheck 
(Pre3<SUP>TM</SUP>) trusted traveler programs.
    On the international facilitation front, DHS and CBP leaders should 
be commended for initiating and growing the Global Entry program, which 
is showing demonstrable benefits at a number of international airports 
across the country. Continued expansion and utilization of Global Entry 
combined with additional CBP staffing at international airports are key 
to the timely processing of international travelers and ensuring that 
the United States remains a prime tourist and travel destination--a 
goal that has profound implications for the broader U.S. economy. A 
group of international gateway airports known as the G-10 have done 
extensive work on international facilitation issues and have a series 
of specific recommendations that I have included at the end of my 
testimony. I urge the subcommittee to give these recommendations 
careful consideration as well.
    We also appreciate the administration's efforts to encourage 
international travel and tourism with recently announced initiatives, 
including the enhancement of the Global Entry and Visa Waiver programs. 
Notably, AAAE Airport Alliance Chair and Chicago Department of Aviation 
Commissioner Rosie Andolino has been appointed by the President to the 
U.S. Travel and Tourism Advisory Board and will play a key role in 
addressing travel facilitation, visa policy, improving the 
international travel experience, and other important topics as part of 
that group.
    Domestically, airport executives are equally enthusiastic about the 
roll-out and announced expansion of the TSA Pre3<SUP>TM</SUP> program. 
Administrator Pistole and his team deserve immense credit for their 
leadership in moving forward with the program and other risk-based 
initiatives. We also appreciate the support and funding the initiative 
received from this subcommittee and Congress in fiscal year 2012, as 
you have highlighted previously, Madam Chair.
    Airport executives anticipate great success with Pre3<SUP>TM</SUP> 
and recognize that the next challenge will be moving from a largely 
airline-centric program in operation at merely a handful of airports to 
one that is operational for large numbers of travelers at airport 
facilities across the country. As you know, Pre3<SUP>TM</SUP> in its 
current form is available only to certain elite travelers on specific 
airlines and participants in the CBP Global Entry program who fly on 
participating air carriers.
    Airport executives would like to see the program expanded to 
accommodate as many additional, qualified travelers as possible through 
a community based, airport-centric approach that allows vastly larger 
populations of travelers to enroll and participate in 
Pre3<SUP>TM</SUP>-approved programs on an airport-by-airport basis and 
become trusted through Government-approved vetting protocols. While 
airline-based programs and Global Entry are good avenues in enrolling 
qualified participants, additional efforts will be needed to 
accommodate a broader range of qualified travelers--a goal that 
airports, the traveling public, and the Government share.
    Some have argued that the Global Entry process is sufficient in and 
of itself as an enrollment platform. It is worth noting, however, that 
only roughly one-third of the U.S. population currently holds a valid 
passport, based on recent statistics from the State Department. Since 
holding a valid passport is a requirement for Global Entry 
participation, some two-thirds of the American public is currently 
ineligible for participation through that process--a fact that 
highlights the need for a more robust approach.
Airports Are Eager To Partner With DHS To Expand Trusted Traveler 
        Programs
    AAAE and airports have long supported the trusted traveler concept 
that underlies both the Global Entry and Pre3<SUP>TM</SUP> programs, 
and we are actively working with CBP and TSA in an effort to rapidly 
expand the population of passengers participating in these programs, 
which virtually everyone knowledgeable about the program acknowledges 
is necessary to maximize the efficiency and security benefits achieved 
by focusing limited DHS resources on higher risk passengers. We are 
also working collaboratively with DHS to address related issues 
affecting program expansion, including checkpoint configuration, queue 
management, modified LEO response expectations, and public outreach and 
communication.
    Airports long ago recognized that there was great potential value 
in terms of enhanced security and efficiency with the deployment of 
trusted traveler programs. Airports have also understood that they are 
uniquely situated to bring interested parties together to chart a 
course that would result in the successful deployment and operation of 
these types of programs.
    Over the past decade, AAAE and individual airports have worked 
closely with TSA and the technology community to implement other 
specific trusted traveler programs, including Registered Traveler (RT). 
In roughly 1 year, the RT program enrolled more than 250,000 travelers 
at 24 airports, proving the security and efficiency benefits that 
adoption of these programs provides. As you may know, CLEAR is actively 
working to build upon the earlier RT program and is currently in 
operation at several key airports, including Orlando and Denver with 
plans to expand to San Francisco and Dallas/Fort Worth later this year. 
AAAE is encouraged by and supportive of those initiatives and others 
aimed at facilitating the wide-scale utilization of the trusted 
traveler approach at airports across the country.
    Based on our prior success with trusted traveler initiatives, AAAE 
has encouraged TSA and CBP to utilize community based, airport-centric 
enrollment options to facilitate the flow of additional information to 
the agencies on a significantly expanded number of low-risk passengers 
for eligibility in the Pre3<SUP>TM</SUP> and Global Entry programs. In 
addition to providing the volume of passengers necessary for TSA and 
CBP to realize the operational efficiencies for which the programs are 
designed, airport specific, public enrollment options will allow 
airport operators to proactively and directly participate in the risk-
based programs that they support.
    By playing such a key role, airport operators will also benefit 
from local implementation of national programs that enhance security. 
Airport involvement will also bolster the relationship between airport 
operators and local DHS staff, increase affinity to airports, and 
assist DHS in reducing the complexity while enhancing the customer 
experience at passenger screening checkpoints and international 
arrivals areas. The success of DHS' efforts to advance intelligence 
driven risk-based security approaches is a top priority for AAAE and 
its airport leadership.
    Airports are confident that in partnership with TSA and CBP they 
can help facilitate the deployment of robust trusted/known traveler 
programs that focus on enhanced security above all else in addition to 
expediting the travel experience. These two pillars are the primary 
values that air travelers want and that each of you as policymakers 
rightly will demand. By bringing efficiency back into the Nation's 
airport screening checkpoints and the international facilitation 
process, TSA screeners and CBP personnel will be able to better focus 
their limited resources on the critical task of providing more rigorous 
screening to individuals about whom we know less than those who use the 
system the most and have voluntarily submitted background information 
for extensive vetting and clearance.
    Recommendation.--In addition to providing adequate funding to 
support the Global Entry and Pre3<SUP>TM</SUP> programs in fiscal year 
2013, AAAE recommends that the subcommittee and Congress encourage CBP 
and TSA to continue working with airports to expand these critical 
trusted traveler programs to additional populations and airport 
facilities through community-based, airport-centric enrollment 
approaches.
TSA Efforts To Upgrade Airport Baggage Systems Must Continue With 
        Federal Support
    In addition to the wide-scale deployment of trusted traveler 
programs, efforts to upgrade outdated and inefficiency technology to 
screen checked baggage for explosives must continue with Federal 
support if we are to successfully reduce lines and headaches for 
passengers at the Nation's airports. While good progress has been made 
over the past decade in upgrading checked baggage systems at airports 
of all sizes thanks to the good work of this subcommittee and Congress, 
a number of airports remain in need of improved, in-line baggage 
screening systems.
    Adding to the complexity of the ongoing problem is the fact that 
much of the explosives detection (EDS) equipment placed in airports to 
screen checked baggage in the wake of the 9/11 attacks is at or near 
the end of its useful life, necessitating a costly recapitalization. In 
an effort to address this issue, the administration in fiscal year 2012 
requested and Congress granted to the TSA limited flexibility to 
utilize for the purchase of EDS equipment funds designated under 
permanent law for facility modification at airports to accommodate 
optimal EDS solutions. The fiscal year 2013 budget requests similar 
authority for TSA.
    While airports recognize and support efforts to purchase necessary 
equipment, we are concerned that resources intended to help make 
necessary facility modifications at airports to accommodate optimal EDS 
solutions--the precise purpose of the Aviation Security Capital Fund--
are being diverted to pay for equipment. Since terminal modifications 
are necessary in most instances to install updated EDS equipment, 
diverting funding from the Aviation Security Capital Fund could stall 
necessary projects at airports as has been the case in the past. Many 
airports simply don't have funding readily available for costly 
terminal modifications and must rely on the Federal Government to meet 
its obligations in this area.
    Recommendation.--Congress should provide TSA with the resources it 
needs to purchase EDS equipment and reject requests to divert resources 
from the Aviation Security Capital Fund designated for airport 
infrastructure upgrades for purposes beyond the scope of current law. 
As past experiences with technology deployment in airports prove, 
important projects can become stalled or slow significantly in 
instances where resources are not available for necessary airport 
facility upgrades. AAAE further asks that Congress ensure the agency 
pays for all appropriate costs associated with EDS installation 
projects, including ``bricks and mortar'' infrastructure upgrades 
necessary to accommodate mandated screening systems.
TSA Must Remain Focused on Its Primary Mission of Passenger and Baggage 
        Screening
    While not the prime focus of today's hearing, we also wanted to 
bring to the subcommittee's attention our concern with proposals that 
continue to emerge to expand TSA's authority beyond its primary mission 
of passenger and baggage screening. Expanding the agencies reach and 
responsibilities--particularly to areas already in capable local 
hands--threatens to dilute already scarce resources.
    As you know, airports play a critical role in aviation security, 
serving as an important partner to TSA in helping the agency meet its 
core mission of passenger and baggage screening. The significant 
changes that have taken place in airports over the past decade with the 
creation of the TSA and its assumption of all screening duties have 
been aided dramatically by the work of the airport community, and we 
will serve as a critical local partner to the agency as it continually 
modifies its operations, including some of the risk-based security 
initiatives that are under discussion today.
    In addition to partnering with TSA to meet its core mission, 
airports as public entities provide a critical local layer of security, 
performing a number of inherently local security-related functions at 
their facilities, including incident response and management, perimeter 
security, employee vetting and credentialing, access control, 
infrastructure and operations planning, and local law enforcement 
functions. These important duties have long been local responsibilities 
that have been performed by local authorities in accordance with 
Federal standards and subject to Federal oversight. Airport operators 
meet their security-related obligations with a sharp focus on the need 
to protect public safety, which remains one of their fundamental 
missions. The professionals who perform these duties at airports are 
highly trained and have the first responder authorities and 
responsibilities that we all value immensely.
    Recommendation.--From a security and resource perspective, it is 
critical that inherently local security functions--including incident 
response and management, perimeter security, employee vetting, and 
credentialing, access control, infrastructure and operations planning 
and local law enforcement--remain local with Federal oversight and 
backed by Federal resources when appropriate. We urge the subcommittee 
and Congress to reject efforts to federalize local security functions 
at airports.
Airport Credentialing and Access Control Should Remain With Local 
        Airport Control
    One area of particular concern for airport executives that we are 
compelled to highlight for the subcommittee is an ongoing effort to 
``harmonize'' or ``modernize'' various aspects of existing 
transportation worker vetting programs. In the aviation environment, 
the background check process for workers operates successfully as a 
Federal/local partnership with the Federal Government holding sole 
responsibility for security threat assessments and other necessary 
Government checks for prospective workers and with local airport 
authorities operating and managing enrollment, credentialing, badging, 
criminal history background check adjudication, and access control 
systems in accordance with strict Federal standards.
    The current system for aviation ensures the highest level of 
security by combining the unique local experience, expertise, and 
knowledge that exists at individual airports with Federal 
standardization, Federal oversight, and Federal vetting assets. Local 
involvement provides a critical layer of security and gives airports 
the operational control they require to ensure that qualified employees 
receive the credentials they need to work in the airport environment.
    In contrast to the long-standing locally controlled credentialing 
and access control apparatus that exists in the aviation environment, 
the credentialing/access control system in place in the maritime 
environment with the Transportation Worker Identification Credential 
(TWIC) program is relatively new. Under the TWIC model, the Federal 
Government or its contractors are responsible for virtually all aspects 
of the process, including worker enrollment, applicant vetting, 
credential issuance, and some elements of access control. In our view, 
the early results of TWIC have been uneven at best despite hundreds of 
millions of dollars in Federal investments. The existing system in 
aviation operates at no cost to the Federal Government.
    Some have suggested abandoning the successful local systems and 
processes already in place at airports with badging and access control 
to expand TSA and the Federal Government's control over more of the 
process as is the case with TWIC in the maritime environment. Airport 
executives oppose any move to shift any additional functions in 
aviation to the Federal Government and believe that such a move would 
diminish security by reducing or eliminating a critical, extra layer of 
security that is already in place in airports and absent with the TWIC 
approach.
    Pursuing such an approach would scuttle a successful local/Federal 
model that has worked well for decades, eliminate local operational 
control, stymie significant efforts already under way at airports 
across the country to upgrade and biometrically enable existing airport 
badging and access control systems, and significantly increase costs to 
the aviation industry with no demonstrable security benefit.
    While the desire to centralize and federalize the process for all 
transportation worker vetting programs in the name of modernization or 
harmonization may be understandable from the Federal Government's 
perspective, airport executives are concerned about Federal intrusion 
into existing processes that have worked well for decades. Airports are 
also very concerned about having to help foot the bill for these 
initiatives--estimated at $633 million through 2025 in appropriations 
and new fees as part of the TTAC Infrastructure Modernization (TIM) 
program--for changes that provide them with no demonstrable security or 
operational benefit. The current system in aviation operates 
efficiently and effectively at a fraction of the cost of other 
transportation vetting programs and at no cost to the Federal 
Government. We want to ensure that remains the case.
    Recommendation.--TSA can and should continue with its efforts to 
modernize and harmonize its internal vetting programs without the need 
to expand the Federal Government's responsibilities to include 
credentialing and access control in the aviation environment. As the 
subcommittee and Congress consider the TIM program, we urge you to 
exempt aviation from any new fees or requirements in recognition of the 
existing, successful, locally controlled credentialing and access 
control model and the significant investments that have been made 
locally over the years to those systems. Efforts to federalize any of 
these processes or functions are unnecessary and wasteful and should be 
rejected.

                               CONCLUSION

    With Federal resources under severe constraint and with more than 
700 million passengers traveling through the U.S. aviation system each 
year--a number that is expected to grow significantly in the years 
ahead--it is imperative that TSA remain focused on its primary mission 
of passenger and baggage screening while pursuing risk-based approaches 
to enhance security and efficiency. AAAE and airport executives are 
encouraged by recent efforts to move forward with trusted traveler 
programs with Global Entry and Pre3<SUP>TM</SUP> and are eager to 
partner with CBP and TSA to expand those programs to additional 
populations and airports through community-based, airport-centric 
approaches.
    I appreciated the opportunity to be here today and look forward to 
any questions you have.
    [The G-10 Airports Coalition's facilitation talking points (March 
2012) follow:]
  Attachment, G-10 Airports Coalition--Atlanta; Chicago; Dallas/Fort 
 Worth; Denver; Houston; Los Angeles; Metropolitan Washington Airports 
  Authority; Miami; New York/New Jersey Port Authority; Philadelphia; 
                Phoenix; San Francisco; Seattle/Tacoma.
    Efficient facilitation of internationally arriving travelers at the 
gateway airports is vital to ensuring the continued growth of the U.S. 
economy. According to the U.S. Travel Association, improving the 
inbound air travel experience could add $85 billion in air traveler 
spending which would support 900,000 jobs nationally. Doubling spending 
by visitors from Brazil, China, and India specifically could result in 
an additional $15 billion to the U.S. economy, creating another 105,000 
jobs in the travel and tourism industries. The following 
recommendations to Customs and Border Protection and the Department of 
State would significantly improve the international traveler 
experience, encouraging the continued growth of tourism (business, 
medical, academic, and leisure) to the United States.

                               CBP ISSUES

Airport Processing Wait Time
    Adopt a 30-minute goal of processing all international arriving 
passengers through Primary Passport Control, which would illustrate the 
need for additional offers, revised scheduling and queue management, 
and/or new technology/programs--80 percent of all passengers by end of 
2012, 90 percent by end of 2013, 100 percent by end of 2014.
    Provide all G-10 airports with daily actual wait times logged per 
FIS, for greater transparency and communication, as well as the ability 
to monitor progress toward a goal.
Airport Staffing Levels
    Provide additional staffing to provide adequate service to 
accommodate the growing number of international passengers.
    Institute a staffing model/standard to increase efficiency of 
operations and scheduling at current levels to maximize the number of 
officers in booths during peak periods, effectively reducing wait times 
for passengers.
Global Entry Program
    Negotiate international reciprocal agreements to increase the 
number of eligible travelers in the Global Entry (GE) program. The GE 
program works to reduce overall wait times for arriving passengers by 
reducing the number of passengers needing to be processed by an 
officer.
    Provide G-10 airports with GE data relative to numbers of 
enrollments and kiosk usage (broken down by U.S. citizens and foreign 
nationals) nationally and in our respective airports to gauge the 
effectiveness of promotional efforts and media outreach.
User Fees
    Funds generated ($55 million) from the elimination of the user fee 
exemption for Mexico, Canada, and the Caribbean should be directly 
applied to increase resources/staff for airport passenger processing.
    Consolidate the CBP user fees, currently at $17.50 for Customs, 
Immigration, and USDA inspection services per arriving international 
passenger, into one fee and increase to a level that reflects 50 
percent of CBP personnel costs (currently user fees account for 37 
percent of CBP's staffing budget of $2.98 billion), with the additional 
revenue to be used to expand CBP staffing at U.S. international gateway 
airports.
In-Transit Visa Passengers
    Institute a pilot program to provide easier processing for in-
transit (international-to-international connecting) passengers at the 
G-10 airports. This would provide a better service to passengers--
guaranteeing connections, and would eliminate these travelers from the 
general processing queue.
                   visa (department of state) issues
    Reduce the time of visa processing for all applicants (especially 
China and Brazil). Extended wait times (average 50 days in Brazil) 
hinder the ability for travelers to enter the United States, which 
results in billions of dollars lost. The average international visitor 
spends $4,000 in the U.S. per visit.
    Implement a pilot to waive in-person interviews for certain low-
risk applicants (visa renewals, full-time students, etc.). The 
elimination of unnecessary interviews would allow officers to put 
greater focus on high-risk or first-time applicants and ease the burden 
for legitimate travelers to the United States.
    Expansion of the Visa Waiver Program to key target countries such 
as Brazil, Argentina, and Chile, would significantly increase business 
and tourism to the United States and deploy consular officers to high-
risk/volume countries.
    Extend the duration of visas issued to Chinese nationals, from the 
current 1-year period to a longer period (2, 5, or 10 years). This 
would significantly reduce the number of travelers re-applying at the 
limited number of Embassies/Consulates in China. While DOS sites 
reciprocity and lack of repatriation as reasons, the Secretary of State 
has the authority under the Immigration and Nationality Act.

    Senator Landrieu. I think that is a very important point. I 
mean, as happy as it sounds to designate a special lane for 
prescreening passengers, it would be very aggravating to be a 
nonscreened passenger and stand there for 45 minutes watching 
no one go through the other lane. So I know that, Doug, you are 
focused on this coordination, but that is very, very important. 
Thank you for raising it.
    Mr. Hendricks.

STATEMENT OF THOMAS L. HENDRICKS, SENIOR VICE PRESIDENT 
            OF SAFETY, SECURITY AND OPERATIONS, 
            AIRLINES FOR AMERICA
    Mr. Hendricks. Chairman Landrieu, thank you for the 
opportunity to speak this morning. It is a very critically 
important topic, and we look forward to sharing our thoughts 
with you.
    As you are aware, A4A represents 90 percent of the 
traveling passengers and cargo within the United States.
    I will try to briefly echo some of the thoughts of some of 
my fellow panel members and quickly get to our recommendations.
    We all here on the panel and members of the subcommittee 
recognize the importance of air travel within the United 
States. One of the dominating factors has become hassle for our 
passengers and not only hassles but the perception of hassles 
as they see throughput diminished during the screening process.
    The President's recent initiative on travel and tourism is 
a very positive step in our view. He has rightly recognized 
that the spend of international travelers in the United States 
has been reduced from 17 percent in 2000 to 11 percent, and we 
need to turn this around. It is very worrisome. The President's 
initiative attributed this to increased international 
competition, changing patterns in global development, and to 
some degree more stringent security requirements imposed after 
9/11.
    Having identified these issues that are hindering our 
competitive position, we need to act promptly and decisively to 
make travel and tourism a national priority without 
compromising on safety and security. This should be a 
centerpiece of a national airline policy.
    And we would just like to point out that a strong, vibrant, 
and healthy airline industry is good for the economy. It is 
good for our country. Those are good, high-paying jobs, and we 
need to do everything we can to make this industry successful.
    Needed actions. I will get to those quickly. Several basic 
considerations should guide any new travel and tourism 
strategy. As has been correctly pointed out, we cannot 
compromise on security and safety in any way.
    Moving to the risk-based screening program that this 
subcommittee has supported and that Administrator Pistole 
referred to is the right path forward to help this industry and 
to improve jobs in the United States.
    Second, while impressions may not be accurate, they count 
mightily in the tourism business. Frustration about obtaining a 
visa or the length of a line at an airport of entry or a 
security checkpoint can easily dissuade people from traveling 
to the United States.
    Third and related to the above, many countries have entry 
procedures that are viewed as less burdensome than ours.
    Fourth, other countries are competing hard for our 
tourists. Some new emerging markets have a cache of newness 
that, frankly, becomes difficult to compete with sometimes. We 
need to be on the leading edge of attracting those travelers 
with their dollars to our communities around this country.
    And fifth, globalization is generating larger opportunities 
for travel throughout the world, and we need to be in a 
competitive situation and go after those tourists very 
aggressively.
    So it is a demanding environment.
    To broaden these opportunities, very briefly I would like 
to make these recommendations.
    We would like to speed the issuance of visas, particularly 
for high-growth countries such as Brazil, China, and India, and 
you referred to that, Madam Chairman.
    Expand the visa waiver program which we have strong support 
for.
    We are working very closely with Administrator Pistole and 
his team on the TSA's Pre3<SUP>TM</SUP> program at domestic 
screening locations.
    Recognize on a reciprocal basis other countries' trusted 
traveler entry programs that mirror CBP's very well received 
Global Entry program. I have used that program myself. It is 
very effective and very convenient.
    Speed the processing of passengers entering the United 
States. This will require CBP staffing levels to be at the 
appropriate level to accommodate greater numbers of 
international travelers.
    Modernize CBP's information technology systems to keep pace 
with technology as it evolves.
    And avoid diverting CBP staff from existing airports of 
entry and overseas preclearance locations to provide additional 
personnel for land border crossings or to open new preclearance 
locations. We are trying to avoid a diversion of these 
resources so we can focus them most appropriately.

                           PREPARED STATEMENT

    In conclusion, there is a common recognition of the need 
and benefits of promoting travel and tourism. I understand that 
you have a great appreciation for that, Madam Chairman. And we 
look forward to taking any questions you might have.
    [The statement follows:]

               Prepared Statement of Thomas L. Hendricks

    Chairman Landrieu, Ranking Member Coats and members of the 
subcommittee, thank you for inviting us to appear at this timely and 
important hearing.
    The members of Airlines for America (A4A) and their affiliates 
transport more than 90 percent of all U.S. airline passenger and cargo 
traffic. That traffic is carried on both domestic and international 
networks. Speaking on behalf of America's airlines, the subject of 
today's hearing is both timely and critical and we commend the 
subcommittee for allowing us to provide our views.

                                OVERVIEW

    Whether we are focusing on promoting travel within our country or 
to our country, one factor predominates: the ease of the traveler's 
experience. Hassles are the enemies of expanding travel. We must also 
keep in mind that the perception of a hassling experience can drive 
travel decisions.
    Domestic and international travel is immensely important to our 
overall economy. It contributed $1.1 trillion to our economy in 2010 
and was directly responsible for nearly 7.5 million American jobs. 
Sixty million international travelers visited our country that year. 
They spent an estimated $134 billion while they were here and helped 
generate significant levels of economic activity for those surrounding 
destination areas.
    And while the economic benefits of foreign visitors to the United 
States are impressive, they are not as great as they could be. The U.S. 
market share of international travelers' spending worldwide fell from 
17 percent in 2000 to a little more than 11 percent in 2010. This is a 
worrisome decline. President Obama's recent travel-and-tourism 
Executive order attributed this decline to three factors:
  --Increased international competition;
  --Changing patterns in global development; and
  --To some degree, more stringent security requirements imposed after 
        2001.
    Having identified the issues hindering our competitive position, we 
need to act promptly and decisively to make travel and tourism 
promotion a national priority without compromising on security and 
safety. This should be a centerpiece of a national airline policy. A 
strong national airline policy would restore and enhance U.S. airline 
industry viability and enable it to increase air service across the 
Nation, boost economic growth, expand exports and create more high-
paying U.S. jobs.

                             NEEDED ACTIONS

    Several basic considerations should guide a new national travel-
and-tourism strategy:
  --First, security and safety cannot be compromised in any effort. 
        U.S. Government agencies with border control responsibilities, 
        however, have demonstrated that they have the experience and 
        ability to balance the need to maintain security and 
        simultaneously reduce barriers to travel.
  --Second, while impressions may not always be accurate, they count 
        mightily in the travel and tourism business. Frustration about 
        obtaining a visa or the length of the line at an airport of 
        entry or security checkpoint can easily dissuade foreign 
        travelers from visiting the United States or Americans from 
        taking domestic trips.
  --Third and related to the point above, many countries have entry 
        procedures that travelers regard as more predictable and less 
        burdensome than ours. These impressions affect travel 
        decisions.
  --Fourth, other countries are competing hard for tourists. They have 
        made the national commitment to attract foreign visitors. In 
        some instances, these destinations have only emerged on a 
        significant scale in the last 5 or 10 years. They thus have the 
        cachet of newness, a potent competitive advantage.
  --Fifth, globalization is generating greater disposable incomes--and, 
        therefore, the means to travel--in areas of the world that 
        historically have not been the sources of significant numbers 
        of visitors to the United States. To be realistic, travel to 
        the United States may be viewed in those areas as something 
        less than a priority.
    This is a demanding environment. America must sharpen its 
competitive edge if we are to expand the employment and economic 
benefits that communities throughout the United States realize from 
travel and tourism.
    To broaden these opportunities, the U.S. Government needs to:
  --Speed the issuance of visas, particularly for high-growth countries 
        such as Brazil, China, and India.
  --Expand the Visa Waiver Program to additional countries where 
        security assessments support such expansions.
  --Expand TSA's Pre3<SUP>TM</SUP> program at domestic passenger 
        screening checkpoints.
  --Recognize, on a reciprocal basis, other countries' trusted-traveler 
        entry programs that mirror CBP's very well-received Global 
        Entry program. Consideration should also be given to expanding 
        trusted-traveler programs to specific categories of foreign 
        passengers, such as business travelers, who frequently travel 
        to the United States.
  --Speed the processing of passengers entering the United States. This 
        will require more CBP staffing to accommodate greater numbers 
        of international travelers.
  --Modernize CBP's information technology systems to better support 
        its passenger processing responsibilities.
  --Avoid diverting CBP staff from existing airports of entry and 
        overseas preclearance locations to provide additional personnel 
        for land-border crossings or to open new preclearance 
        locations. Diversion of these limited resources would delay the 
        processing of air travelers arriving at our busiest airports of 
        entry, a result that would tarnish our reputation as a 
        desirable travel destination.

                               CONCLUSION

    There is a common recognition of the need and the benefits of 
promoting travel and tourism. We look forward to working with the 
subcommittee to achieve those benefits.

    Senator Landrieu. Thank you and I am going to ask you what 
countries you think serve as the current models when we get to 
our questions.
    Mr. Hacker.

STATEMENT OF STEVEN HACKER, PRESIDENT AND CEO, 
            INTERNATIONAL ASSOCIATION OF EXHIBITIONS 
            AND EVENTS
    Mr. Hacker. Thank you, Madam Chairman, for this opportunity 
to share our concerns with you. I am here representing the 
nearly 11,000 trade exhibitions that take place in the United 
States every year. As you would guess, most of them are now 
heavily dependent upon international visitors.
    I can tell you that more Chinese will visit France this 
year than will visit the United States. We are keeping our 
best, most lucrative customers from coming to buy American 
heavy equipment, expensive technology, and management know-how.
    What we need is an overarching strategy that combines all 
of these silos that are involved with travel, safety, tourism. 
We do not have a national strategy. What we have in place is a 
patchwork quilt of fixes. The exchange you had just a few 
moments ago about Pre3<SUP>TM</SUP> is a perfect example of why 
we need an overarching strategy to think out these systems and 
procedures in a very holistic manner.
    Knowing I was coming here yesterday, at DFW Airport I 
counted myself to be the 38th person in line at the priority 
lane as a Pre3<SUP>TM</SUP>-approved passenger. It took me 28 
minutes to get to the podium. That totally discredits the 
program and defeats its entire purpose. It should not be in 
place until a strategy was developed to implement it 
effectively for all of the concerns that were expressed.
    Our recommendations are fairly simple. We think that a 
comprehensive visa strategy is essential and that a commission 
ought to be organized drawing personnel from the Departments of 
Homeland Security, State, and Commerce, and the private sector. 
Draw talent out of the travel and trade industries where you 
have seasoned executives who know how to compete fiercely in a 
marketplace. Those are essential ingredients that are missing 
in the current system.
    Next, we must expand the visa waiver program. In the years 
since South Korea was admitted to the program, tourism from 
that important trading partner has doubled in 1 year.

                           PREPARED STATEMENT

    And then video conferencing. We cannot afford not to test 
out the validity of video conferencing. When you look at 
nations that are important to our strategic and economic 
interests like India, Brazil, and China, the land masses there, 
the existing infrastructure just simply does not permit those 
citizens to travel hundreds of miles to a U.S. consular office. 
We have the technology. We must begin to use it.
    Thank you, Madam Chairman.
    [The statement follows:]

                  Prepared Statement of Steven Hacker

    Thank you for the opportunity to share with you information about 
the concerns of the exhibitions and events industry with respect to 
visa, entry and homeland security issues. My name is Steven Hacker. I 
am the president of the International Association of Exhibitions and 
Events <SUP>TM</SUP> (IAEE), a not-for-profit trade association 
headquartered in Dallas, Texas, that represents the exhibitions and 
events industry. Our members in the United States produce, service, or 
host most of the 11,000 trade and public exhibitions that take place 
each year. These trade events represent about half of the total number 
that takes place worldwide each year. Many are state-of-the-art events 
such as the International Consumer Electronics Show, ConAgra/Con Expo, 
and The National Association of Broadcasters, to name just a few that 
you may know.
    Trade shows and other exhibitions are nothing more than a mirror 
reflection of the economic circumstances of the industries and 
avocations that they serve. The events our members produce run the 
entire spectrum of commerce and society. There are literally events for 
every industry and interest including events serving the commercial 
fishing boat industry, wind energy, nuclear medicine, and scrapbooking. 
It should come as no surprise then that most of the events that take 
place in the United States are now dependent upon the attendance of 
international buyers and sellers.
    My friend and colleague, Roger Dow, president of the U.S. Travel 
Association, often refers to the time since 9/11 as the ``lost decade'' 
with respect to the global expansion of international travel. While the 
number of international travelers has increased by 60 million 
worldwide, the number visiting the United States has remained 
essentially the same. We are only expecting to increase the number of 
international visitors by 3.4 percent this year. To put these numbers 
in perspective, more Chinese citizens will visit France this year than 
will visit the United States. Our market share of international 
visitors has shrunk from 17 percent in 2000 to 12.4 percent in 2011. We 
have become the ``Blackberry'' of international travel--hemorrhaging 
critical market share to our competitors who are thriving at the same 
time.
    The last decade has been 10 years of lost opportunity for the U.S. 
exhibition industry. Visa and entry hurdles have kept millions of eager 
foreign buyers and sellers from participating in our events. As a 
result, they are now buying products and services at exhibitions taking 
place in Germany, France and China. This is terribly frustrating and is 
the first of three important ironies I will share with you today.
    For the first time in modern history we stand on the brink of being 
able to finally compete on a level playing field with the colossus of 
the German trade fair industry whose decades-long and very substantial 
government subsidies are quickly being eliminated as the result of the 
continuing European financial crisis. The likely beneficiary of this 
historic economic opportunity will not be the United States--it will be 
China.
    Just last week, the Chinese Government and the city of Shanghai 
announced they will soon build the world's largest exhibition 
facility--containing over 5 million square feet of space--large enough 
to house two McCormick Place Convention Centers, this Nation's largest, 
within its walls.
    We have struggled for 10 years to convince State and Homeland 
Security that we must have a comprehensive and secure visa and entry 
policy--and I want to underscore the singular noun policy because what 
we now have is nothing more than a patchwork quilt of ad hoc measures 
that often are at odds with each other and that fall far short of 
constituting a seamless approach to our commercial and security 
interests.
    The second tragic irony is that our most promising customers who 
are buyers from the emerging economics of China, Brazil, and India are 
often the least likely visitors to secure U.S. visas. We are 
essentially broadcasting to our best prospects, ``do not shop here.''
    In late 2010 we commissioned the highly regarded research firm 
Oxford Economics to conduct a study that would reveal the economic 
consequences upon our industry and our Nation stemming from this 
hodgepodge of poorly conceived and executed visa and entry policies. 
The key findings of the study are disturbing:
  --Visa issues prevented 116,000 international visitors from attending 
        U.S. exhibitions. This includes 78,400 buyers and 37,900 
        international exhibitors.
    These are not buyers who you would find at the Premium Outlet Mall. 
        They want to come here to buy farm and construction heavy 
        machinery costing thousands, and in many cases, millions of 
        dollars apiece; they need aerospace components, automobile 
        parts, technology, and U.S. service industry know-how. Today 
        they are buying what they need in other nations.
  --Drop the visa barriers and the U.S. economy would realize increases 
        in business sales from our events alone of about $3 billion. 
        These gains include $1.5 billion in business-to-business trade, 
        one-half billion in registration fees and exhibition space 
        spending, and about $300 million in visitor spending.
  --The $3 billion in lost sales would sustain over 17,500 jobs 
        directly and 43,000 jobs overall. It would generate three-
        quarters of $1 billion in State and Federal taxes.
    The third irony revealed by our study is that the industrial sector 
that would benefit most from the removal of visa barriers is 
manufacturing--the sector that is most vital to long-term American 
economic security. The presence of visa obstacles keeps our most 
promising buyers from engaging with our most vital industry sector. 
What sense does this make?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We applaud both State and Homeland Security for the recently 
announced initiatives that will add additional resources in China, 
Brazil, and elsewhere and that will help bring down waiting times and 
facilitate more efficient visa processing. However, these latest 
efforts are just new pieces of the same patchwork quilt and continue to 
fall far short of constituting a comprehensive, over-arching visa and 
entry policy that also enhances national security.
    Let me hasten to add that the entry experience is as important as 
the visa issuance policy. It creates a lasting personal impression that 
can either be very helpful or very harmful to our long-term economic 
interests. Waiting in an immigration and customs line for 90 minutes 
only to be greeted by a sullen customs officer is not what other 
cultures consider hospitality. No surprise, it often reaffirms the 
conviction that ``we are not wanted in the United States.''
    I referred earlier to ad hoc policies that are often at odds with 
each other. Here is an example. The newly launched Trusted Traveler 
program is something we have advocated repeatedly since 9/11. In most 
airport installations it is flawed. Trusted Travelers who expect to 
``fly through'' TSA security screening must first wait the typical 20 
minutes or more in the same lanes as all other travelers. This 
completely defeats the purpose of the program. The system needs to 
stipulate that there must be a lane dedicated exclusively to Trusted 
Travelers so they may reach the TSA podium swiftly.
    To conclude here is what we recommend:
  --We must develop a singular and comprehensive visa and entry policy 
        that is designed from the ground up. It must support the mutual 
        goals of enhancing our economic competitiveness and national 
        security. We believe it would be beneficial to create a U.S. 
        visa commission consisting of State and Homeland Security 
        personnel and executives from the private sector for this 
        purpose. Many of the flaws in the current patchwork would never 
        be permitted if we ran visa and entry processing as a 
        commercial enterprise. We need to streamline and modernize 
        these systems if we hope to become globally competitive. 
        Executives who have expertise in travel and the movement of 
        people are resources that must be engaged to ensure that our 
        Federal agencies can redesign the system in the most efficient 
        and effective manner.
  --Ample evidence exists that many visa rejections appear to be 
        illogical, capricious, and unfounded. While we believe that 
        ultimate authority for the approval or denial of applicants 
        must continue to reside with consular officials at posts 
        abroad, we also believe that it would be very helpful to adopt 
        uniform guidelines that establish more definitive parameters 
        for the circumstances that might bear upon the final decision 
        to approve or deny an application.
  --The Visa Waiver Program must be expanded quickly to include our 
        most important potential trading partners like Brazil, 
        Argentina, Chile, and Poland. There are, of course, many 
        others. The benefits are enormous and will materially reduce 
        the stress on our visa and entry support systems. Expanding the 
        Visa Waiver Program will free desperately needed resources that 
        can be applied elsewhere in the system. The addition, for 
        example, of the Republic of Korea to the program last year has 
        already resulted in the doubling of visitors from that nation 
        to the United States.
  --Allowing more international visitors to enter the United States is 
        not a zero sum game. Quite the contrary. It will yield millions 
        and millions of dollars in new fees and taxes to stimulate new 
        jobs and put American commerce in a far more competitive 
        position globally than we have been for the past decade.
    Thank you again for allowing me this opportunity to visit with you.

    Senator Landrieu. Thank you, Mr. Hacker.
    And that is actually why I insisted on you being part of 
this panel, I think, because we have had so much focus on 
tourism, and that is extremely important and it was a subject 
of part of my opening. I do sense, as a community that also 
attracts large trade shows--I am aware of these trade shows. 
Lots of them happen in New Orleans. It is virtually impossible 
for our businesses to compete in the world that we have created 
without really pushing the envelope on some of this. And I 
agree with you. While we have made some progress, we have a 
great deal of progress to go. And I think your call for an 
overall strategy is right on.
    Ms. Nelson and then we will go to questions.

STATEMENT OF SARA NELSON, INTERNATIONAL VICE PRESIDENT, 
            ASSOCIATION OF FLIGHT ATTENDANTS-CWA
    Ms. Nelson. Thank you, Chairwoman Landrieu, for giving us 
the opportunity to testify today.
    Our president, Veda Shook, regrets that she was unable to 
attend and sends her best wishes.
    I am here representing the world's largest flight attendant 
union, the Association of Flight Attendants-CWA, representing 
60,000 flight attendants at 22 different airlines. Flight 
attendants, as first responders in the aircraft cabin, have a 
unique perspective on security, and we very much appreciate 
your attention to these issues.
    When airport security was federalized, security improved 
immediately. On September 11, 2001, I was based in Boston as a 
United Airlines flight attendants, and I had worked United 
Airlines flight 175 frequently. It could have been me on that 
fateful day, but instead it was people I knew and worked with, 
including my good friends, Emmy King, Michael Tureau, Robert 
Fangman, Amy Jerrod, and the 21 other flight attendants who 
were my colleagues.
    I remember airport security prior to September 11 and the 
faces of the screeners who worked at the checkpoint for 
terminal C at Logan. The terrorists would have passed through 
this checkpoint to board United flight 175. I remember the 
screeners' faces because they were all the time, 7 days a week, 
all hours of the day. I remember their accents and their sweet 
but tired smiles. I remember their efforts to work long hours 
for the lowest bidding security company so that they could 
provide for their own families.
    I lost my friends that day and my profession was redefined 
and our world changed forever. And I often wonder how those 
hard-working security personnel have coped with their part in 
failing to stop the most fatal attack on U.S. soil. Do they 
know they were set up to fail?
    Federalizing airport screening has been a success, 
improving the security of air travel. Flight attendants are the 
last line of defense in aviation security. We depend upon a 
regulated Federal security system, and we commend TSA 
Administrator Pistole's efforts to limit privatization of 
security at additional airports and we oppose recent actions of 
Congress to attempt to force the Administrator to allow more 
privatization.
    AFA expects flight attendants to be included in the Known 
Crewmember program as a part of the larger risk-based 
initiatives that focus on security while making screening more 
convenient. TSA initiated this alternate screening first for 
pilots in 2011. The Association of Professional Flight 
Attendants representing American Airlines flight attendants and 
the Transport Workers Union Local 556 representing Southwest 
flight attendants join the 60,000 flight attendants in AFA in 
supporting inclusion of flight attendants in Known Crewmember.
    The 9/11 Commission Act provided direction that all crew 
members, flight attendants included, take part in expedited, 
alternate screening. Full implementation with all crew members 
would create a more efficient travel experience as it reduces 
passenger screening congestion. Flight attendants have access 
to the flight deck. We are subject to the same 10-year 
background checks as pilots, and like pilots, we carry a 
certificate issued by FAA. We are charged with protecting the 
flight deck at all costs, including the loss of our own lives.
    The Air Line Pilots Association and A4A have both requested 
that TSA expand the program to include flight attendants in the 
future, and the time is now. So we encourage the subcommittee 
to request a report from TSA establishing milestones for 
including flight attendants in the program as mandated by the 
9/11 Commission Act.
    To improve efficiency and security during screening and 
boarding, TSA should issue regulations to limit carry-on 
baggage: One bag, plus one personal item. According to the 
Common Strategy Security Guidance, flight attendants are to 
observe passengers during the boarding process to watch for 
anything suspicious. This critical final layer of pre-flight 
security is severely hampered by the distraction of carry-on 
bag chaos.
    Current carry-on rules were established more than two 
decades ago, and each carrier has its own program. Global 
alliances and code share agreements can make this very 
confusing for passengers. For example, passengers buying a 
ticket on Delta's Web site from Roanoke, Virginia to Paris, 
France, may never step foot on a Delta airplane as they 
actually fly on ExpressJet to Atlanta and Air France to Paris.
    A standard baggage policy enforced by TSA that limits size 
and number of carry-on bags will make screening more efficient 
at security checkpoints and allow flight attendants to more 
effectively observe the cabin for possible security threats.
    In conclusion, TSA should institute and enforce a 
standardized carry-on baggage policy. Security and the 
screening workforce must remain federalized through TSA, and 
flight attendant inclusion in the Known Crewmember program 
should be expedited.
    We look forward to continuing our working relationship with 
you and with this subcommittee and making progress on these 
important issues. And we look forward to working with 
Administrator Pistole to implement these important policies.
    And thank you again so much for the opportunity to testify 
today.
    [The statement follows:]

                   Prepared Statement of Sara Nelson

    Thank you, Chairwoman Landrieu for giving us the opportunity to 
testify today. Our president, Veda Shook, regrets that she was unable 
to be here today and sends her best wishes and greetings. My name is 
Sara Nelson, and I am the international vice president of the 
Association of Flight Attendants-Communication Workers of America 
(AFA), AFL-CIO. AFA represents nearly 60,000 flight attendants at 22 
different airlines and is the world's largest flight attendant union. 
We appreciate having the opportunity to testify at today's hearing on 
``Balancing Prosperity and Security: Challenges for U.S. Air Travel in 
a 21st Century Global Economy.''
    In the 10 years since the 9/11 attacks, flight attendants have been 
assigned increased responsibilities for ensuring safety, health, and 
security in the cabin. We receive training in fire control, first aid, 
aircraft evacuation, and emergency procedures, and are responsible for 
protecting the flight deck and cabin from an attack. Flight attendants 
play a key role in the security of passengers on the aircraft and are 
required to be on passenger flights.
    Flight attendants, as the first responders in the aircraft cabin, 
have a unique perspective on a number of the programs of the 
Transportation Security Administration (TSA). We are pleased to have a 
seat here today to share our views on how the Federal TSA workforce, 
expedited screening for all crewmembers, and establishing a 
standardized carry-on baggage policy can enhance safety and security 
while improving convenience and efficiency at our Nation's airports.

                             TSA WORKFORCE

    When airport security was federalized, security improved 
immediately. On September 11, 2001, I was based in Boston as a United 
Airlines flight attendant. I remember airport security prior to 
September 11. I remember the faces of the screeners who worked the 
check point for terminal C at Logan. The terrorist would have passed 
through this check point to board United flight 175. I remember the 
screener's faces because they were there all the time, 7 days a week, 
all hours of the day. I remember their accents and their sweet, but 
tired smiles. I remember their efforts to work the long hours for the 
lowest bidding security company just so that they could provide for 
their own families. I lost 25 of my flying partners that day, my 
profession was redefined and our world changed forever, and I often 
wonder how those hard-working security personnel have coped with their 
part in failing to stop the most fatal attack on U.S. soil. Do they 
understand they were set up to fail?
    We commend TSA Administrator Pistole's efforts to date to limit 
privatization of security at additional airports and we oppose recent 
actions of this Congress to attempt to force the Administrator to allow 
more privatization. Federalizing airport screening has been a success, 
improving the security of air travel. Flight attendants and passengers 
are safer today because of it. Flight attendants are the last line of 
defense in aviation security. My colleagues and I depend on TSA workers 
to keep our jobs safe. We depend upon a regulated security system that 
meets the requirements of the Implementing Recommendations of the 9/11 
Commission Act of 2007 (9/11 Commission Act), Public Law 110-53.
    Effective passenger and baggage screening is a vital part of our 
layered defense against terrorism in the skies. It is also a difficult 
job with massive responsibility.
    There is a growing drum beat demanding a return to the old system 
where security checkpoints were contracted out to the lowest bidder. To 
return to a bottom-line driven system that puts security second to 
profits borders on reckless and is an unjustified regression from TSA's 
successful mission to protect the skies.
    The flight attendants of this country act as first responders every 
day of the year and our lives depend on the integrity of each layer of 
security in the airport and on the aircraft. TSA must have the funding 
to give screeners the staffing, support and training they need to do 
their jobs to help keep our skies safe and secure.

                           SECURITY SCREENING

    For more than 5 years AFA has pressed for alternative screening for 
flight attendants that would accurately reflect our credentials as pre-
screened safety professionals. Our advocacy on alternative screening is 
all the more important and relevant as the TSA moves to implement risk-
based passenger security screening.
    Flight attendants are subject to the same level of screening and 
background checks as pilots, with the exception of those pilots 
participating in the Federal Flight Deck Officer (FFDO) program. Flight 
attendants are an integral part of the crew and the purpose of our jobs 
is to handle in-flight safety and security. Yet flight attendants are 
not included in the same alternative screening as our pilots. TSA has 
stated that a similar screening process is contemplated for flight 
attendants, but concrete dates or milestones to start this inclusion 
process have yet to be announced.
    The 9/11 Commission Act requires the Department of Homeland 
Security to implement an alternate security screening system for 
sterile area access control within commercial service airports. The 
system was to be used by all crewmembers. The subject is extremely 
relevant for today's hearing. First, an alternate security screening 
process for crewmembers contributes to a more efficient travel 
experience as it reduces passenger-screening congestion. Second, the 
system recommended was included in a report that focused on creating a 
more secure aviation system.
    In May 2009, TSA announced a test program, CrewPASS at three 
airports. Participation at these airports was voluntary but plans to 
expand the system were underway until November 2010. New screening 
technologies, advanced imaging technology (AIT) scanning machines, were 
deployed in over 68 airport locations with TSA implemented enhanced 
screening procedures at security check points. Any person, who did not 
want to utilize the new AIT machines, and set off the alarm at a walk-
through metal detector, would be subjected to an ``enhanced'' pat-down.
    The Thanksgiving weekend roll-out was done without consultation of 
the industry or aviation workers on the front lines of security. A 
Memphis pilot refused to submit to the new screening procedures and was 
subsequently denied access to his aircraft. Faced with a public outcry, 
TSA announced that pilots would be exempt from the new screening 
procedures and TSA would implement an expedited screening program based 
upon the CrewPASS test program, utilizing the Cockpit Access Security 
System (CASS) database. Since the CASS database was designed to verify 
the identity and employment status of pilots allowing them access to 
the jumpseats of airplanes belonging to companies other than their 
own--it was to be limited to pilots only.
    On November 19, 2010, AFA held a meeting with Administrator Pistole 
to discuss the concerns of our members about these procedures and to 
reiterate our call for TSA to implement CrewPASS that would provide 
flight attendants with a non-invasive method of screening. At this 
meeting TSA said that pilots and flight attendants would be subjected 
to the exact same screening procedures and the Administrator agreed to 
work with AFA on a range of security-related issues, including 
screening procedures.
    On August 11, 2011, TSA started another expedited alternate 
screening program similar to CrewPASS called Known Crewmember (KCM). 
TSA, working in cooperation with the Air Line Pilots Association (ALPA) 
and Airlines for America (A4A), rolled out the program at a few U.S. 
airports and it was available for pilots from specific airlines only. 
Flight attendants, with the same background checks as their pilot 
crewmember counterparts, have not been included in the program.
    While TSA continues to consider when or if to include flight 
attendant participation in the Known Crewmember program, the agency has 
announced pilots from additional airlines are scheduled to be included 
in addition to implementing other alternative screening initiatives for 
frequent travelers and Active Duty servicemembers. AFA supports risk-
based screening initiatives designed to make the screening process more 
convenient without sacrificing security. Flight attendants should be 
recognized for the work we do and for the service and safety we 
provide, and permitted to participate in alternative screening. In 
terms of supporting security, efficiency of the program and convenience 
for travelers currently sharing screening lines with flight attendants, 
TSA should move quickly to include all crewmembers in KCM. We encourage 
this subcommittee to request a report from TSA establishing milestones 
for including flight attendants in the program as mandated by the 9/11 
Commission Act.
    Flight attendants are first responders and since 9/11 we have also 
taken on the role as the last line of defense for aviation security. 
Flight attendants routinely identify and manage threat levels, use our 
training to de-escalate threats, and provide direction to helper 
passengers to assist in restraining assailants. We are charged with 
protecting the cockpit at all costs, including the loss of our own 
lives. Security doesn't just happen; over 100,000 flight attendants 
working in U.S. aviation system fill our role to make sure our skies 
are safe.
    Flight attendants have access to the flight deck and we are subject 
to the same 10-year background checks as pilots. Like pilots, we carry 
a certificate issued by the Federal Aviation Administration (FAA). The 
9/11 Commission Act provided direction that all crewmembers, flight 
attendants included, take part in expedited, alternate screening. Other 
stakeholders are in agreement: ALPA and A4A have both requested that 
the TSA expand the program to include flight attendants in the future.
    The time is now. Passengers are being invited to opt-in to 
expedited security screening programs simply because they log a certain 
number of miles on U.S. carriers. The Nation's certified flight 
attendants, serving as the last line of defense, surely meet the 
requirements of the Known Crewmember program.

                      CARRY-ON BAGGAGE LIMITATIONS

    To improve efficiency and security during the screening process and 
during the boarding process, TSA should issue regulations that would 
set a standard limit on carry-on baggage permitted to pass through 
security checkpoints. TSA has introduced passengers to the concept of 
3-1-1 regarding liquids, aerosols, and gels. That is, 3 ounces in a 1-
quart clear plastic, zip-top bag; one bag per passenger placed in a 
screening bin and fit through a template on the X-ray conveyor belt. We 
call upon the TSA to add two numbers to this equation 1+1: One bag, 
plus one personal item. \1\
---------------------------------------------------------------------------
    \1\ Exclusions: any regulations established by the FAA or TSA 
should not apply to child safety seat nor a child passenger, assistive 
devices for disabled passengers, musical instruments, outer garments or 
to working crewmembers in uniform.
---------------------------------------------------------------------------
    Reducing the size and number of carry-on bags would ultimately 
enhance security screening by reducing the number of bags that need to 
be screened at airport checkpoints.
    Current guidelines for carry-on bags were established more than two 
decades ago when air travel was much different than today. Each carrier 
had to have an individual program to control the weight, size, and 
number of carry-on bags. This created a maze of varying programs making 
it difficult and confusing for passengers. With the formation of global 
alliances and code share agreements individual program philosophies add 
to the confusion since alliance members sell seats on their partners' 
routes. A ticket purchased from one carrier may be subject to the 
carry-on bag rules of another.
    The concept of limiting the size, type, and amount of carry-on 
baggage in relation to improving security is nothing new and was 
recommended by the FAA Aviation Security Advisory Committee in 1996. 
Similarly, after 9/11, the FAA issued guidance to carriers to limit 
passengers to one carry-on bag and one personal bag (such as a purse or 
briefcase). This restriction is loosely enforced.
    AFA has filed two petitions for rulemaking requesting the FAA to 
enhance their carry-on baggage rule, citing incidents involving carry-
on bags that range from disruption in the cabin, delays in boarding and 
deplaning, physical and verbal abuses toward flight attendants and 
passengers, and injuries and impediments to speedy evacuations. Despite 
these two requests for rulemaking the FAA has failed to establish a 
specific requirement regarding size and number of carry-on bags 
allowed.
    According to the Common Strategy security guidance, flight 
attendants are to observe passengers during the boarding process to 
watch for anything suspicious. Prior to takeoff, flight attendants can 
ask the captain to subject a suspicious passenger to additional 
security scrutiny. The ability of flight attendants to provide this 
critical final layer of pre-flight security is being severely hampered 
by the distraction created with carry-on baggage chaos. Frequent flyers 
see it almost every flight: flight attendants are forced to manage 
excessive numbers of oversized carry-on bags in limited overhead bin 
space and removing baggage that doesn't fit.
    Limiting the size and number of carry-on baggage would create a 
uniform, enforceable rule across the industry, and enhance security in 
the process. It will allow for more efficient screening at the 
checkpoint and also improve the ability of flight attendants to more 
effectively observe passengers for possible security threats. The TSA 
could make travel more secure and convenient for passengers by issuing 
a standardized policy on carry-on bags and limiting the size and number 
of carry-on bags allowed to be screened at an airport check point.
    In conclusion, AFA believes there are areas where improvements 
could be made by the TSA to foster efficiency while enhancing security. 
Security must remain federalized through TSA, flight attendant 
inclusion in the Known Crewmember program should be expedited and the 
TSA should institute and enforce a standardized carry-on baggage 
policy. We look forward to continuing our working relationship with 
this subcommittee and the chairwoman to make progress on these 
important issues. And, we look forward to working with Administrator 
Pistole to implement these important changes. Thank you again for the 
opportunity to testify today.

    Senator Landrieu. Thank you, Ms. Nelson. And I really 
appreciate the airline industry that is represented here 
staying focused on the subject at hand and not diverting too 
much into this baggage charge issue. But I do want to raise 
this.
    With baggage charges anywhere from $25 to $50--I think it 
could even go up to $100 depending on--it is really dissuading 
people from putting their bags through the regular process and 
stuffing everything into extra large carry-ons which is slowing 
down the boarding process, as you heard, making it more 
difficult for the flight attendants to actually have eyes on 
the cabin with so much chaos.
    So I do not want to bring that up in too much detail, but I 
am going to follow up with some additional hearings on the 
whole baggage charge, et cetera, at the appropriate time.
    But let me ask the airports. Do not even mention TSA; do 
not mention the State Department; and do not mention Customs. I 
would like to know what the airports themselves are doing to 
improve the experience for travelers. I know your budgets are 
limited. Your capital budgets are limited. We took a long time 
to expedite the reauthorization of the Federal aviation bill.
    But what, Mr. Barclay, are airports doing themselves? Could 
you mention two or three specific things to improve the 
experience of travelers, maybe what one or two of your biggest 
concerns are or your frustrations? Either you do not have as 
much say-so over the airlines themselves or your working 
relationship with TSA at some places is not what it should be 
or Customs. Could you mention two specific things that are your 
doing and maybe two specific frustrations that airports are 
doing?
    Mr. Barclay. Right. The airports, as you know, are 
landlords. They are like the shopping center owner and then the 
direct line of interaction with the customer are the tenants, 
whether it is the airlines or the shops. TSA is a tenant at the 
checkpoint. But airports are owned by local governments and 
controlled by government entities headed by people who care 
mostly about their volunteers and they care about--if you serve 
on the board of an airport, what you care about is the 
passenger experience at that airport.
    So airports try to find ways. They hire ambassadors. As was 
mentioned earlier, often they will hire ambassadors with 
multiple language capabilities to help folks that may not speak 
English. They try to find ways to insert themselves where it is 
not interfering with the commerce of the direct relationship 
between a passenger and an airline or between someone trying to 
get vetted and TSA. So our role is to provide the facilities 
and provide comfortable enough facilities, but it is not the 
direct interface with the passenger.
    Senator Landrieu. I think this is a very interesting point 
and it may just be my perspective as a former local elected 
official just on behalf of my constituents. I think when 
somebody shows up to an airport, they actually think that the 
airport is in charge of something. Like they go to the Atlanta 
airport, they think that the Atlanta airport is in charge of 
something. It is becoming apparent to me that the Atlanta 
airport is virtually in charge of nothing. And so the 
passengers wander from airline to airline with all different 
rules and regulations. TSA is in charge of this. You cannot get 
a glass of water because of this.
    I mean, I really think, getting back to what Mr. Hacker 
said, sort of an overall look, a look afresh, at the way that 
just a regular passenger views, that they are in this huge 
building that looks someone should be in charge, but no one is 
really in charge of the whole picture. It is either an airline 
issue or a TSA issue or a food service issue, et cetera, et 
cetera. And I think this should be an issue for mayors that are 
trying to promote their cities and for Governors that are all 
about creating jobs and opportunity.
    And I am going to do what I can as chair of this 
subcommittee to connect mayors, Governors, airports, and this 
large group because the bottom line is jobs and opportunity and 
economic vitality for this country. This is about business. 
This is the way business is done now. And I am not seeing as 
much progress on this as I would like to see.
    What is your one biggest frustration as an airport 
director? And let me ask you this. Do you ever give awards to 
airports that do a really good job of this just regularly? And 
who won your award last year?
    Mr. Barclay. We do not give out awards, but there are a 
number of awards aimed at trying to incentivize people to win 
the awards. We can get the subcommittee a list of some of 
those.
    Senator Landrieu. Get that list to me, if you would.
    [The information follows:]
       Letter From the American Association of Airport Executives
                                                  January 15, 2013.
Hon. Mary Landrieu, 
Chairman, Subcommittee on Homeland Security,
Washington, DC.

    Dear Chairman Landrieu: I am writing as a follow up to the March 
21, 2012, subcommittee hearing on challenges for U.S. air travel and a 
question you posed to me during the hearing regarding airport customer 
service awards. As I noted to your initial inquiry, AAAE does not give 
out specific awards in this area, but there are other notable efforts 
aimed at fostering enhanced customer service at the Nation's airports.
    Perhaps the most prominent of these is the J.D. Power and 
Associates North American Airport Satisfaction Study. The study, which 
has received wide-spread national and local media attention, provides 
an important measure of customer satisfaction with the passenger 
experience at individual airports, including accessibility; baggage 
claim; check-in/baggage check process; terminal facilities; security 
check; and food and retail services. The study has been helpful in 
showcasing successful customer service initiatives by airports and 
their airline and Government partners. It has also been helpful, 
frankly, in providing useful feedback on areas in which improvements 
are needed.
    As I tried to make clear in response to your questions and in my 
testimony before the subcommittee, airports as public entities view 
passenger convenience, safety, and security as their primary 
responsibilities and work diligently with their tenants and the Federal 
Government to make constant improvements in these areas. In addition to 
reviewing feedback from national surveys, many individual airports 
routinely query their passengers--both formally and informally--to 
assess where they are in terms of customer service so that improvements 
can be made when necessary.
    Airport executives share your concern about the challenges that 
exist at the Nation's airports as all parties who operate at these 
facilities seek to find the right balance between security and 
convenience. There are clearly many areas in which improvements can be 
made, and airport executives are committed to working with our 
Government and industry partners to achieve that goal.
    We sincerely appreciate the leadership role you have taken through 
your work on the subcommittee to highlight the importance of improving 
the experience of air travelers both domestically and internationally, 
and we look forward to working with you toward that end in the year 
ahead.
            Sincerely,
                                           Charles Barclay,
                                                         President.

    Mr. Barclay. I mean, the frustration is often exactly what 
you are saying. Airports have a big job. Adding a fifth runway 
at Atlanta which affects the entire system because delays were 
rippling around the system, the politics and the difficulty and 
the cost of adding a multi-billion dollar, multi-year project 
was enormous. And that is the airport's job, making sure those 
facilities are there. But it does not feel as fulfilling as it 
should if you have got a lot of mad passengers who are waiting 
too long in a security line somewhere and you are the local 
government official in charge of that airport.
    Senator Landrieu. And I would like to ask, while TSA is 
here, when Delta Airlines adds 10 more flights into an airport 
between the hours of 10 a.m. and 12 on a morning, how is that 
communicated to TSA and how quickly can they change their 
staffing assignments? Who wants to take that question?
    Mr. Hendricks. Madam Chairman, I would be happy to answer 
that. Thank you.
    I am a retired airline captain. I worked at Delta Airlines 
for many years.
    I can assure you that the station manager in Atlanta--his 
job is to run the experience for all of those Delta passengers 
in Atlanta, and he is very much engaged with his partners at 
the local airport authority, with the local TSA officials. And 
whenever the network changes, those communications take place 
at the local level because we have to make sure that we have 
got enough supporting capability to match the capacity that may 
be changing at that particular airport.
    So I am comfortable that United in Chicago, American in 
Dallas and Miami, Delta in Atlanta and Minneapolis--they are 
communicating very aggressively with their airport authorities 
and with local TSA agents and with CBP as well to ensure that 
the traveling experience is as good as it possibly can be 
because they want to reduce the amount of frustrations that our 
passengers have from when they walk in the door at the airport 
to when they exit the curb and go to their destination.
    Senator Landrieu. Mr. Hacker, you testified that flaws in 
our visa processing system are costing the U.S. convention 
industry $3 billion in sales, 43,000 jobs, and $750 million in 
State and Federal taxes every year. Those are big numbers. You 
also made the comment that exhibition attendees are not 
shopping at outlet malls. They are shopping for heavy 
machinery, aerospace, automobile parts, advanced technology, 
and professional services.
    What are some of the highest profile global trade 
exhibitions that take place in the United States just to give a 
little bit more dimension to what we are trying to raise here?
    Mr. Hacker. Let me give you two illustrations. The first I 
think most of us are familiar with because of the intense media 
coverage every January, and that is the international consumer 
electronics show in Las Vegas. This year it drew 150,000 
attendees from literally all over the world. It is the 
principal trade event. And billions of dollars change hands at 
an event like that.
    I can tell you that about 40,000 buyers from overseas, 
principally from Asia, did not attend the event because they 
could not get visas.
    One of the points I was not able to make earlier was we 
really do need to adopt guidelines at the State Department that 
define what are the parameters for the approval or the denial 
of a visa application. We have ample evidence that many of 
those rejections are capricious, they are illogical, and they 
are unjustified. I would be happy to provide you with specific 
information about that.
    But it is incalculable when a delegation from India that 
wants to come to another major event like Conexpo-Con/Agg, the 
largest footprint, 2.8 million square feet of space every 3 
years in the United States--this is where you would go to buy 
John Deere mining equipment, Caterpillar earth moving 
equipment. A delegation from India, 35 buyers, was rejected. So 
they went to Germany and they bought Polish tractors and earth 
moving gear.
    Now, the losses to John Deere and Caterpillar measure in 
the billions of dollars right there in that transaction alone, 
to say nothing of the jobs and the taxation that was lost.
    So this is such a frustrating decade that we have endured 
since 9/11. And much credit to TSA, DHS, and the State 
Department. We have made progress, but not nearly enough. Not 
nearly enough.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. I think that is a good place to close 
this hearing.
    I am going to carefully review this testimony. It will stay 
open for 1 week for any additional submissions.
    [The following questions were not asked at the hearing, but 
were submitted to the nondepartmental witnesses for response 
subsequent to the hearing:]

                  Questions Submitted to Roger S. Dow
            Questions Submitted by Senator Mary L. Landrieu

    Question. Mr. Dow, now that the President has issued an Executive 
order on travel and tourism and the State Department has instituted 
needed reforms, is there still a need for legislation to improve the 
visa process?
    Answer. The President's Executive order was an enormous step 
forward toward encouraging overseas travel to the United States. The 
administrative directives to re-deploy consular personnel more 
strategically and to reduce wait times in key markets will address the 
inefficiencies that currently serve as a self-imposed barrier to 
international travelers to the United States for both business and 
leisure. These steps will certainly help alleviate the unproductive 
delay and confusion in the visa application process that undermine our 
competitiveness in the international travel marketplace. But this 
progress will be illusory if we cannot sustain it over the long term. 
The only way to ensure such structural change is to codify these 
welcome reforms in statute. In particular, we urge Senators to support 
S. 2233, the JOLT Act.
    Question. Mr. Dow, would you elaborate on why Brazil, China, and 
India are such important travel markets for the United States? Why 
should we focus on them right now?
    Answer. When it comes to attracting visitors from these dynamic 
markets, the United States lags behind our international competitors, 
especially in Western Europe.
    Between 2000 and 2010, the number of long-haul arrivals to the 
United States from Brazil, China, and India rose by about 1.4 million. 
During that same period, arrivals increased by more than 3 million to 
Western Europe. In 2010, the United States welcomed just 2.6 million 
travelers from these countries, while more than 6 million Brazilian, 
Chinese, and Indian travelers visited Western Europe.
    In 2010, the United States claimed 29 percent of the Brazilian 
long-haul market, compared to 51 percent for Western Europe. For China, 
the United States held just 13 percent of the market, a third of 
Western Europe's share. And in India, only 11 percent of long-haul 
outbound travel comes to the United States, compared to more than 26 
percent for Western Europe.
    In order to compete effectively in the global travel market, the 
United States must set a national goal of keeping pace with our 
competitors in Western Europe and matching their current market share 
in attracting visitors from Brazil, China, and India by 2015.
    Question. Mr. Dow, you have recommended that the State Department 
pilot the use of visa videoconferencing to conduct visa interviews 
remotely. Why is there a need for this and do you know of a concern 
about security in carrying it out?
    Answer. For millions of overseas tourists and business travelers 
seeking admission to the United States, the lack of accessibility to 
our consular offices is a significant disincentive to even applying for 
a visa. In critical travel markets like China, India, and Brazil, visa 
applicants who do not live in a city with a U.S. consulate, are forced 
to travel--at times--thousands of miles, at great expense and 
inconvenience, for the required personal interview that lasts less than 
5 minutes. We could remove this obstacle by authorizing the use of 
secure remote videoconference technology for applicant interviews. This 
technology, used routinely for secure communication by nearly every 
Federal agency including the State Department, would streamline the 
process without in any way compromising security. Indeed, the fact that 
the videotaped interview could be reviewed later could actually enhance 
security. It is important to note that any applicant whose videotaped 
interview yielded increased suspicion could still be required to appear 
in person. For the vast majority of interviews that proceed 
successfully, this technology would encourage more applicants for 
legitimate business and leisure travel to the United States; minimize 
the daunting expense and logistics of travel to the ``nearest'' 
consulate; economize on the time of consular officials; and, most 
important, help restore the competitiveness of the United States in the 
global travel market.
    Question. Mr. Dow, if the visa reforms that are being implemented 
help to drive up international travel, what impact will that have on 
U.S. airports?
    Answer. As international travel to the United States grows through 
much needed visa reforms, the flow of traffic through U.S. airports 
will significantly increase. This will impact all phases of airport 
operations but could have serious impacts particularly on the entry 
process. Several U.S. airports are already facing long wait times at 
U.S. Customs and Border Protection (CBP) primary inspection areas, of 
up to 3 hours, as a result of inadequate officer staffing and non-
optimal officer schedule management. The U.S. Travel Association 
supports entry reforms that will reduce primary inspection wait times 
and better facilitate the increased flow of passengers through 
immigration processing.
    U.S. Travel supports the adoption of a 20-minute baseline standard 
for the clearance of each international arriving passenger in the 
primary inspection area. We believe this will require CBP to develop 
and implement an automated staffing model to maximize CBP limited 
resources. In addition, it is likely that new personnel will be needed. 
In order to determine the appropriate staffing levels, we encourage CBP 
to share the findings of its recent Workload Staffing Model report with 
the Committee and for the subcommittee to include adequate funding in 
the fiscal year 2013 DHS Appropriations bill to fund our Nation's 
international airports appropriately.
    We also encourage CBP to expand the use of technology in passenger 
processing to enhance security and free up valuable officer resources 
to focus on the most critical threats. CBP should increase the number 
of nations participating in the Global Entry program starting with 
South Korea, Australia, Japan, the United Kingdom, and Singapore. In 
addition, we urge CBP to implement a more user-friendly application 
process through a simplified online application and additional 
interview locations in order to conduct applicant interviews within 6 
weeks of conditional approval.
    In the current budgetary environment, we strongly believe that any 
funds acquired through the taxation of travelers should be reinvested 
to enhance travel facilitation. As a result, it is only fitting that 
the additional funding of $110 million resulting from the elimination 
of the COBRA fee exemption for Canadian, Mexican, and Caribbean 
travelers should be used for passenger facilitation operations at air 
and sea ports of entry.
    Question. In your testimony, you state that travelers would take 
two to three more trips per year if security hassles were improved. 
Besides the airlines, what other businesses are impacted by the 
inefficient screening process? Do all U.S. Travel Association members 
see this as a problem?
    Answer. For the travel community--which supports rural and urban 
communities alike--inefficiencies in the aviation security screening 
process impose a staggering cost on all types of businesses.
    A 2008 survey of air travelers who took one or more flights in the 
previous year found that one in four respondents (28 percent) avoided 
at least one trip because of the hassles of air travel, which include 
aviation congestion and passenger screening. That loss of travel 
translates into a $26.5 billion loss to the U.S. economy, including 
$9.4 billion to airlines, $5.6 billion to hotels, $3.1 billion to 
restaurants and $4.2 billion in Federal, State, and local tax revenue. 
These types of economic losses also trickle out to food suppliers, 
retail businesses, car rental and bus companies, and travel agents, 
just to name a few.
    U.S. Travel members from all subsectors of the travel industry 
identify the inefficient screening process as a problem. From 
convention planners, to travel agents, to attractions and more, U.S. 
Travel members frequently express frustrations that their customers are 
deterred from traveling because of the hassles in security screening.
                               __________
               Questions Submitted to Charles M. Barclay
            Questions Submitted by Senator Mary L. Landrieu

    Question. Could you walk us through the role you think airports can 
play in facilitating the expansion of TSA's PreCheck 
(Pre3<SUP>TM</SUP>) program?
    Answer. Airports have long recognized the potential value of 
trusted traveler programs in terms of enhanced security and efficiency 
and are eager to partner with TSA to facilitate expansion of the 
Pre3<SUP>TM</SUP> program to additional airports and populations--
something that is absolutely critical if the program is to achieve its 
full promise.
    Airports serve as local partners to the TSA with a common mission 
of providing the highest levels of security for the traveling public. 
For more than a decade, airports have worked directly and 
collaboratively with TSA and understand fully Federal requirements and 
agency security imperatives. Airports support the Federal security 
mission while ensuring that the needs of airport tenants and the 
traveling public in the communities they serve are also well understood 
and attended to. Airports, in other words, are uniquely situated to 
ensure that Pre3<SUP>TM</SUP> and other trusted traveler approaches are 
undertaken in a way that best meets the needs of all interested 
parties.
    Moving forward, airport executives believe the Pre3<SUP>TM</SUP> 
program must be expanded to accommodate as many additional, qualified 
travelers as possible through a community based, airport-centric 
approach that allows vastly larger populations of travelers to enroll 
and participate in Pre3<SUP>TM</SUP> on an airport-by-airport basis and 
become trusted through Government-approved vetting protocols. While 
airline-based programs and Global Entry--the only current avenues for 
enrolling qualified participants--are a good start, additional efforts 
will be needed to accommodate a broader range of qualified travelers.
    Specifically, airports can play an active role in the enrollment of 
individuals into Pre3<SUP>TM</SUP>, Global Entry, and other trusted 
traveler programs. All commercial service airports have an established 
process in place for collecting and submitting to the Federal 
Government biographic and biometric information for employees at 
airports who are required to undergo mandated criminal history and 
security threat assessment background checks. This process could be 
expanded to accommodate enrollment in Pre3<SUP>TM</SUP> and other 
trusted traveler programs. We also believe there are other viable 
solutions to gathering the information required by the Government for 
program participation.
    AAAE has played an active role in the collection of biographic and 
biometric information for aviation workers subject to Government 
background checks for more than a decade, and its Transportation 
Security Clearinghouse has successfully processed nearly 10 million 
background check records during that time. The association and the 
airport community stand ready to do even more to leverage this 
experience and expertise to quickly and effectively move today's 
largely airline-centric program in operation at merely a handful of 
airports to one that is operational for large numbers of travelers at 
airport facilities across the country.
    In our view, the experiences with the Registered Traveler (RT) 
program offer an important roadmap on how to proceed. As you may 
recall, 250,000 people were enrolled in RT in a relatively short time 
and the program quickly became operational and interoperable at 22 
airports across the country. Although the initial business model with 
Registered Traveler ultimately proved unsustainable, the effort was 
incredibly successful operationally and should serve as a model for 
moving forward to grow the Pre3<SUP>TM</SUP> program efficiently and 
effectively utilizing airport knowledge and expertise.
    Question. TSA plans to have Pre3<SUP>TM</SUP> security lanes at 35 
airports by the end of 2012. Do you have concerns that wait times for 
non Pre3<SUP>TM</SUP> security lanes will increase?
    Answer. Airports are very concerned about the potential for growing 
wait times in non-Pre3<SUP>TM</SUP> security lanes and believe that 
every effort must be made to implement a community-based, airport-
centric approach to ensure that adequate numbers of eligible 
individuals participate in the Pre3<SUP>TM</SUP> program.
    For the TSA Pre3<SUP>TM</SUP> program to be a viable, long-term 
solution to increasing efficiency and security at airport checkpoints, 
it must grow quickly to include populations beyond elite frequent 
fliers, Global Entry program participants, and other select groups. 
With TSA contemplating the dedication of both staffing and screening 
lanes to the program, a failure to enroll a sufficient number of 
participants could result in the underutilization of scarce TSA 
screening resources and exacerbate wait times at lanes available to 
non-participating travelers--a result that the traveling public will 
absolutely not accept.
    Participation in the Pre3<SUP>TM</SUP> program must grow 
significantly beyond where it is in its early stages to be successful, 
and airport executives are eager to play an active role in 
accomplishing that critical objective.
                               __________
               Questions Submitted to Thomas L. Hendricks
            Questions Submitted by Senator Mary L. Landrieu

    Question. Outside of expanding PreCheck (Pre3<SUP>TM</SUP>), what 
else can DHS do in the near-term to make air travel more convenient for 
passengers?
    Answer. As Airlines for America (A4A) noted in its testimony, our 
members that carry passengers internationally are increasingly 
concerned about the adequacy of Customs and Border Protection (CBP) 
staffing at U.S. airports of entry. The first and often most durable 
memory a visitor to the United States has is her or his experience in 
being processed upon arrival. If we are to encourage travel and tourism 
to our country, therefore, Congress must assure that there are 
sufficient CBP personnel to promptly handle air passengers. 
International travel and tourism is an extraordinarily competitive 
sector and it is becoming more so. The United States cannot afford to 
be saddled with the reputation of delaying visitors at our gateway 
airports. Because of that, one thing that the Department of Homeland 
Security should not do is divert CBP personnel from U.S. airports of 
entry, which are already stretched, to either land border crossings or 
new overseas preclearance facilities.
    With respect to processing of passengers at U.S. airport security 
checkpoints, we believe that the Transportation Security Administration 
(TSA) should continue to expand its Pre3<SUP>TM</SUP> program. There is 
sufficient experience with the program that it has been successful in 
four essential respects:
  --Applicants for participation in the program can be vetted 
        thoroughly and consistent with security protocols before TSA 
        accepts them;
  --TSA's finite checkpoint resources are focused on other passengers;
  --Overall passenger processing at the checkpoint is improved and 
        therefore more convenient for our customers; and
  --There is widespread belief that the program is a significant 
        improvement to the travel experience by those passengers who 
        have enrolled in it.
    Question. Are you confident in the long-term viability of 
Pre3<SUP>TM</SUP>, TSA's risk-based screening program?
    Answer. TSA has stated that Pre3<SUP>TM</SUP> is a key component of 
the agency's intelligence-driven, risk-based approach to security. We 
believe that the Government has accumulated a great deal of both 
experience and intelligence information that enable it to pursue with 
confidence widely available, risk-based security programs such as 
Pre3<SUP>TM</SUP> and Known Crewmember. We also believe that it has 
demonstrated a firm commitment to do so. Over the last decade, an 
extraordinary amount of our Nation's intelligence and security 
resources have been directed to identifying, evaluating, and countering 
threats to national security in general and civil aviation security in 
particular. Leveraging that know-how to better focus TSA resources is 
both responsible and sensible. This approach is responsible because it 
does not compromise civil aviation security. It is sensible because it 
enables TSA to concentrate its limited resources where they are most 
needed and improves the experience of passengers because security 
checkpoints can function more efficiently by diverting fully vetted 
passengers from one-size-fits-all security measures.
                               __________
                  Questions Submitted to Steven Hacker
            Questions Submitted by Senator Mary L. Landrieu

    Question. What are some of the highest profile global trade 
exhibitions in the United States?
    Answer. Here is a short list of some of the most important high-
profile global trade exhibitions that take place in the United States, 
not in any particular order:
  --CONEXPO-CON/AGG 2014, March 4-8, 2014; \1\
---------------------------------------------------------------------------
    \1\ This event occurs every 3 years and is the largest exhibition 
in the United States.
---------------------------------------------------------------------------
  --International CES, January 8-11, 2013;
  --National Plastics Expo 2012, April 2-5, 2012;
  --National Wood Flooring Expo, April 10-12, 2012;
  --Lightfair International, May 9-11, 2012;
  --Indigo New York, April 10-11, 2012;
  --Texworld USA Summer, July 24-25, 2012;
  --FOSE Conference and Exhibition, April 3-5, 2012;
  --INFOComm 2012, June 9-15, 2012;
  --NAB Show, April 14-17, 2012;
  --National Hardware Show, May 1-3, 2012;
  --National Association of Convenience Stores, October 7-10, 2012;
  --SEMA Show, Oct 30-November 2, 2012;
  --Waste Expo, April 30-May 3, 2012; and
  --Interop Las Vegas, May 6-10, 2012.
    Question. Is the United States at risk of losing any of these 
events to foreign convention destinations as a result of business 
travelers' difficulty in obtaining visas to this country?
    Answer. Without inside knowledge it is impossible to know if any of 
the events listed are at risk of being replaced by foreign competition. 
Frankly, it is not likely though because most of these events have a 
very solid core of domestic U.S. exhibitors and attendees (buyers). 
What is known is that events that depend upon buyers and/or sellers 
from abroad are being negatively affected because many of their 
international attendees and exhibitors have been unable to secure U.S. 
visas on a timely basis or at all. In each instance, there are 
competing events taking place abroad. Those events are beneficiaries of 
our visa issuance difficulties as many buyers or sellers who cannot 
access the U.S. markets can usually attend events abroad with little 
inconvenience.
    Question. Has the Department of State made any concerted efforts to 
expedite processing for the unique brand of business travelers and 
company representatives who attend professional exhibitions and 
conventions?
    Answer. No, actually it is quite to the contrary. Not only have 
focused efforts on the most important U.S. events not taken place but 
it has become substantially more difficult for U.S. organizers to 
establish communications with consular officials abroad and to secure 
any meaningful support from them for more efficient visa issuance.
    For example, in the past savvy U.S. organizers would prepare 
briefing files of their events for the use of local consular officials. 
Many of our members would periodically visit key embassies and consular 
offices in nations like China and India specifically to establish and 
maintain relationships with visa officials. That practice is now 
discouraged and in some cases prohibited, ostensibly because consular 
officials do not have time to meet with organizers. This has been a 
setback in our efforts to assist member organizers to familiarize 
Department of State personnel abroad about the nature of their events 
and who are the likeliest audiences to attend them. It is a classic 
case of attending to the urgent and not the more important issues which 
are likelier to provide broader and more long-lasting solutions. It is, 
in other words, poor management.
    Question. Regarding the example you mentioned during your testimony 
about the trade delegation from India deciding to go elsewhere to 
purchase heavy equipment, please provide greater detail. When were they 
denied their visas? Have you spoken with them and did they provide you 
the reason they were given for their visas being denied?
    Answer. Attached to this response you will find a series of 
documents (exhibits A-E) that provide more specific information about 
individuals and delegations from India and China who have recently 
encountered visa issuance difficulties that prevented their 
participation in U.S.-based exhibitions.
    What is not recorded is the broad anecdotal evidence that U.S. 
exhibition organizers come across routinely. An example is the U.S. 
consular office in Delhi where the organizer of one of our most 
important global exhibitions was told by a consular official ``if a 
visa application crosses my desk and the applicant is from the Punjab 
region (Delhi and surrounding environs) I do not even look at it.'' The 
stunned organizer was then informed by that consular official that it 
is his opinion that any visa applicants from the Punjab region wish 
only to immigrate illegally to the United States--this despite the fact 
that many of the applicants are owners of large and profitable farms 
who wish to come to U.S. exhibitions to purchase farm equipment. I 
should also point out to you that in exhibit E slide No. 8 contains 
data in chart form that seems to corroborate the allegation that there 
is strong bias among Department of State officials against issuing 
visas to applicants originating in the Punjab region. This slide 
presentation was prepared by NASSCOM a highly respected Indian Trade 
Organization.
    In conclusion, permit me to add that the evidence that is now in 
your possession strongly suggests that our recommendations before the 
subcommittee for the establishment of a new visa commission coupled 
with the adoption of uniform guidelines to define more specifically 
when visas should or should not be issued are warranted if we are to 
bring some order to the manner in which U.S. visas are processed.
    Please feel free to contact me if I can provide further information 
on these or other questions that bear upon matters before the 
subcommittee, and thank you again for the opportunity to share our 
members' concerns with the chair and members.
    [Exhibits A-E follow:]

                                                  EXHIBIT A \1\
----------------------------------------------------------------------------------------------------------------
                                                                             Reason for       Date of consulate
      Name of the company           Name of the person         City          rejection            rejection
----------------------------------------------------------------------------------------------------------------
Alwasay Impex Pvt.ltd..........  Mr. Syed Hatim Rustom...  Mumbai.....  Visa rejection       6-Jul-11
                                                                         letter attached in
                                                                         the email--U.S.
                                                                         Consulate in
                                                                         Mumbai.
M/s. Magnum International......  Mr. Mayur Agarwal.......  Kolkata....  Frequently visiting  First week of June
                                                                         Middle East
                                                                         countries for
                                                                         business--U.S.
                                                                         Consulate in
                                                                         Kolkata.
----------------------------------------------------------------------------------------------------------------
\1\ Excerpts from an Excel spreadsheet providing names and circumstances regarding two individuals from India
  who were rejected in 2011.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
                               Exhibit C
    This is an email message from March 16, 2012, from Megan Tanel 
reporting the rejection of an eight-person delegation from Vietnam. 
Every attendee was a president or vice president of their company.

From: Megan Tanel
Sent: Friday, March 16, 2012, 11:20 a.m.
To: Hacker, Steven
Subject: RE: Senate Appropriations Subcommittee on Homeland Security 
        Hearing on Wednesday, March 21
    Here's our latest issue with this--a delegation of eight from 
Vietnam were all denied Visa's for our World of Asphalt show in 
Charlotte this week. Every attendee was a president or VP of their 
company. We're asking for more details as to why they were denied and 
working through our DC office.
                                               Megan Tanel,
                                                          CEM, AEM.
                               Exhibit D
    This includes two email messages from the ``IAEE'' Beijing office 
regarding recent Visa issues for Chinese nationals.

To: Richard Craig
From: Edward Liu
Subject: Visa Appointments and Rejection
    Dear Richard,
    Greetings again from IAEE and my company, CEMS Beijing Offices. As 
I did not receive your call for a meeting with the consular office this 
afternoon, I assumed that the visa officers and your good self were 
extremely busy and were not available for a discussion. For guidance, I 
would be returning to Beijing on 14 June for about 2 weeks, and would 
appreciate it if you could help facilitate a meeting during that 
period.
    In the meantime, I would like to bring to your attention some of 
the problems being faced by our principals, viz the World Shoes 
Association (WSA) and the National Restaurants Association (NRA) and 
our authorised sales agencies marketing their two exhibitions in China.
    Firstly, I just had a meeting with an official of the China Leather 
Industry Association (CLIA) this morning and was informed that some of 
the visa appointments are being fixed in August and even in September. 
This would affect the WSA Show which takes place in Las Vegas from 9-11 
August 2010. According to the CLIA official, he had wanted to recruit 
another 22 exhibitors but they were unable to secure visa appointments 
in time for the show in LV in August. At the moment, we have already 
contracted some 239 booths at the WSA Show, and I am concerned that 
some of the exhibitors might have problems with their visa application 
in due course.
    Similarly, there were also a couple of rejections for our 45 
exhibitors for the NRA Show which opens in Chicago from tomorrow till 
25 May. Overall, the rejection of visa applications has caused problems 
for the organisers, sales agencies and the exhibitors.
    For the organisers, to recruit new exhibitors to fill the vacated 
booths would be extremely difficult. This would disrupt their overall 
planning and layout of the exhibition booths. For the sales agencies, 
the rejection of visas for the exhibitors would mean that their 
marketing efforts would have been in vain. It would demoralise them in 
their marketing efforts for the organisers. And for the exhibitors, 
their deposits would have been forfeited by the organisers. The 
exhibitors would have wasted all their efforts in making preparation 
for the exhibition, including freighting of goods and possibly the 
construction of exhibit stands etc., thus making their intended 
participation a very costly affair. And the rejection of their visa 
applications was probably no fault of theirs!
    As mentioned recently, this lengthy visa interview process, the 
rejection of applications etc, is causing harm and damage to the 
American exhibition industry as a lot more genuine Chinese companies 
and exhibitors could have taken part in trade shows in the United 
States. This has also caused a lot of unhappiness amongst the Chinese 
associations and exhibitors, who are really keen to do business in the 
U.S.
    Thus, on behalf of IAEE and our principals, I would like to seek a 
meeting or dialogue with your colleagues from the consular section, to 
better understand their requirements and to appeal for their 
understanding and assistance in handling some of the more established 
shows in the United States. If convenient, I would like to invite a few 
Chinese associations and sales agencies for this meeting. If not, I 
would be happy to meet with them with my own staff only.
    I look forward to your kind assistance in arranging a suitable 
meeting with your colleagues from the consular section in the week of 
14 June at a date convenient to them.
            Sincerely,
                                                Edward Liu,
                           Chief Representative, IAEE China Office.
       Group Managing Director, Conference & Exhibition Management 
                                     Services, CEMS Beijing Office.

Ms. Rosemary Gallant,
Principal Commercial Officer,
American Embassy, Beijing, China.
    Dear Ms Gallant,
    First of all, warmest greetings from IAEE China Office in Beijing. 
It has been a few months since we last met at your office in Beijing.
    You may recall that we had discussed the problems of visa 
applications by Chinese executives and managers going to the United 
States, to take part in various trade shows and exhibitions. In 
particular, I had raised the problems being faced by Mr. Yang Ming of 
Ximaike International Exhibition Company, a member of our IAEE in 
China.
    I had just met up with Mr. Yang Ming in Beijing last week and he 
has subsequently sent me the email below, to seek my assistance again. 
I would be grateful if your office could look into his case, and help 
solve his problems of visiting the United States, to take part in U.S. 
trade shows.
    Your assistance would be greatly appreciated.
            Sincerely,
                                                Edward Liu,
                      PBM, Chief Representative, IAEE China Office.

From: Yang Ming,
Sent: Friday, 11 November, 2011, 8:55 a.m.
To: Edward Liu
Subject: Visa problem
    Dear Mr. Edward Liu:
    I write this letter to you in order to get your assistance to solve 
my visa problem of American.
    Mr. Yang Ming, with passport number P01410407 and birth date Feb. 
5th, 1972, is the vice general manager in XIMAIKE International 
Exhibition Co., Ltd being focus on organizing Chinese enterprises to 
attend international exhibitions.
    Yang Ming's first time to United States of America was in 1998 and 
attended IMTS (now named National Design & Manufacturing Midwest) with 
Passport Number P3359527. During that applying visa period, a managing 
operator wrote May 1st, 1972 as his birth date by a mistake which 
caused the visa refusal in 2002 IFPE (International Exposition for 
Power Transmission).
    The forthcoming birth date in visa applying is correct. Then, Mr. 
Yang Ming went to America in 2005, 2008 many times to participate IFPE 
(International Exposition for Power Transmission) and Auto Parts.
    From 2009 when he submitted the visa applying to issue, it was 
informed that he has to wait for the further information or long-time 
unknown investigation. Sometimes, it is up to 7 months. The above makes 
the delaying to attend the exhibitions or the international flights 
tickets costs as well as the difficulties of the organizing work. The 
more about Mr. Yang, he will explain to the officer in the visa section 
of United States of America in Beijing. As a result, he will repeat all 
mentioned formalities each time in visa applying.
    I has got an U.S. visa issued under the assist of IAEE with single 
entry this year. When I came back from America and continued to go 
further for renewing visa based on Auto Parts exhibition which goes 
without any result until now. The exhibition is closed now.
    I don't have any relatives of my family members in USA, I have good 
and stable job in China.
    Because XIMAIKE organizes more than 20 exhibitions in USA every 
year, we sincerely hope the visa applying for Mr. Yang Ming can go 
smooth which will ensure the exhibition organizing successfully.
    It is highly appreciated for your reply.
                                             Mr. Yang Ming,
                       XI MAI KE International Exhibition Co., LTD.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                   Questions Submitted to Sara Nelson
            Questions Submitted by Senator Mary L. Landrieu

                        KNOWN CREWMEMBER PROGRAM

    Question. TSA's Known Crewmember initiative allows pilots to forego 
regular screening procedures if they show two forms of verifiable ID, 
but flight attendants are not eligible to participate in the program.
    Can you explain the background checks that flight attendants 
typically undergo as part of the hiring process and your association's 
perspective on this policy?
    Answer. TSA regulations require flight attendants to undergo a 10-
year criminal history records check and an employment history 
investigation as a condition of employment. Pilots are subject to the 
same regulation. The regulations are designed to ensure the 
trustworthiness of each flight attendant and pilot to serve as 
crewmembers responsible for the safety and security of every flight and 
they are effective. For this reason, the U.S. airline industry and all 
crewmember unions advocate inclusion of flight attendants in the Known 
Crewmember program.
    Question. With airline pilots, TSA has the ability to access a 
central database to verify a pilots' identity through the Known 
Crewmember program. TSA has identified the lack of a similar database 
for Flight Attendants as an impediment to expediting screening for 
Flight Attendants. Can you please respond to this issue?
    Answer. Some airlines have a database of flight attendants that 
would provide the information needed by Known Crewmember (KCM) to 
verify the current employment status and identity of flight attendants. 
Other airlines need to update their existing database and some airlines 
need to create such a database. The TSA needs to provide the 
specifications for connectivity to KCM for existing airline flight 
attendant databases or flight attendant databases to be created.

                          CHECKED BAGGAGE FEES

    Question. According to a Government Accountability Office report 
from July 2010 (Cite: GA0-10-785, page 29), the Association of Flight 
Attendants conducted a member survey in February of that year 
indicating that checked baggage fees have led to excess and oversized 
carry-on bags, slow passenger boarding, pushback delays, stressful 
boarding situations, full overhead bins, and injuries to airline staff 
and passengers from lifting oversize carry-on bags.
    From your organization's perspective, can you please explain the 
impact of checked baggage fees on flight attendants' general ability to 
facilitate passenger boarding and efficient, customer-friendly air 
travel?
    Answer. Overly large and bulky carry-on items have been a problem 
for commercial aviation operations for several decades.
    An examination of past airline and Government data suggests that 
the frequency of injuries among cabin crew is high, but reliable 
statistics on crew and passenger injuries caused by carry-on items are 
difficult to obtain. In the mid-1980s, as problems mounted, the 
Association of Flight Attendants gathered evidence from its members and 
presented the data to the Federal Aviation Administration (FAA) with a 
request for limits on carry-on baggage. Hearings were held in 1985; a 
rule proposed in 1986 followed by more hearings; and a final rule, 
Federal aviation regulation section 121.589 Carry-on baggage, was 
published in June 1987, followed closely by advisory circular (AC) 121-
29, an industry guidance document published in November 1987. 
Unfortunately, the regulation contains two fundamental weaknesses: each 
airline is allowed to set policies (approved by the FAA) dictating 
numbers and sizes of passenger carry-on items, and airlines are allowed 
to enforce their own policies. Despite minor revisions made since 
initial passage of the carry-on baggage regulation, neither weakness 
has been corrected.
    According to the TSA Common Strategy, flight attendants are 
supposed to carefully observe passengers during the boarding process to 
watch for suspicious items and behaviors. Prior to takeoff, flight 
attendants can ask the captain to subject a suspicious passenger to 
additional security scrutiny. If warranted, the passenger can be 
removed from the plane before takeoff or monitored more carefully in 
flight.
    The ability of flight attendants to provide this critical final 
layer of pre-flight security is severely diminished by carry-on baggage 
chaos. Flight attendants report being distracted from their critical 
security responsibilities by attempts to wedge excessive quantities and 
sizes of carry-on bags into overhead bins, and often time-consuming 
efforts to convince passengers to take excess bags back to the jetway 
for stowage as checked baggage.
    While there may appear to be increases in the quantity of baggage 
brought into the cabin since airlines began charging fees for checked 
bags, to AFA's knowledge there have been no surveys conducted or 
statistical data generated that isolate checked baggage fees as the 
significant contributing factor. In fact, AFA believes that other 
factors, including flight reductions that have led to decreases in 
total numbers of seats and increased load factors and seat pitch 
reductions to increase seating capacities on individual airplanes are 
potentially greater contributors.
    Thus, in AFA's opinion the specific factors that contribute to the 
crew distractions, schedule disruptions and workplace safety hazards 
created by excessive amounts of carry-on baggage are unknown. However, 
what is clear is that a simple, standardized policy applied to all 
passengers and enforced prior to the security screening area is 
necessary. A standard bag size dimensional limit that accommodates most 
passengers' carry-on baggage is essential to curtail attempts to bring 
onboard overstuffed bags that cannot be accommodated in the storage 
location under the seats in front of passengers. Once the overhead bins 
are full these larger, bulkier bags must be checked prior to closing 
the aircraft door, leading to crew distractions and flight delays. 
Smaller, standard sized carry-on bag limits will ensure that passengers 
are able to accommodate their allowable amounts of one carry-on bag 
plus one personal item in the overhead bins and in the under-seat 
storage areas.

                         CONCLUSION OF HEARING

    Senator Landrieu. And Mr. Hacker, I am going to schedule a 
special meeting between you and your association and the State 
Department to talk more carefully through this because it is 
absolutely essential. And I know it is the idea of this 
administration to foster international trade, but in theory it 
sounds great, but this is the practice of international trade. 
This is where the rubber hits the road. This is whether it 
happens or not. And all the good wishes here in the United 
States for selling our equipment, ideas, and professional 
services overseas cannot happen if people who are buying them 
cannot get access to the trade shows where we are displaying 
some of our best services and wares. And so I am going to ask 
for a special meeting with State to focus with you on this.
    I think we are making some headway on the tourism piece of 
this. I think we have a long way to go on this more business-
focused trade situation.
    This has been a very good hearing. I am glad we had it. I 
thank the staff.
    And the meeting is recessed.
    [Whereupon, at 12:06 p.m., Wednesday, March 21, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
